<html>
<title> - UNITED STATES CENTRAL COMMAND, UNITED STATES AFRICA COMMAND AND UNITED STATES SPECIAL OPERATIONS COMMAND</title>
<body><pre>[Senate Hearing 114-650]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-650

                     UNITED STATES CENTRAL COMMAND,
                    UNITED STATES AFRICA COMMAND AND
                UNITED STATES SPECIAL OPERATIONS COMMAND

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2016

                               __________

         Printed for the use of the Committee on Armed Services


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-682 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 










                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman      JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma             BILL NELSON, Florida
JEFF SESSIONS, Alabama                CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi          JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire           JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                 KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                  RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota             JOE DONNELLY, Indiana
JONI ERNST, Iowa                      MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina           TIM KAINE, Virginia
DAN SULLIVAN, Alaska                  ANGUS S. KING, JR., Maine
MIKE LEE, Utah                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      

                      Christian D. Brose, Staff Director
                      Elizabeth L. King, Minority Staff 
                                  Director

                                  (ii)

  



















                         C O N T E N T S

________________________________________________________________________

                             March 8, 2016

                                                                   Page

United States Central Command, United States Africa Command and       1
  United States Special Operations Command.

Austin, General Lloyd J., III, USA, Commander, U.S. Central           5
  Command.
Rodriguez, General David M., USA, Commander, U.S. Africa Command.    26
Votel, General Joseph L., USA, Commander, U.S. Special Operations    35
  Command.

Questions for the Record.........................................    75

                                 (iii)

 
                     UNITED STATES CENTRAL COMMAND,
                    UNITED STATES AFRICA COMMAND AND
                UNITED STATES SPECIAL OPERATIONS COMMAND

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on the 
posture of U.S. Central Command [CENTCOM], Africa Command 
[AFRICOM], and Special Operations Command [SOCOM] in the 
context of our review and oversight of the fiscal year 2017 
defense budget.
    We are pleased to welcome our witnesses, General Austin, 
General Rodriguez, and General Votel. We thank each of you for 
decades of distinguished service and for your leadership of our 
men and women in uniform. I would like to extend special thanks 
to General Austin and General Rodriguez, as this may be their 
last appearance before this committee.
    Our Nation's most distinguished national security leaders 
have testified before this committee repeatedly that we are 
witnessing the unraveling of the rules-based international 
order. Nowhere is this unraveling more visible or more 
dangerous than the Middle East. From North Africa to South 
Asia, state authority and the balance of power are breaking 
down.
    This emerging vacuum has been filled by the most extreme 
and anti-American of forces: Sunni terrorist groups, such as 
Islamic State of Iraq and the Levant [ISIL] and al Qaeda; 
Shiite extremists, such as the Islamic Republic of Iran and its 
proxies; and the imperial ambitions of Putin. As a result, 
almost every Middle Eastern country is now a battleground or 
combatant in one or more wars, to wit, this morning's New York 
Times entitled, ``Pentagon plan to fight ISI[L] in Libya 
includes barrage of airstrikes.''
    These are diverse, complex, and transregional threats that 
our military confronts every day across CENTCOM, AFRICOM, and 
SOCOM lines of responsibilities.
    As this committee continues its review of the Goldwater-
Nichols Act, we are interested to hear our witnesses' views as 
to whether the current structure best enables us to succeed in 
the strategic environment of global and transregional threats 
in the 21st century and what reforms we might consider. This is 
critical because there are already too many obstacles to 
success as it is.
    Time and again, politically driven strategy, 
micromanagement, and misguided reductions in defense spending 
have made our military's job more difficult. This has been 
especially true for our Special Operations Forces [SOF]. More 
than 15 years of continuous deployments, due in part to an 
overreliance on their unique capabilities, has led to 
unprecedented stress on the force.
    As the threats we face impose greater demands on our 
special operators and their families, we must be vigilant and 
provide the necessary support to maintain their vital 
capabilities, not just in direct action, but in building 
partnership capacity across CENTCOM and AFRICOM.
    While we marvel at our Special Operations Forces, we must 
remember they are just one part of our force and our strategy. 
They are not a magic solution to every problem or a substitute 
for a coherent strategy, as the administration's ``light 
footprint'' approach in the Middle East has demonstrated 
repeatedly.
    Despite temporary relief from the arbitrary spending caps 
imposed by the Budget Control Act, we are still facing an 
unnecessary and dangerous burden on the backs of our 
servicemembers in the CENTCOM and AFRICOM theaters. President 
Obama's fiscal year 2017 defense budget request does little to 
relieve that burden.
    Secretary Carter has said the military is at a major 
inflection point, requiring urgent and simultaneous investments 
in next-generation technologies and in current operations, such 
as a 50 percent increase in funding for the fight against ISIL. 
In view of these needs, President Obama should have requested a 
defense budget that reflects the scale and scope of the 
national security threats we face.
    Instead, he chose to request lowest level of defense 
spending authorized by last year's budget agreement and 
submitted a defense budget that is actually less in real 
dollars than last year, despite the fact that operational 
requirements have grown.
    This comes as little surprise from an administration that 
for the past seven years has sought to scale back America's 
involvement in and commitment to the Middle East. In moments of 
consequence--Iran's Green Revolution, Libya after the fall of 
Muammar Qadhafi, the withdrawal from Iraq, and the crossing of 
the chemical redline in Syria--this President walked away and 
ignored the lessons of history that power abhors a vacuum, that 
wars do not end because politicians say so, that the perils of 
indecision and inaction often outweigh the risks of action, and 
that while America cannot solve the problems of the Middle 
East, American leadership is indispensable to managing them.
    With major policy decisions hanging in the balance right 
now, our Nation cannot afford to ignore these lessons again. In 
Afghanistan, the President has told our enemies that we will 
proceed with a calendar-based decision to cut United States 
troop presence in half by the end of this year, and he has yet 
to explain the consequences of reducing U.S. troop levels from 
9,800 to 5,500; significant reductions to information, 
surveillance, and reconnaissance [ISR] and close-air support 
capacity; diminished operational flexibility of U.S. 
counterterrorism forces; and perhaps most damaging of all, the 
end of the U.S. train, advise, and assist mission at all but 
the highest level of the Afghan military precisely when their 
support is needed most.
    What all this translates to is risk: risk that problems and 
contingencies once addressed in days will be addressed in 
months, that is if they are addressed at all; risk that sudden 
tactical or operational setbacks that would have been in our 
power to reverse will put Afghanistan on a path to strategic 
failure we will be powerless to stop; and risk that the gains 
won by the sacrifices of American and Afghan troops will be 
squandered.
    In Iraq and Syria, the artificial limitation on troop 
levels ties the hands of our military commanders and makes our 
troops more vulnerable to attack and much less likely to 
succeed. The President has inched forward with incremental 
increases in needed capabilities, but this misguided gradualism 
serves only to allow the enemy to adjust before these 
capabilities ever make a difference.
    It is clear to me from my conversations with our military 
commanders both on the ground and in the Pentagon that they 
have been reduced from considering what it will take to win to, 
``What will I be allowed to do?'' It is our troops and our 
national security that are paying the price.
    Africa has emerged as the next front of the global war on 
terror with ISIL, al Qaeda, Boko Haram, and al Shabaab 
commanding territory and launching successful attacks 
throughout the continent.
    Most alarming, ISIL now commands an army of 5,000 fighters 
in Libya. While the threat in Africa continues to metastasize, 
our military commanders are being forced to do more with less, 
starved for resources and denied timely and flexible 
authorities to take advantage of battlefield opportunities and 
halt the advance of extremism.
    In the Gulf, the President is failing to live up to the 
promises made at the Camp David summit in May 2015. For 
example, the President committed to fast-tracking arms 
transfers to our Gulf partners with fighter aircraft sales for 
Qatar, Kuwait, and Bahrain that could help thwart Iranian 
hegemonic ambitions. They are languishing on the shelf 
gathering dust. Once again, American credibility is 
disintegrating as the malign influence of Iran and Russia 
continues to grow.
    This administration's great failure to date has not been 
that it makes mistakes. It is rather that it has failed or 
perhaps refused to learn from them. Unless we chart a new 
course, it may well be this administration's lasting legacy.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    I too want to join you in commending and thanking General 
Austin and General Rodriguez for their extraordinary service, 
since this is likely to be their last appearance before the 
committee.
    It has been a privilege to work with you for many years. 
Your professionalism, skill, and commitment to the soldiers, 
sailors, airmen, and marines that you lead is without parallel. 
Thank you, gentlemen, both.
    General Votel, we appreciate your appearance here today as 
a Special Operations Commander, and we will see you again 
tomorrow, I suspect, as you have been nominated to be the 
successor to General Austin in Central Command. Again, your 
service is also deeply appreciated.
    Earlier this year, I traveled to Iraq, Afghanistan, and 
Djibouti to see firsthand some of the pressing challenges that 
we have been talking about.
    In Iraq, the diplomatic and military officials I met 
universally agreed that the Iraqi security forces' successful 
retaking of Ramadi in June was critical for providing momentum 
for upcoming operations. While ISIL has now lost considerable 
territory that it once held in Iraq, the more difficult 
military task is still ahead.
    In the coming months, the combination of a newly trained 
Iraqi security force, enabled by coalition intelligence and 
airstrikes, should be able to continue to make progress in 
evicting ISIL from population centers. We look forward to our 
witnesses' assessment of what we can expect realistically in 
the coming months as Iraqi special forces and security forces 
turn their attention particularly to Mosul.
    In addition, Iraq's political leadership must confront the 
longstanding questions related to political reconciliation in 
Iraq.
    General Austin, I look forward to your assessment of the 
political atmosphere in Baghdad and whether you believe the 
conditions are set for a political dialogue, which will 
stabilize the political situation to complement military 
actions taking place.
    In Syria, the cessation of hostilities agreement appears to 
be tenuously holding, and tenuously at best. It remains 
unclear, however, this incremental step will be sufficient to 
set the stage for meaningful political negotiations, which 
every side said is the ultimate solution to their issue.
    ISIL remains in control of much of eastern Syria. Syrian 
Kurdish armed fighters with the assistance of coalition 
airstrikes and Special Operations Forces have made gains in 
northern Syria, but the battlefield dynamic continues to 
present many challenges.
    As General Philip Breedlove discussed last week, the 
weaponization of refugees by Russian and regime activity in 
Syria presents military, political, and humanitarian issues 
that we have not seen in the modern era. I hope our witnesses 
will provide their assessment of the situation in this respect.
    Iran continues to be a cause of significant concern to the 
committee, particularly its recent missile test and ongoing 
support to nonstate actors across the Middle East.
    General Austin, I hope you will provide your updated 
assessment of Iran's activities in the wake of the [JCPOA] 
Joint Comprehensive Plan of Action's implementation day.
    In Afghanistan, the past year has been one of significant 
security and political transition. We must continue to evaluate 
how we can best enable efforts by the Government of Afghanistan 
to protect and govern its population.
    I know that General John Nicholson, the new commander of 
Resolute Support, is now conducting an assessment of what 
capabilities and associated troop levels he believes will be 
required to achieve our objectives in Afghanistan throughout 
the rest of 2016 and into 2017. As I said before, his 
recommendations must be given most serious consideration, since 
he is on the battlefield and the closest to the issue.
    General Austin, General Votel, your thoughts, again, on 
this issue would be deeply appreciated.
    General Rodriguez, one of the results of CENTCOM's 
operations against ISIL in Iraq and Syria has been ISIL 
metastasizing into Libya and other places, as we have talked 
about. Your command has undertaken a number of operations 
against ISIL in Libya. The lack of a functioning government in 
Tripoli or a unified Libyan military makes it difficult to 
sustain progress. I hope, again, you will give us your insights 
on this issue.
    While in Djibouti, I was made more familiar with the 
operations in Somalia. As you know, General Rodriguez, the 
AMISOM, African Union Mission in Somalia, has been functioning, 
but it is coming under increasing pressure. We, in turn, have 
been helping them. Just recently, there was a significant 
airstrike by U.S. Forces to help support their efforts. I would 
like your assessment of the situation there, and, as we go 
forward, what we can do.
    There is one issue that cut across all the areas I visited, 
and that was that we seem to be losing the information war of 
messaging, of getting our message to the people of all these 
countries about our support for the legitimate government, for 
reasonable, decent government. That is ironic, to say the 
least. Your comments about how we can reverse this tide and, in 
fact, win the information war and win the population to our 
side would be appreciated.
    Again, General Votel, finally, as the chairman has noted, 
your Special Operations Forces have sustained extraordinary 
operational tempo over the last years. We know what they have 
done. They have done extraordinary work, and we appreciate your 
leadership. We all would like you to commend them personally, 
and their families, for what they have done.
    I would be remiss if I did not recognize the senior 
enlisted personnel that are here. Thank you, gentlemen, for 
your leadership.
    Thank you, Mr. Chairman.
    Senator McCain. Welcome, General Austin.

STATEMENT OF GENERAL LLOYD J. AUSTIN III, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Austin. Good morning, Chairman McCain, Ranking 
Member Reed, distinguished members of the committee, I want to 
thank you for the opportunity to appear here today to discuss 
the current posture of your United States Central Command.
    I am pleased to appear here this morning alongside General 
David Rodriguez and General Joe Votel.
    Today's global security environment is incredibly complex. 
Most of the challenges that we face transcend borders. I cannot 
ask for two better teammates than the gentleman beside me to 
work through these challenges on a daily basis.
    Ladies and gentlemen, this past year has been an especially 
challenging one for the governments and for the people of the 
central region. We have seen an almost unprecedented level of 
turmoil and conflict among regional, state, and nonstate 
actors, along with increasing involvement by external state 
actors such as Russia and China.
    At the same time, many of the countries that make up the 
central region are under growing economic pressure. Of course, 
the combination of these and other factors makes this 
strategically important region vulnerable to conflict and to 
increased instability.
    Presently, the United States Central Command is involved in 
or supporting multiple military operations, and they include 
the campaign to counter ISIL in Iraq and Syria, and our 
Resolute Support mission in Afghanistan. We are providing 
limited support for the Saudi-led coalition in Yemen. We 
continue to prosecute the fight against terrorism and extremism 
throughout our area of responsibility. We are also dealing with 
the mischief that we see throughout the region that is caused 
by Iran.
    I will talk briefly about a few the situations, in 
particular as they continue to demand a large portion of our 
attention and our resources. I will start with the fight 
against ISIL.
    Ladies and gentlemen, we are defeating this enemy in Iraq 
and Syria, and we are pressuring ISIL on more fronts than at 
any other point in time since they marched into Mosul some 18 
months ago. We are doing so by degrading the enemy's military 
capability, by taking back territory, by diminishing his 
economic resources, and by removing his senior leadership from 
the battlefield. We are also slowing the flow of foreign 
fighters joining his ranks.
    All of these actions in combination are contributing to a 
force that is less capable and increasingly demoralized and 
paranoid and prone to defections.
    While we are defeating ISIL in Iraq and Syria, we see 
increased efforts by this enemy to expand into other areas of 
the globe, mainly North Africa, the Arabian Peninsula, and 
South Asia. He is expanding into these and other areas in part 
because he knows that he is losing in Iraq and Syria, and he 
needs to find other ways to maintain his legitimacy.
    Halting this expansion will require a concerted effort by 
the international community going forward.
    In the meantime, Iraq's security forces are performing 
better with time through our capacity-building efforts. Of 
note, the Kurdish Peshmerga remain critical to our efforts on 
the ground in the northern part of the country. They are 
irreplaceable, and we must do all that we can to support them.
    In Syria, we continue to work with indigenous forces, 
including Syrian Arabs, Kurds, Turkmen, and others as they take 
the fight to the enemy. Together, they are achieving tremendous 
results, including securing more than 18,000 square kilometers 
of territory previously held by the enemy.
    Ladies and gentlemen, the fight against ISIL in Iraq and 
Syria remains incredibly complex. While the defeat of ISIL will 
take time and it will not be easy, you can rest assured that we 
will get it done.
    Meanwhile in Afghanistan, the security forces continue to 
hold their own. They have come a long way over the past 14-plus 
years, and we want to ensure that they maintain momentum going 
forward. This past year, the Afghans underwent multiple 
transitions that together have shifted the operational 
environment. I still assess that the Afghan security forces are 
capable of holding their gains against the Taliban, however, 
like with any plan, changing conditions on the ground may 
require a reevaluation of our planning assumptions.
    We have invested a great deal in that country. It is an 
important country for a number of reasons, and we want to do 
what is necessary to help the Afghans be successful in the long 
term.
    Finally, with respect to Iran, while we are hopeful that 
the implementation of the JPOA agreement and the results of the 
recent elections will lead to more responsible behavior by the 
Iranians, we have not yet seen any indication that they intend 
to pursue a different path. The fact remains that Iran today is 
a significant destabilizing force in the region.
    Ladies and gentlemen, some of the behavior that we have 
seen from Iran of late is certainly not the behavior that you 
would expect to see from a nation that wants to be taken 
seriously as a respected member of the international community. 
We will continue to keep a close eye on Iran going forward.
    Today, despite the many challenges that exist in CENTCOM, 
we do see progress being made in a number of areas. Of note, 
our decades of investment are paying off, and we are seeing our 
regional partners assume a greater share of security 
responsibilities in the region. They are effectively dealing 
with extremist threats in their own countries while conducting 
military operations as a part of a counter-ISIL coalition in 
Iraq and Syria.
    We are encouraged by what we are seeing, and we remain 
committed to working with our partners in support of our shared 
goals and objectives.
    Ultimately, we want to see a strategically important 
central region move in the direction of increased stability and 
security. We must be properly resourced to do what is required 
to effectively protect and promote our interests.
    We do appreciate this committee's strong, continued 
support. In closing, Chairman McCain and Ranking Member Reed, 
members of the committee, I want to thank you most importantly 
for the strong support that you continue to show to our 
servicemembers, our civilians, and their families. I am 
incredibly proud of them, and I know that you are as well. 
Thank you again for the opportunity. I look forward to 
answering your questions.
    [The prepared statement of General Austin follows:]

           Prepared statement by General Lloyd J. Austin III
                              introduction
    This is an extraordinarily challenging time throughout the Central 
Region. We see an almost unprecedented level of activity, turmoil, and 
conflict among regional state and non-state actors, along with 
increasing involvement by external state actors including Russia and 
China. Many of the challenges facing the region, most notably the 
threat posed by the violent extremist organization (VEO), the Islamic 
State of Iraq and the Levant (ISIL), transcend borders. They are 
symptoms of a wider set of challenges plaguing that strategically-
important part of the world. The most fundamental challenge remains the 
heightened instability that is fueled, in large part, by certain root 
causes or ``underlying currents.'' The prevailing current is the ethno-
sectarian competition that exists between groups and chiefly among 
Shiite and Sunni and Arab and Persian populations.
    The regional security environment is incredibly complex. The sharp 
decline in global oil prices is greatly impacting those countries that 
are highly-dependent upon oil revenues. The economic uncertainty is 
adding to the instability, while limiting partner nations' purchasing 
power. The region continues to struggle with a large-scale humanitarian 
crisis caused primarily by the wars in Syria and Yemen. The situation 
is further challenged by malign actors and poisonous ideas that serve 
to radicalize individuals and generate movements that threaten our core 
national interests and the interests of partner nations. Adding to this 
challenge, the world today is more interconnected than ever before. The 
information space is borderless and physical borders are less clearly 
defined, if not absent altogether. As a result, events that occur in 
one location can and often do affect other parts of the globe. Thus, we 
have a vested interest in helping our regional partners to address 
existing challenges and, to the extent possible, prevent potential 
problems from developing further.
    We have an important role to play in providing for the security of 
the Central Region. That said, we also recognize that we cannot solve 
every challenge through direct U.S. military action alone. While 
supporting and enabling the efforts of partner nations, we must help 
them build additional needed military capacity. The goal is to empower 
them to provide for the security of their sovereign spaces and confront 
regional security challenges such as those posed by Iran. We must also 
encourage our partners to actively counter radical ideologies and 
address the ``underlying currents'' that contribute in large part to 
the instability in the region. American efforts, including the U.S. 
military, can buy time and we may encourage others to do what is 
necessary. However, we cannot do it for them. Only the people of the 
region can bring about the needed changes.
    Today, despite the many challenges that exist in U.S. Central 
Command's (USCENTCOM) area of responsibility (AOR), we do see progress 
being made in a number of areas. We are hurting our adversaries, while 
helping our partners assume a larger role in providing for the security 
of the region. Their conventional military capabilities far outreach 
those of any possible hostile adversary, and our core partnerships 
remain strong. At the same time, while weaker and under threat, 
political institutions throughout the region, including in Iraq and 
Afghanistan, are withstanding pressure from extremist groups and 
outside actors. Moreover, we have 84,000 U.S. troops in the AOR with an 
unmatched ability to provide rapid reinforcement in response to 
unforeseen contingencies. They are the best and most capable military 
forces in the world. Their presence and many contributions are making a 
significant difference in what is a very important part of the world. 
The Central Region is an area of great consequence and one that merits 
our continued, strong investment. We will need to remain present, 
properly postured, and actively engaged there for the foreseeable 
future.
                          a retrospective look
    This past year, we worked through a number of tough challenges 
throughout the Central Region. Five specific areas required a larger 
share of our energy and attention. Foremost among them is Operation 
Inherent Resolve in Iraq and Syria. American military action, coupled 
with our leadership of the 66-member international coalition, has 
achieved substantial progress in combatting ISIL. We have degraded the 
organization, which was Phase I of the military campaign, and we are 
well along in Phase II operations which focus on dismantling ISIL. The 
forging of a whole-of-government effort has maximized the effectiveness 
of military and diplomatic actions. At the same time, we are providing 
support to the Gulf Cooperation Council (GCC)-led Coalition in Yemen. 
Additionally, we maintain pressure on extremist networks and actively 
pursue terrorists in the region on a daily basis. Next, we continue to 
support operations in Afghanistan where we have transitioned to a 
mission focused on helping the Afghans to build needed capability and 
fortify their security forces, while we continue to take direct action 
against al Qaeda (AQ), ISIL-Khorasan Group (ISIL-KP), and others that 
present a threat to U.S. and coalition forces. Finally, we keep a close 
eye on Iran. We are hopeful that the controls put in place as a result 
of the Joint Comprehensive Plan of Action (JCPOA) agreement will 
discourage Iran from pursuing a nuclear weapon. Regardless, Iran 
maintains hegemonic ambitions and will continue to pose a threat to the 
region through the employment of various anti-access and area denial 
(A2/AD) capabilities, theater ballistic missile and cyber capabilities, 
aggressive maritime activities, and the destabilizing activities of the 
Iranian Threat Network (ITN) and its Iranian Revolutionary Guard Corps-
Qods Forces (IRGC-QF), and other proxies operating in the region.
    The command's primary focus this past year has been the ongoing 
fight against transnational VEOs, and namely ISIL or what is referred 
to by many in the region as ``Daesh.'' While the group's military 
capabilities have been degraded in Iraq and Syria, which represents the 
center of ISIL's self-proclaimed Caliphate, the group remains a 
legitimate terrorist threat in both countries and has expanded its 
reach to other parts of the globe, including Egypt, Afghanistan-
Pakistan, Yemen, Libya, West Africa, and parts of the Pacific. ISIL's 
presence undermines nation-states while driving competition for 
leadership among global jihadists. This competition has led to 
increased activity by ISIL and AQ which, although its capability is 
degraded, remains relevant and active throughout the region. ISIL's 
insidious activities perpetuate sectarian conflict and, if not 
effectively addressed, could serve to spark a broader regional 
sectarian war. For these and a host of other reasons, ISIL poses the 
most immediate security threat to our interests and the interests of 
our partners and allies. It must be--and it will be--defeated.
    Over the past year we have seen a trend emerge as countries have 
begun to take more seriously the threat from transnational and trans-
regional VEOs. Many of our regional partners historically did not 
prioritize the threat from VEOs. They were less concerned that these 
organizations would attack them at home. However, ISIL has changed that 
paradigm. Countries, including Saudi Arabia and Egypt, now are dealing 
with a very real threat from Sunni extremists that they did not 
encounter in the past. They recognize that they can no longer afford to 
dismiss these threats. In the same way, countries outside of the 
Central Region, particularly throughout Europe and Turkey, have 
experienced a relatively high number of terrorist attacks conducted by 
or inspired by VEOs in the region, including ISIL and AQ. As partner 
nations' perceptions begin to change, we should seize the opportunity 
and work with them to build additional needed capability.
    The most prevalent challenge facing the Central Region continues to 
be the ``underlying currents'' that fuel many of the destructive 
behaviors that plague that strategically-important part of the world. 
These currents include a growing ethno-sectarian divide; the ongoing 
religious struggle between violent extremists and moderates; and, the 
rejection of corruption and oppressive governance. They also include 
the ``youth bulge,'' which consists of young and unemployed or under-
employed and disenfranchised individuals who feel marginalized and thus 
are ripe for recruitment by extremist elements. While there appears to 
be a greater recognition of the negative effects of these currents, we 
have yet to see sufficient improvements made to address them. Indeed, 
they are becoming even more pronounced. In many parts of the region, 
ethnic and sectarian affiliation has taken on greater importance, 
moving to the forefront of individuals' and nation-states' identities. 
For example, it is more important for some to be Sunni or Shiite, 
Kurdish or Arab, than to be an Iraqi or a Syrian. Stakeholders 
recognize this changing dynamic, and they have not only sought to 
benefit from the growing instability, many actively exploit the 
sectarian tensions to promote their own goals and objectives. All of 
this has the effect of seriously weakening the nation states in the 
region.
    Progress with respect to the root causes of the instability can 
only be achieved by the governments and the people of the region with 
our continued support. They must actively work to address the growing 
ethno-sectarian divide, elevate the voice of moderates, root out 
corruption, guard against freedom of movement and expanding influence 
by terrorist groups in ungoverned and under-governed spaces, and ensure 
the young people of the region have access to better opportunities and 
are able to contribute to society in meaningful ways. We need to see 
responsive governments in place and taking an active role in addressing 
these and other challenges facing the region.
    The international community must also do its part to address the 
radical ideologies that serve to inspire extremist behaviors. It should 
be noted that the fight against ISIL is not simply a fight against a 
VEO. ISIL is an ideologically-motivated movement and must be addressed 
as such if we hope to achieve lasting, positive effects. We are 
beginning to see some positive trends with an increasing number of 
state leaders, senior clerics, and religious leaders from Arab 
countries speaking out against radical extremism. We are hopeful that 
such ventures will bear fruit, and we will do all that we can to 
support them going forward.
    What should concern us all, beyond the sectarian nature of today's 
conflicts, is the growing risk that the increased malign activity by 
proxy and surrogate actors could lead to perpetual armed conflict and 
resulting widespread instability in the region. The ``underlying 
currents'' are common to many of the problems that exist, and 
activities in one area often fuel challenges in other parts of the 
region. We will have to keep a close eye on these and other challenges 
present throughout our area of responsibility.
                          uscentcom's mission.
    USCENTCOM's mission statement is: ``With national and international 
partners, USCENTCOM promotes cooperation among nations, responds to 
crises, deters or defeats state and non-state aggression, and supports 
development and, when necessary, reconstruction in order to establish 
the conditions for regional security, stability and prosperity.''
                         strategic environment.
    The Central Region is one of the most strategically-important 
regions, holding about half of the world's proven oil reserves and 
plentiful natural gas deposits, which are crucial to the global energy 
market. The U.S. and our partners have core national interests in the 
region; they include the free flow of resources through key shipping 
lanes, the prevention of the proliferation of weapons of mass 
destruction, and the defense of our Homeland against the persistent 
threat of terrorism and extremism. It also is an area plagued by 
violence and instability, political discord, economic stagnation, 
resource shortages (e.g., water), ethnic and religious tensions, and 
wide expanses of ungoverned or under-governed spaces. These provocative 
factors make for a volatile environment that puts our interests and 
those of our partners at risk. When things go badly in the Central 
Region, it has a clear and sizeable impact on the affected countries 
and other parts of the globe. For this reason it is an area of the 
world that merits our continued focus and dedicated efforts.
                         uscentcom priorities.
    At U.S. Central Command, our aim is to see a positive 
transformation of the region over time, achieved ``by, with, and 
through'' our regional partners. Looking ahead, USCENTCOM will remain 
ready, engaged and vigilant. Our priority efforts include:

    <bullet>  Dismantle and eventually defeat ISIL in order to prevent 
further trans-regional spread of sectarian-fueled radical extremism, 
and to mitigate the continuing Iraq-Syria crisis.
    <bullet>  Continue support to Afghanistan, in partnership with 
NATO, to assist Afghanistan as it establishes itself as a regionally 
integrated, secure, stable, and developing country; continue planning 
and coordination for the enduring United States and NATO partnerships 
in Afghanistan beyond the end of 2016.
    <bullet>  Defeat al Qaeda, deny violent extremists safe havens and 
freedom of movement, and limit the reach of terrorists, to enhance 
protection of the United States Homeland and allies and partner nation 
homelands.
    <bullet>  Counter the Iranian Threat Network's malign activities in 
the region, to include the impacts of surrogates and proxies.
    <bullet>  Support a whole of government approach to developments in 
Yemen, preventing Yemen from growing as an ungoverned space for AQ/
VEOs; and supporting regional stability efforts that retain U.S. CT 
capacity in the region.
    <bullet>  Maintain a credible deterrent posture against Iran's 
evolving conventional and strategic military capabilities.
    <bullet>  Prevent, and if required, counter the proliferation of 
weapons of mass destruction; disrupt their development and prevent 
their use.
    <bullet>  Protect lines of communication, ensure free use of the 
global commons and cyberspace, and secure unimpeded global access for 
legal commerce.
    <bullet>  Shape, support, incentivize, and maintain ready, flexible 
regional Coalitions and partners, as well as cross-CCMD and interagency 
U.S. whole-of-government teams, to support crisis response; optimize 
military resources.
    <bullet>  Develop and execute security cooperation programs, 
improving bilateral and multi-lateral partnerships, building partnered 
``capacities,'' and improving information sharing, security, and 
stability.

                         critical focus areas.
    While we remain focused on the broad range of challenges present 
today in the Central Region, there are several areas that merit a 
larger share of our attention and resources. These areas are 
strategically-important because of their potential impact on our core 
national interests and the interests of partner nations.
    Operation Inherent Resolve (Iraq-Syria).  We remain intensively 
focused on the crisis in Iraq and Syria and the ongoing fight against 
the terrorist organization, ISIL. Our military campaign to defeat ISIL 
requires that we rely on indigenous forces and that we support and 
enable their efforts using our precision air operations and by advising 
and assisting their leadership and training and equipping their ground 
forces. Eighteen-plus months into the campaign, we are putting 
increased pressure on ISIL throughout the depth and breadth of the 
battlespace. We are achieving good effects against the enemy; we 
completed Phase I of the military campaign (Degrade) and are well into 
Phase II (Dismantle).
    In Iraq, the Iraqi Security Forces, which include Iraqi Army and 
Counter-Terrorism Services (CTS) forces, Kurdish Peshmerga, and various 
Sunni and Shiite volunteer elements, with the support of United States 
and Coalition air operations and advisors and materiel donations, have 
effectively halted ISIL's advance. The enemy is now almost exclusively 
focused on defending his strongholds rather than projecting combat 
power. Additionally, ISIL's counter-attack capability has been reduced 
as a result of battlefield losses, although we see the group conducting 
deadly terrorist attacks against Iraqi forces in Anbar and west of 
Baghdad, and, worryingly, civilian targets--including in areas far from 
its control, in Baghdad and parts of the Shiite-populated south.
    In Syria, we are supporting and enabling the efforts of the 
indigenous forces, including Syrian Kurds, Arabs, Christians, Turkmen, 
and others. These forces are putting increased pressure on the enemy as 
they push south towards the capital of ISIL's self-proclaimed Caliphate 
in Raqqa. They have retaken more than 18,000 square kilometers of 
territory and cut a number of ISIL's key lines of communication (LOC). 
They also secured key border crossings between Syria and Turkey, 
impacting ISIL's ability to send in reinforcements and much-needed re-
supply. It is quite possible that the military efforts underway in 
Syria could progress more rapidly given that we now have a growing 
number of willing and capable partners on the ground.
    Since commencing air operations in early August 2014, Coalition air 
crews from 19 partner nations have conducted more than 10,700 strikes. 
They are taking the fight to the enemy, and have greatly enabled the 
reach and effectiveness of the indigenous ground forces. Coalition 
airstrikes have removed several thousand enemy fighters from the 
battlefield, to include more than 160 of ISIL's leaders. We have 
destroyed thousands of the enemy's vehicles, tanks, and heavy weapon 
systems, along with training sites and storages facilities, command and 
control structures, and oil production facilities. We have helped to 
retake more than 40 percent of the territory in Iraq that ISIL held 
when we began airstrikes in August 2014, and we have restricted the 
enemy's freedom of movement along key routes in both Iraq and Syria. We 
have expanded our targeting of ISIL's oil enterprise, one of his 
primary sources of revenue and destroyed several bulk cash storage 
sites. This is further restricting ISIL's access to critical funds and 
other resources. This enemy hides among the civilian population; and 
so, we must be as precise as possible to avoid causing unnecessary 
civilian casualties and destruction of critical infrastructure, thereby 
generating resentment among the local populace. The high level of 
precision achieved by our air crews has ensured minimal collateral 
damage.
    The situation in Iraq and Syria is made even more complex by the 
involvement of external actors, specifically Russia and Iran. It is 
apparent through Russia's actions that their primary objective in Syria 
is to bolster the Assad Regime, principally by targeting those Syrian 
moderate opposition forces that pose a threat to the Regime. Through 
its actions, Russia is effectively prolonging the civil war in Syria, 
which over the past five years has caused the deaths of well over 
250,000 innocent men, women, and children. Assad would almost certainly 
not be in power today were it not for the robust support provided to 
the Regime by Iran and Russia. Russia's involvement in Syria 
exacerbates sectarian tensions as it appears they are supporting the 
Shiite states against the Sunnis. By putting the full range of their 
military capability on display in Syria, the Russians hope to impress 
regional actors and assert global power. Ultimately, they want to 
enhance their regional influence to counter the U.S. as the 
indispensable power player in the Middle East. None of Russia's 
military actions have helped stabilize Syria or end the suffering of 
the Syrian people. The recent Cessation of Hostilities process is an 
opportunity for Russia to demonstrate a renewed commitment to play a 
constructive role in Syria. We will continue to judge Russia by its 
actions, not by its words.
    Of note, Russia's cooperation with Iran appears to be expanding 
beyond near-term coordination for operations in Syria and is moving 
towards an emerging strategic partnership. The potential for a more 
traditional security cooperation arrangement between Russia, a state 
actor and member of the UN Security Council, and Iran is cause for 
significant concern given Iran's existing relationship with the Syrian 
Regime and Lebanese Hezbollah. We already see indications of high-end 
weapon sales and economic cooperation between the two countries.
    We are making progress militarily in our efforts to defeat ISIL, as 
demonstrated by the recent victories in Ramadi and Shaddadi. However, 
military success will be lasting only if corresponding political 
progress is achieved in both Iraq and Syria. The Government of Iraq 
must take the necessary steps towards greater inclusiveness. Iraq will 
not remain a unified state long-term without the support of the major 
ethno-sectarian groups. In Syria, President Bashar al Assad's actions 
and his deplorable treatment of the Syrian people created enormous 
instability in the country that allowed ISIL to flourish. ISIL will 
remain difficult to defeat as long as Assad remains in power. He needs 
to be replaced and a stable, responsive government must be established 
to prevent safe haven for VEOs like ISIL.
    To defeat ISIL we must do as President Obama said and ``squeeze its 
heart [in order to] make it harder for ISIL to pump its terror and 
propaganda through the rest of the world.'' This remains the foundation 
of our Military Campaign Plan--to degrade, dismantle, and eventually 
defeat this enemy in Iraq and Syria. This is essential; however, it is 
not sufficient. Beyond its strongholds in Iraq and Syria, ISIL has 
expanded to other parts of the globe, including to Egypt, Saudi Arabia, 
Libya, Yemen, and Afghanistan-Pakistan. Expansion is a necessary 
element of ISIL's declared end-state of a global Caliphate. It also 
demonstrates that we are degrading the enemy's capability in Iraq and 
Syria; as a result, ISIL is attempting to gain a foothold in alternate 
locations. Moreover, the increased activity helps to distract the 
international community from the setbacks that ISIL is experiencing in 
Iraq and Syria. To maintain its legitimacy, ISIL must achieve real or 
perceived military victories and it must expand territorially. While 
the priority must be the defeat of ISIL's core in Iraq and Syria, we 
also will need to address the ISIL affiliates and franchises that exist 
in other parts of the region and globe. Additionally, we will need to 
continue in our efforts to curb the flow of foreign fighters, and take 
away the enemy's ability to resource himself.
    The U.S. military is not doing any of this alone. The military 
campaign is just one component of the broader U.S. Government (USG) 
strategy which consists of nine lines of effort (LOE), to be executed 
by all elements of the USG with the support of our coalition partners. 
The military is responsible for two of the nine LOEs, LOE #2 and #3. 
LOE #2--``Denying ISIL Safe Haven'' is being accomplished through our 
support to indigenous ground forces in Iraq and Syria, primarily 
through our precision airstrikes, employment of available Intelligence, 
Surveillance, and Reconnaissance (ISR) assets, and our advise and 
assist efforts. LOE#3--``Building Partner Capacity'' includes our train 
and equip program and advise and assist efforts in Iraq. Critically 
important are the many contributions being made by the 66 partners that 
make up the Counter-ISIL Coalition; the Coalition represents the 
strength of the military campaign.
    We made it clear at the outset of the campaign that the defeat of 
ISIL would take time. There is tough work still ahead. We must remain 
vigilant and keep pressure on this enemy, recognizing the high stakes 
involved.
    Afghanistan (Operation Freedom's Sentinel/Resolute Support 
Mission).  The Afghan's National Defense and Security Forces (ANDSF) 
have been challenged over the past several months in what was an 
especially tough fighting season. During the first full year in which 
the ANDSF were fully responsible for the security of their country, the 
ANDSF managed to deny the Taliban lasting gains. The Taliban saw the 
opportunity to exploit weaknesses in the Afghans' still-maturing 
capabilities. Although the Taliban achieved some initial success, the 
ANDSF have retaken and reestablished security in key areas, such as 
Kunduz. Most important, the ANDSF continue to learn from their 
experiences and look to grow stronger and more capable. The ANDSF also 
benefit from a supportive government that values the strong partnership 
between the United States and Afghanistan. The National Unity 
Government (NUG), led by President Ashraf Ghani and CEO Abdullah 
Abdullah, continues to mature as both leaders work together on behalf 
of the country.
    Meanwhile, we see positive developments across the populace. Of 
note, adult life expectancy has risen by 22 years from 42 years in 2002 
to 64 years in 2012 \1\. We have seen the various state institutions 
develop and mature; and, the Afghans continue to make progress in the 
areas of governance, the judiciary, and respect for human rights, 
women's rights, and education. In 2001, less than 900,000 Afghans were 
enrolled in primary and secondary schools and almost none of them were 
girls. Today, there are more than 8 million students enrolled in 
school; 36 percent of them are girls \2\. Progress in Afghanistan has 
been significant over the past 14+ years, and the United States-led 
Coalition and the ANDSF have provided the necessary security to enable 
these advancements. There is a strong desire to continue to make 
lasting improvements in all areas, including education, the economy, 
healthcare, infrastructure, and communications.
---------------------------------------------------------------------------
    \1\ U.S. Agency International Development (USAID).
    \2\ Afghan Central Statistics Organization (2014).
---------------------------------------------------------------------------
    While the ANDSF have made significant progress, critical capability 
gaps do exist in some areas, including leadership, aviation, aerial 
fires, ISR, logistics, and sustainment. Many of the systems that 
support Afghan warfighters have not fully matured, and our continued 
support remains critical to their development and long-term success.
    The ANDSF still face a significant insurgency complicated by the 
presence of a number of extremist elements in the region including the 
Taliban, Haqqani Network, AQ, and the newly-formed ISIL--Khorasan 
Province (ISIL-KP). ISIL-KP poses a concern for the United States and 
our Afghan partners given the evolving security dynamic. The group's 
efforts to date have produced mixed results; however, they instability, 
violence, and potential for regional growth require effective pressure 
to deny the establishment of a safe haven. Persistent action must be 
taken by the Afghan Government with the support of the United States, 
NATO, and regional partners to disrupt the expansion of ISIL-KP and 
other VEOs in the region.
    The Afghanistan and Pakistan (AFG-PAK) relationship remains a 
delicate one. Some progress was made this year, and both sides indicate 
a continued willingness to participate in multi-lateral and bilateral 
discussions. Despite long-standing distrust between elements in each 
country, the United States is encouraged by both nations' continued 
cooperation and collaboration towards trans-regional security and 
stability.
    On 15 October 2015, President Obama announced that the United 
States would maintain up to 9,800 United States forces in Afghanistan 
through most of 2016, before drawing down to 5,500 United States forces 
by January 2017. This decision allows for the continued training, 
advising, and assisting of the ANDSF through the 2016 fighting season. 
By maintaining the current level of forces through much of 2016, the 
United States will be able to: (1) reassure Afghanistan, our partners, 
and allies of our enduring strategic commitment; (2) continue to 
conduct the train, advise, and assist (TAA) mission at the Afghan 
National Army (ANA) corps level and Afghan National Police (ANP) 
equivalent levels; and, (3) support our counter-terrorism (CT) efforts 
against AQ and ISIL-KP. TAA at the operational-level for select ANDSF 
special forces units has paid significant dividends, as evidenced by 
the expeditionary advising performed during operations in Northern 
Helmand and Kunduz at the end of the 2015 fighting season, and will 
remain a critical component of building capacity and institutionalizing 
long-term ANDSF sustainment systems.
    By sustaining our current troop levels through 2016, we also 
demonstrate a strong commitment to our NATO allies and other partner 
nations, many of whom have since reaffirmed their troop commitments in 
support of the NATO-led Resolute Support Mission. NATO's continued 
participation is integral to the development of the ANDSF and will also 
help ensure donor nations provide much-needed financial support to the 
ANDSF. Finally, our presence sends a clear message to the Taliban that 
the United States supports the Afghan government and the ANDSF and 
encourages broader reconciliation efforts and lasting peace achieved 
through dialogue, rather than through violence and a continued 
insurgency.
    Afghanistan remains a worthwhile and strategically-necessary 
investment. The Afghans continue to demonstrate that they are willing 
partners. Together, we have invested many lives and precious resources 
with the goal of improving stability in that country. We want to 
preserve those hard-earned gains and to enable the Afghans continued 
success going forward.
    Countering Terrorism and Violent Extremist Organizations.  A 
variety of factors that include poor governance, economic disparity, 
disenfranchised populaces, and deficient security forces contribute to 
creating conditions that promote the activities of VEOs, including ISIL 
and AQ. The VEOs are able to plan and launch attacks, undermine local 
governments, and exercise malign influence from ungoverned or under-
governed spaces. In doing so, they threaten regional security and U.S. 
core national interests, including the defense of our Homeland.
    Perhaps the most significant development in recent years is the 
proliferation of transnational and trans-regional VEOs that desire and, 
in some cases, demonstrate the ability to shape and even dominate the 
security environment in ways that we have not seen before. These 
transnational extremist groups are ideologically opposed to and often 
target the nation states in the region. They conduct attacks and 
terrorize local populaces in an effort to undermine and eventually 
topple existing governments. This further contributes to increased 
instability in the region.
    One related dynamic that we see developing is a growing competition 
between transnational extremist groups. For a long period of time, AQ 
was the unchallenged leader of global jihad. Then, in late spring of 
2014, ISIL seized large swaths of territory in Iraq, in addition to the 
territory it seized in Syria. It declared a Caliphate and suddenly AQ 
was facing a rival. Going forward, there is significant potential for 
increased expansion among VEOs as ISIL and AQ compete for resources and 
recruits. This will compel both groups to conduct more spectacular 
operations and to employ more aggressive messaging campaigns. As ISIL 
and AQ look to expand their influence, we can expect other VEOs to 
attempt to align with these groups. The resulting struggle and 
heightened activity will contribute to increasing instability across 
the region.
    We must take direct military action where appropriate to counter 
this growing threat. We cannot allow VEOs to operate uncontested in the 
region, permitting them to grow stronger and expand their global reach. 
The long-term defeat of VEOs will require that our regional partners 
provide for the security of their sovereign spaces, with the U.S. and 
its allies providing support where possible. Until they have sufficient 
capability to do so, we must be prepared to take active direct measures 
to counter these VEOs.
    Yemen.  Yemen remains embroiled in a complex civil war that is 
exacerbated by sectarian tensions. In January 2015, the Huthis, a group 
of Zaydi Shiite fighters led by Abdul Malik al Huthi and aligned with 
former President Ali Abdullah Saleh, displaced the legitimate 
government of Yemen led by President Abd Rabbu Mansur Hadi. On each 
side, there are a number of competing factions, including the Huthis, 
Saleh loyalists, southern secessionists, and tribal alliances with 
competing agendas that further complicate the situation on the ground. 
These groups are attempting to assert control over Yemen as a whole or 
at least gain greater autonomy within their respective areas of 
influence.
    Iran has provided support to the Huthis, likely to gain leverage 
against the Kingdom of Saudi Arabia (KSA). This could potentially 
enable the Iranians to complicate maritime LOCs, including the Bab al 
Mandeb Strait, from the Red Sea to the Gulf of Aden and beyond. Iran 
has a long history of seeking to protect the Shiite populace in the 
Gulf and using this rationale to justify a broad array of actions. 
Conversely, KSA desires a stable Yemen with a pro-Saudi government that 
effectively protects its border, prevents an Iranian proxy from gaining 
undue influence over strategic terrain that includes the Bab al Mandeb, 
and protects against safe havens for al Qaeda in the Arabian Peninsula 
(AQAP) and other VEOs. The KSA-led Coalition has sought to counter the 
Huthis and associated forces with the goal to return the legitimate 
displaced Hadi government to power. While the coalition has experienced 
some significant challenges and we have expressed concerns about 
Coalition strikes on targets that lead to civilian casualties and 
damage Yemen's already poor infrastructure. Nevertheless, the 
Coalition's efforts have proven problematic for the Huthis.
    Yemen is the poorest country in the Central Region and the ongoing 
conflict continues to exacerbate the very serious humanitarian crisis 
plaguing the country. Much of Yemen's infrastructure has been 
destroyed, food production is at a standstill, international trade is 
severely degraded, medical supplies are critically short, and little 
humanitarian aid is reaching those in need. The ousting of the Republic 
of Yemen Government (RoYG) created a large security vacuum which has 
greatly benefited AQAP, as well as the newly-formed ISIL affiliate, 
ISIL--Yemen (ISIL-Y). AQAP is strengthening and expanding its reach in 
the absence of a significant CT effort. Prior to the unseating of the 
Hadi Government, the United States maintained a physical presence in 
Yemen and an effective CT partnership with the Yemeni security forces. 
We conducted operations against AQAP and had significantly degraded its 
capacity. We were also in the process of building the Yemeni forces' 
capacity through our advise and assist and train and equip efforts. The 
reduced capability coupled with the lack of a U.S. presence presents a 
vulnerability that must be addressed.
    Since these groups pose a national security risk to the U.S. and 
partner nations, it is imperative that we seek a way to resume a 
partnered approach to CT operations against Yemen-based VEOs and their 
support networks. It is in our national interest and the interest of 
our partners to resolve the civil war and reinstate the legitimate 
government that can work to address the many challenges facing Yemen 
today. We are looking at how to best move this forward. The additional 
capability would enable them to better secure their borders and guard 
against internal threats from violent extremists.
    Iran.  Iran continues to pose a significant threat to the region 
despite the restrictions placed on its nuclear program as a result of 
the Joint Comprehensive Plan of Action (JCPOA) agreement. In this post-
JCPOA period, the Iranian Threat Network's (ITN) Iranian Revolutionary 
Guard Corps-Quds Forces (IRGC-QF), proxies (e.g., Lebanese Hezbollah), 
and Iranian-backed Shiite militant groups remain very active. Iran also 
maintains a large and diverse theater ballistic missile arsenal, along 
with significant cyber and maritime capabilities. Despite the fact that 
President Rouhani's administration has indicated an interest in 
normalizing relations with the international community, there are 
hardline elements in the country intent on undermining the efforts of 
the moderates. They maintain substantial influence over Iran's foreign 
policy and military activities.
    Iran continues to pursue policies that enflame sectarian tensions 
and threaten U.S. strategic interests in the Central Region. Their 
primary focus is countering the ISIL threat in Iraq and preserving the 
Assad Regime in Syria. They also continue to support some Shiite 
surrogate groups in Bahrain and Saudi Arabia, Huthis in Yemen, and 
Lebanese Hezbollah, with a combination of money, arms, and training. 
Iran's emerging relationship with Russia further complicates the 
security environment as they look to expand their cooperation in areas 
that include the sale of high-end weapons. We must consider that when 
ISIL is defeated and Syria stabilizes, we and our partners will face an 
enhanced ITN bolstered by warfighting experience, a multi-ethnic supply 
of radicalized Shiite fighters, expanded partnerships, and an intense 
sectarian climate. There are additional developments within the ITN 
that we will have to closely monitor to fully appreciate the nature of 
this evolving threat. For example, Iranian-backed Shiite militia groups 
are becoming entrenched within Iraq's formal security institutions 
through the Popular Mobilization Forces, a development that could 
provide these groups with increased resources and legitimacy and 
greatly complicate our relationship with Iraq's security forces going 
forward. Additionally, it is possible that Iran will have challenges 
commanding and controlling an expanded ITN, something we are already 
seeing play out in several places across the region. Iran exerts a 
considerable degree of influence over the multiple external proxies and 
surrogates that comprise the ITN. However, the larger the ITN becomes 
through the proliferation of Shiite militant groups, the more difficult 
it may be for Iran to control their activities, especially when their 
interests diverge.
    Our relationship with Iran remains a challenging one. We will 
continue to pay close attention to their actions, while supporting our 
regional partners and helping them to improve their capacity to counter 
Iran and mitigate the effects of Iran's malign activity in the region.
                        a regional perspective.
    In many ways our military-to-military relationships continue to 
represent the cornerstone of America's partnerships with the nation 
states in the USCENTCOM AOR. Below are synopses of the status of those 
relationships, along with the current state of affairs in each of the 
20 countries, save Iraq, Syria, Afghanistan, Yemen, and Iran which were 
addressed in the previous section, ``Critical Focus Areas'' (see pages 
9-21):
The Gulf States
    The Gulf States remain steadfast partners and continue to support 
the Counter ISIL Coalition's operations in Iraq and Syria, primarily 
through the provision of robust access, basing, and overflight 
permissions critical to the conduct of regional operations. This 
support played out against the backdrop of some key developments over 
the past year, GCC support for the JCPOA agreement, and the GCC-led 
campaign in Yemen, which remains the Gulf State's primary focus.
    Last year, we witnessed an increased willingness by our Gulf 
partners to attempt to actively shape and influence the regional 
security environment, most recently in the campaign in Yemen. Several 
of the Gulf States have demonstrated an unprecedented level of unity 
and military cooperation in operations against the Huthis in Yemen, and 
we continue to emphasize the importance of pursuing a political 
solution that will lead to the reinstatement of the internationally-
recognized government. We are working with the Saudi-led coalition to 
help mitigate civilian casualties and to ensure that humanitarian 
assistance flows into Yemen. Nevertheless, we are deeply concerned by 
the devastating toll of the crisis in Yemen, both in terms of civilian 
casualties and the dire humanitarian situation that Yemen faces. We 
continue to urge all sides to undertake proactive steps to minimize 
harm to civilians, including by exercising restraint, distinguishing 
between military objectives and civilian objects, and not positioning 
armaments or military equipment in areas where civilians are known to 
be present, as the Huthis have done.
    Our GCC partners have also indicated a desire to collaborate more 
closely with the U.S. on the threat posed by AQAP and the newly 
ascendant ISIL-Y. However, the pace and scope of activity has 
challenged the Gulf States' ability to sustain operations, and to 
conduct the same level of military-to-military engagements, training, 
and exercises as in previous years. Now, more than ever, there is a 
need for strong U.S. engagement, vision, and leadership aimed at 
increasing participation and cooperation amongst and between our GCC 
partners.
    We have worked hard to strengthen our strategic partnership with 
the Kingdom of Saudi Arabia (KSA) in support of shared security 
objectives. Going forward, we can expect KSA to continue to exercise 
influence among Sunni States throughout the Central Region.
    The Kingdom continues to balance a wide range of external security 
challenges, including the fight against ISIL in Iraq and Syria, 
operations in Yemen against the Huthi-Saleh alliance, and the growing 
threat posed by AQAP, ISIL-Y, and other VEOs. While KSA is a member of 
the Counter-ISIL Coalition, over the past several months their primary 
focus has been leading the coalition in Yemen. The ongoing campaign in 
Yemen has provided KSA with valuable experience in building and 
sustaining coalitions and conducting coalition-supported operations. It 
also has provided some opportunities for us to identify reforms that 
KSA could undertake to increase their capabilities.
    The Saudis continue to support the fight against ISIL. After 
postponing air operations for a period while they focused on Yemen, KSA 
recently staged F-15s at Incirlik, Turkey and will commence operations 
inside of Syria beginning in early March. While operational demands 
continue to limit the amount of support that the Saudis are presently 
able to devote to the Counter-ISIL Campaign, we anticipate that as the 
conflict in Yemen approaches a negotiated settlement, Saudi support for 
ongoing efforts against ISIL and other VEOs will expand.
    Kuwait remains a model for stability in the Gulf Region. It 
provides one of the most supportive environments for access, basing, 
overflight, and burden-sharing. As a Gulf leader, Kuwait has been able 
to mitigate rifts between and among partner nations, while at the same 
time helping to promote a regional response to crises emanating from 
the region (e.g., Iraq, Syria, and Yemen). We want to continue to 
encourage and enable the Kuwaitis in their efforts to achieve increased 
cooperation among the GCC partner nations.
    The bilateral relationship between the United States and Kuwait 
remains strong. With robust air and sea ports, as well as modern 
military bases and infrastructure, Kuwait provides a critical platform 
for USCENTCOM to project power in response to regional contingencies. 
Most notably, Kuwait is home to the forward operating headquarters of 
USCENTCOM's United States Army component, United States Army Central 
(USARCENT). The support provided by the Kuwaitis has been integral to 
the planning and execution of Operation Inherent Resolve (Iraq and 
Syria) and Operation Freedom's Sentinel/Resolute Support Mission 
(Afghanistan).
    This year marks the 25th anniversary of the liberation of Kuwait 
from Iraq. The occasion provides an opportunity to acknowledge the 
significant contributions made by the U.S.-led coalition in 1991, while 
showcasing the gains made over the past quarter of a century as a 
result of the security cooperation agreement that exists between both 
countries. It is also an opportunity for pursuing additional steps to 
deepen and broaden our partnership with Kuwait. We remain committed to 
working together to address emerging threats. Although Kuwait has been 
largely unaffected by the fight in Iraq and Syria, it did suffer a 
significant bombing of a mosque in Kuwait City in June 2015 for which 
ISIL claimed responsibility. We remain committed to assisting the 
Kuwaitis in their efforts to prevent ISIL from achieving further 
inroads within Kuwait's borders.
    Our military-to-military relationship with the United Arab Emirates 
(UAE) continues along its historically positive trajectory. The UAE 
shares our concerns with respect to the regional spread of violent 
extremist ideologies, and the Emirates recognize the threat posed to 
their internal security--and overall regional stability--by ISIL and 
its adherents and affiliates. In response to this shared threat, the 
UAE has undertaken several complementary lines of effort designed to 
counter the rise of groups like ISIL-Y and AQAP. Our continued support 
is critical to enabling the Emirates' ``lead by example'' approach to 
regional security, both on the ground and in the information domain. 
Given our shared enduring security interests, the U.S.-UAE relationship 
will almost certainly grow in importance in the coming days.
    The UAE's military capability is arguably the most mature among the 
Gulf States. The Emirates have demonstrated the ability and political 
willingness to plan and conduct expeditionary military operations, as 
evidenced by their recent deployment of forces in support of the Saudi-
led operation in Yemen. They also provide critical support for 
coalition operations in Afghanistan. Going forward, we will look to 
strengthen our security cooperation partnership with the UAE through 
continued engagement and a robust Foreign Military Sales program. We 
also will pursue opportunities for increased collaboration in support 
of CT initiatives across our AOR.
    Qatar continues to play an influential diplomatic and military role 
throughout the Central Region and has demonstrated a commitment to 
strengthening relations with the United States. This year, the Qataris 
played a central role in the Counter-ISIL Coalition operations in 
Syria, in addition to providing forces to the Saudi-led coalition in 
Yemen. It is the first time Qatar has supported two simultaneous 
operations outside its borders. These dual track efforts place 
significant demand on the Qatari military's 11,000-member force. The 
Qataris, with our support, will need to find ways to manage the demand 
while they take steps to enhance the capability of their military 
forces. In 2014, Qatar was the largest FMS customer in the world with 
$11 billion in new cases (Patriots, Apaches, and Javelin). Qatar is 
also looking to further expand its Integrated Air and Missile Defense 
(IAMD) system by acquiring Terminal High Altitude Area Defense and 
Early Warning Radar capabilities. Qatar's efforts to modernize its 
military and increase its self-defense capabilities, present an 
opportunity for the U.S. to enhance its interoperability with an 
important regional partner. We will coordinate those missile defense 
efforts as part of our broader engagement with the GCC on ballistic 
missile defense.
    We value our strong military-to-military relationship with the 
Qataris. Over the past 20 years, Qatar has provided the U.S. with 
unmatched regional access through basing of American forces at Camp Al 
Sayliyah and Al Udeid Air Base (AUAB). Of note, AUAB is the single-
largest U.S. logistical hub in theater and the Combined Air Operations 
Center at AUAB provides critical oversight and direction to all U.S. 
air operations in the region. Qatar's long-demonstrated history of open 
partnership makes it one of our strongest partners in the Central 
Region.
    The United States enjoys a historically strong and productive 
partnership with the Kingdom of Bahrain. Bahrain hosts the headquarters 
of United States Fifth Fleet and Combined Maritime Forces in Manama 
(Naval Support Activity Bahrain and Isa Air Base), and it enjoys status 
as a major non-North Atlantic Treaty Organization ally. Bahrain is also 
a member of the Counter-ISIL Coalition; its air crews participated in 
the initial airstrikes in Syria in September 2014. Additionally, the 
Bahrainis remain active supporters of the Saudi-led operations in 
Yemen. The Kingdom faces a persistent threat from Iran via malign proxy 
activity within its borders. USCENTCOM actively supports the Bahrainis 
in their efforts to counter this threat.
    Our military-to-military relationship improved in recent months 
since full resumption of U.S. FMS after a three-year delay. Bahrain 
also seeks to make improvements to its aviation capabilities, 
specifically by purchasing new F-16s and upgrading its ageing fleet. We 
continue to urge the Bahrainis to further their commitment to political 
reconciliation and dialogue, which is fundamental to mitigating the 
risks posed by sectarian radicalization. The Bahraini government has 
implemented a number of reforms since 2011. We are encouraging them to 
pursue and mature these reforms and other similar institutions, as it 
is imperative that internal security gains against tangible threats do 
not lead to harsh restrictions on legitimate and non-violent 
expressions of political disagreement.
    The U.S. and Oman maintain close relations based upon a shared 
desire for a peaceful and prosperous Gulf Region, and we greatly 
appreciate Sultan Qaboos bin Said al Said's leadership. Oman is 
strategically positioned on the Arabian Sea and provides critical 
support to the United States in the form of access, basing, and 
overflight permissions that greatly enable coalition efforts in the 
region. While Oman's strategic approach does occasionally cause tension 
between Oman and its GCC neighbors, it also presents USCENTCOM with 
opportunities to work with the Sultanate as an intermediary between 
adversarial states. In general, our bilateral military-to-military 
relationship with Oman remains strong, underpinned by the U.S. and 
Oman's shared interest in maintaining open sea lines of communication 
in the Gulf and strengthening land borders in order to prevent the 
infiltration of AQ and other VEOs into the Sultanate.
The Levant
    The Greater Levant sub-region is the epicenter of ethno-sectarian 
tensions and conflict in the USCENTCOM AOR. The volatility reflects the 
makeup of the sub-region's populace with Sunnis, Shiite, Kurds, 
Christians, Druze and others living together in mixed neighborhoods. 
Also adding to the unrest is the growing competition between AQ and 
ISIL. AQ shifted some of its command and control to Syria to support 
its most prominent affiliate, al Nusrah Front. At the same time, the 
core of ISIL's self-proclaimed Caliphate resides in the Levant. Thus, 
the Levant is where you have two organizations' senior leadership in 
competition for global jihad. At the same time, the sub-region is 
struggling to manage the effects of the civil war in Syria. If not 
contained, the conflict, now in its fifth year, risks sparking a 
broader regional war. It also has caused a burgeoning humanitarian 
crisis affecting Jordan, Lebanon, Turkey, and Iraq. Stability in the 
Levant is impacted by the competition for influence by outside actors, 
principally Iran, China, and Russia. The instability in the Levant also 
threatens Israel, an important United States ally. The close 
coordination between USCENTCOM and United States European Command is 
essential given Turkey and Israel's role in the Levant's security 
environment.
    Lebanon is an important and valued partner in the region. Lebanon 
faces an array of interlocking challenges that include sustained 
threats from ISIL and other VEOs; a steady influx of refugees that only 
exacerbates long-standing sectarian tensions and ongoing humanitarian 
and economic crises; and a political deadlock in Beirut that has left 
Lebanon without a president for over 19 months with none of the major 
political institutions of the state--the presidency, parliament, and 
the cabinet--functioning adequately today. ISIL and AQ affiliate Al 
Nusrah Front pose potential threats to Lebanon's security and stability 
along Lebanon's border with Syria, but also in urban areas deep within 
the country's border. In November 2015, ISIL conducted coordinated 
suicide attacks against Shiite targets in Southern Beirut killing 41 
civilians. The attacks threatened to ignite increased Sunni-Shiite 
tensions, but tensions were diffused by an immediate and coordinated 
response by Lebanese security forces. These attacks were at least 
partly in response to Lebanese Hezbollah's (LH) active involvement in 
the Syria conflict. Although Lebanon's official contributions in 
support of the Counter-ISIL Campaign have been limited to CT efforts 
inside of Lebanon's borders, the Lebanese Armed Forces (LAF) have been 
heavily engaged in the fight against extremists with near daily 
engagements along Lebanon's border with Syria.
    Lebanon faces a refugee crisis of historic proportion with more 
than 400,000 Palestinian refugees and 1.5 million Syrian refugees, 
which is equal to a quarter of Lebanon's population. The latter 
presents an economic and humanitarian burden for Lebanon, while also 
posing a security threat as some Syrian refugees may be vulnerable to 
Sunni extremist influences. In order to effectively cope with the 
refugee crisis resulting from the Syria conflict, Lebanon will require 
significant international assistance long-term. Meanwhile, top Lebanese 
officials have suggested that there may be a need for an international 
intervention to address the presidential vacancy and political impasse 
which has resulted in poor government services and large-scale public 
demonstrations.
    In the context of these challenges, the LAF is one of Lebanon's 
only functioning national institutions. We enjoy a strong military-to-
military relationship with the LAF, and our support has been critical 
to its success. Our special operations forces have conducted extensive 
joint training exercises and have well-established relationships. The 
LAF has been a staunch USCENTCOM partner for nearly a decade, receiving 
almost $1 billion in combined assistance from the U.S. during this 
period. During fiscal year 2015, we provided $84 million in foreign 
military financing (FMF), $80 million in CT assistance, and also 
trained over 2,000 LAF soldiers in the U.S. Our special operations 
forces have conducted extensive joint training exercises and have well-
established relationships. Because of its success against ISIL and 
other VEOs, the LAF enjoys strong support across Lebanese sects. Our 
continued support of the LAF is critical and will focus on developing 
much-needed ISR, strike, and aerial fires capabilities to ensure 
sustained success against ISIL and Al Nusra Front along the border and 
to counter-balance LH.
    The Hashemite Kingdom of Jordan remains one of the United States' 
most reliable partners. Like many in the region, Jordan faces economic 
challenges that are exacerbated by the Syrian civil war, the associated 
refugee flow, and a generally unstable regional security environment. 
The instability caused by the ``underlying currents,'' namely the 
``youth bulge,'' makes Jordan's populace highly susceptible to 
radicalization. The country's leadership is particularly concerned 
about the growing threat from ISIL and Al Nusra Front emanating from 
Syria. The Jordan Armed Forces (JAF) remain active participants in the 
Counter-ISIL Campaign.
    Jordan's partnership and leadership are critical to advancing U.S. 
regional objectives. Jordan is widely considered the Arab voice of 
moderation in the region and Jordanian leadership continues to play a 
critical role in countering the extremist ideologies that contribute to 
instability. In return, Jordan requires economic assistance for 
military cooperation and to stabilize its economy. In fiscal year 2015, 
Jordan received $385 million in FMF. Congress appropriated $450 million 
in FMF for Jordan in fiscal year 2016. Additionally, Jordan receives 
$3.8 million annually for International Military Education and Training 
(IMET), and more funding than any other partner to date from the 
Counterterrorism Partnerships Fund. The JAF's ability to procure U.S. 
weapons and equipment and increase interoperability with U.S. Forces 
depends on this funding, which also provides Jordan with a strong 
message of assurance that we will help to defend them from extremist 
threats. Finally, Jordan requires continued international assistance to 
deal with its sizeable refugee population that consists of 
approximately 600,000 UN-registered Syrian refugees, the majority of 
whom compete with locals for employment and housing, creating the 
potential for increased tensions. In the past 24 months, USCENTCOM 
invested $5.4 million for humanitarian affairs projects inside of 
Jordan.
    Egypt remains an anchor state in the Central Region. It is a key 
strategic partner of the United States in both the counter-ISIL fight 
and with respect to our many shared security interests, including 
securing peace with Israel, achieving regional stability, and enhancing 
security of the Suez Canal. While daily life is returning to normal 
after four years of political upheaval, including recently conducted 
parliamentary elections, Egypt still faces a number of internal and 
external challenges, especially in the Sinai Peninsula, which is now 
home to the ISIL affiliate, ISIL-Sinai (ISIL-S) that threatens not only 
Egyptian stability, but also the Multinational Force & Observers (MFO) 
mission, and is strongly suspected of downing a Russian civilian 
airliner. Egypt is also increasingly concerned about ISIL-Libya's 
ability to impact its western border.
    The cornerstone of the United States-Egypt relationship is the 
military-to-military partnership with the Egyptian Armed Forces (EAF), 
forged through decades of close coordination, exercises, and 
interdependence. After a downturn in relations in 2013, we have seen 
the relationship enter a gradual recovery period. The Egyptians support 
our overflight requests and provide our naval forces with Suez Canal 
transit courtesies that provide expedited access to critical waterways. 
Egypt routinely deploys peacekeeping troops in support of operations 
around the globe. USG aid and support to Egypt, including FMF, remain 
crucial to Egypt's fight against ISIL-S as we work closely with the EAF 
to provide both the equipment and the training required to make the 
transition from a force focused on conventional warfare to one that can 
defeat a terrorist enemy using asymmetrical tactics. We are focused on 
helping Egypt improve the security of their borders in an effort to 
stop the flow of foreign fighters and equipment transiting from Libya 
and the Sudan through Egypt and into the Central Region.
    A sizeable portion of Egypt's current military leadership is United 
States-trained and has indicated a keen interest in securing additional 
U.S. support to address evolving security threats. It will be 
imperative to leverage these ties as we look to assist the Egyptian 
military in their ongoing efforts to bring improved stability to North 
Africa, including the Sinai Peninsula. Also, we want to help them to 
further modernize and reform their security forces to better enable 
them to address relevant threats and play a larger role in providing 
for regional stability. Specifically, we will need to focus on updating 
Egypt's counter-insurgency/CT doctrine and training programs to better 
address the unique nature of the terrorist threats facing the region. 
We continue to provide much-needed support to the MFO mission, whose 
presence has been a linchpin for Egyptian-Israeli peace and cooperation 
since its inception over 30 years ago. With the support of the 
Egyptians, we have taken significant measures in recent months to 
increase the protection of our forces assigned to Task Force Sinai and 
the MFO mission writ large.
    Egypt has not contributed forces in support of the Counter-ISIL 
Campaign in Iraq and Syria. They are supporting the Saudi-led fight in 
Yemen, and they continue to place pressure on ISIL affiliates in both 
the Sinai and Libya. Additionally, Egypt's regional leadership carries 
much influence among our Arab partners and can help to promote 
USCENTCOM's broader regional objectives. We continue to look for ways 
to integrate Egypt into the Counter-ISIL Coalition and in support of 
our CT efforts across the region.
Central and South Asia
    We view the CASA sub-region, not as a single entity, but as seven 
individual countries, each with its own political and economic 
trajectory and each sharing a unique bilateral relationship with the 
U.S. While we have many shared interests, we are paying especially 
close attention to the Central Asian States' (CAS) reaction to the 
planned United States/NATO downsizing in Afghanistan set to begin in 
late 2016. Of note, transit access by way of the Northern Distribution 
Network, used to supply our troops in Afghanistan, is provided by 
Kazakhstan, Tajikistan, and Uzbekistan.
    Our primary goal remains unchanged and that is to prevent the 
establishment of terrorist safe havens in the CASA sub-region, while 
acknowledging the challenges posed by trans-national extremism, narco-
trafficking, and the return of foreign fighters. These countries face 
additional pressures from an increasingly assertive Russia. China is 
seeking to expand its economic influences in the sub-region as well. In 
light of these challenges, leaders in the region actively seek U.S. 
engagement, while we continue to encourage greater multi-lateral 
cooperation with the goal to promote improved security and stability in 
the region and to preserve the CAS' sovereignty.
    We conducted our first CASA Chiefs of Defense (CHOD) Conference in 
late September. The event was well-attended and highly-productive. 
Despite their geographic proximity, many of the CHODs had not met nor 
communicated with one another prior to attending the conference. The 
conference focused on identifying opportunities for collaboration on 
issues such as CT, counter-narcotics (CN), border security operations, 
and the professionalization of their officer and non-commissioned 
officer corps. It was encouraging to see that, despite their previous 
reluctance to interact in multi-lateral forums, the CHODs actively 
participated in the discussions. They also expressed interest in 
convening a follow-on conference, and several of them expressed a 
desire to participate in multi-lateral military exercises going 
forward. The CASA CHODs also expressed a keen interest in finding ways 
to share intelligence that could further support regional CT 
operations. On 14-15 March, the CASA DMI (Director of Military 
Intelligence) Conference will be held at USCENTCOM Headquarters in 
Tampa, Florida. Six of the seven CASA States will be represented. The 
United States-Pakistan military-to-military relationship remains 
stable. Key contributing factors are our security assistance, and the 
Coalition Support Fund. In December 2015, we participated in the 
Defense Consultative Group, a component of the United States-Pakistan 
Strategic Dialogue, which focused on future initiatives that will help 
to sustain United States-Pakistan bilateral defense cooperation on 
shared security interests.
    We are encouraged by some signs from Kabul and Islamabad that point 
towards a renewed effort at improving Afghanistan-Pakistan relations, 
and Pakistani support for the reconciliation process in Afghanistan. 
The Pakistan military continues to play a visible role in efforts to 
reduce safe havens in the Federally Administered Tribal Areas (FATA) 
along the Afghanistan-Pakistan border, while at the same time actively 
countering VEOs, including AQ, Tehrik e Taliban--Pakistan, and the 
newly-emerged ISIL-KP. During the most recent fighting season we saw 
increased collaboration among Afghan and Pakistani military leadership. 
Commanders at the corps level have met multiple times and continue 
their efforts to increase interoperability between the forces. Both 
countries' military leaders also are working to secure a bilateral 
border standard operating procedure. In the meantime, we need Pakistan 
to take decisive actions against the Haqqani Network (HQN). The 
Pakistanis are uniquely positioned to counter the HQN, which remains 
the greatest threat to our forces and to stability in Afghanistan long-
term.
    Progress on the India-Pakistan relationship is hindered by cross-
border violence and territorial disputes. However, there have been some 
encouraging signs and lines of communication remain open as 
demonstrated by Indian Prime Minister Narendra Modi's and Pakistani 
Prime Minister Nawaz Sharif's meeting in Pakistan in late December 2015 
and the subsequent commitment both parties to reinitiate the 
Comprehensive Dialogue. Dialogue between the two countries is critical, 
especially given that they are both nuclear powers. USCENTCOM will 
continue to do our part to help encourage and strengthen the critical 
relationship between Pakistan and its neighbors.
    Kazakhstan remains the best positioned country in the CASA sub-
region with respect to security given its geographic location and 
strong economic foundation. However, the recent downturn in oil prices 
and pervasive Russian influence do present growing challenges. Despite 
these obstacles, the United States' relationship with Kazakhstan 
remains the most well-developed among the Central Asian States. The 
Kazakhs seek United States assistance in modernizing their military 
forces, and we are taking advantage of the opportunity to further 
strengthen our bilateral relationship. Specifically, we are helping the 
Kazakhs to professionalize their non-commissioned officer corps, 
modernize their military education program, and improve training and 
personnel management. Additionally, we continue to help the Kazakhs to 
build a deployable peace-keeping capability. Kazakhstan remains the 
largest contributor to Afghanistan's stability among the CAS, providing 
technical and financial support to the Afghan security forces and 
educational opportunities for Afghan students to study in Kazakhstan.
    The Kyrgyz Republic faces many of the same security challenges as 
its neighbors in the region, particularly with respect to the threat 
posed by VEOs and the flow of narcotics. While our military-to-military 
relationship with the Kyrgyz has been historically positive, it remains 
challenged by the absence of a Defense Cooperation Agreement (DCA), 
which guarantees United States servicemembers legal protections while 
in country. The DCA with then-Kyrgyzstan ended on 11 July 2014 with the 
closure of the Transit Center at Manas International Airport. While 
this has strained our military-to-military relationship, we intend to 
pursue bilateral cooperation on a case-by-case basis.
    Tajikistan has been heavily impacted by Russia's economic downturn 
and by increased instability in northern Afghanistan. Moreover, intense 
pressure from the Kremlin, including the presence of Russian military 
bases inside of Tajikistan, limits our military-to-military 
cooperation. Nevertheless, Tajikistan still desires a strong 
partnership with the United States to help address external security 
concerns, maintain internal stability, and safeguard Tajikistan's 
sovereignty. Our mutual security interests provide several 
opportunities for cooperation in the areas of CT, CN, border security 
along the Afghanistan-Tajikistan border, as well as the development of 
a deployable peacekeeping force. Our military-to-military relationship 
is growing comparatively faster than our other relationships in the 
CASA sub-region.
    Like other hydrocarbon-exporting countries, Turkmenistan has had to 
confront falling gas prices and remains concerned about perceived 
instability in northern Afghanistan. Turkmenistan is selective in 
accepting military cooperation programs, declining to participate in 
most military events, conferences, and exercises. United States 
cooperation with the Turkmen is primarily focused on counter-narcotics, 
disaster preparedness, and medical service readiness. These three areas 
provide us with engagement opportunities to build those partner 
capabilities that are acceptable to the Turkmen and also help to 
sustain and even strengthen our relationship going forward.
    A shared border with Afghanistan and a heavy domestic security 
presence have helped to shield Uzbekistan from significant threats. 
Despite their stated aversion to foreign blocs and multi-lateral 
engagements, our relationship with the Uzbeks continues to grow 
stronger. Bilateral military-to-military opportunities are focused on 
improving border security, CT, CN, and stemming the flow of foreign 
fighters. The Uzbeks, like other CASA nations, remain concerned about 
the potential return of radicalized fighters from Iraq, Syria, and 
Afghanistan. Our military-to-military relationship with the Uzbeks 
remains positive. By expanding our collaboration, we expect to improve 
the professionalism and capacity of Uzbekistan's armed forces, which is 
the largest military force in Central Asia.
                        our strategic approach.
    The effective employment of our ``Manage-Prevent-Shape'' strategic 
approach largely depends upon the capacity and readiness of our 
forward-deployed military forces and Service prepositioned materiel 
capabilities. Equally important are our efforts aimed at building our 
regional partners' capacity and strengthening our bilateral and 
multilateral relationships. This is achieved principally through key 
leader engagements and our training and joint exercise programs.
    Building Partner Capacity (BPC).  A key component of USCENTCOM's 
Theater Strategy focuses on building the capacity of partner nations to 
enable them to assume a greater role in providing for the security of 
their sovereign territories and counter common threats. Joint training 
exercises, key leader engagements, and FMS and FMF programs continue to 
represent the key pillars of our BPC strategy. Also critical are 
relevant authorities and programs noted in the fiscal year 2016 
President's Budget, namely the Global Train and Equip authority and 
Counter Terrorism Partnerships Fund. BPC is a low-cost and high-return 
investment. Tangible by-products of our BPC efforts include increased 
access and influence, enhanced interoperability, and improved security 
for our forward deployed forces, diplomatic sites, and other U.S. 
interests. The practice of working ``by, with, and through'' our 
regional partners serves to enhance the legitimacy and durability of 
our actions and presence in the region. Most importantly, having strong 
partners enhances our collective capability and interoperability, 
allows for increased burden sharing, and improves the likelihood of 
success, particularly in the event of unforeseen contingencies. Over 
the past year, it has been encouraging to see a number of our regional 
partners take a more active role in addressing threats and protecting 
their sovereign territories. In particular, the GCC's role in 
addressing regional security challenges has grown exponentially. Our 
Gulf partners are to be commended for their leadership and their 
efforts in a number of areas. The convergence of interests, namely the 
need to counter the threat posed by ISIL and other VEOs, has afforded a 
unique opportunity to strengthen ties among nations while contributing 
to improving stability and security throughout the region. We should do 
all that we can to support and enable their continued collaboration as 
we work to enhance our collective capabilities.
    The fact is that contingency operations provide an opportunity to 
take a hard look at ourselves and identify areas where we may need to 
make improvements. They also provide opportunities to strengthen our 
commitment to our regional partners. They will prove increasingly 
important going forward as we confront the growing threat posed by 
ISIL, AQ and other VEOs, and as we manage the challenges posed by Iran 
and other malign actors in the region.
    The President reiterated our strong commitment to bolstering the 
defense capabilities of our GCC partners during the U.S.-GCC Summit 
held at Camp David in May 2015. Building on that Summit, GCC members 
have welcomed enhanced U.S. security engagement, but implementation of 
commitments to follow-up on the Camp David Summit has been uneven. In 
some areas--including arms transfers, ballistic missile defense, and CT 
cooperation--we have had productive initial engagements and follow-up 
efforts are underway. In other areas, most notably special operations 
training and maritime cooperation, the GCC has been slow to act on U.S. 
offers of additional cooperation and assistance. Over the next year, we 
will continue to build on the Camp David Summit, prioritizing 
implementation of GCC commitments that would reaffirm our commitment to 
Gulf security and also support our two top priorities: defeating ISIL 
and other extremists, and addressing conflicts that are undermining 
regional stability. Our security assurance and assistance, and the 
steps we are taking with our GCC partners to strengthen their capacity 
to deal with asymmetric threats, are designed to put them in a far 
stronger position so that they can engage Iran politically--clear-eyed, 
without illusions, and from a position of strength. We look forward to 
seeing the initiatives translate into credible, enduring capabilities 
that contribute to improved regional security and stability.
    USCENTCOM Exercise and Training Program.  The USCENTCOM Exercise 
and Training Program continues to grow in complexity and relevance with 
extended participation throughout the AOR during fiscal year 2015 and 
into the 1st quarter of fiscal year 2016. The program affords 
meaningful opportunities that assist with BPC efforts, improve 
interoperability among partner nations, maintain U.S. readiness, and 
provide for key leader engagements.
    During fiscal year 2015, the command executed 51 USCENTCOM and/or 
component command-sponsored bilateral and multi-lateral exercises. 
These included EAGER LION 15, which was hosted by Jordan and included 
naval, air, and land assets from 14 partner nations operating at 14 
different locations and totaling over 8,500 personnel, including some 
4,500 U.S. military and civilian support personnel. The International 
Mine Countermeasures Exercise is planned for the spring of 2016, taking 
place in over 8,000 square miles of navigable waterway and uniting more 
than 40 nations, including over 7,000 global military servicemembers 
and over 40 naval vessels and numerous other warfighting assets in 
defense of the region's maritime commons. Each of the 51 exercises 
contributes to the readiness of U.S. and partner nation forces and the 
advancement of our national interests. Our exercise and training 
program also serves to demonstrate mutual commitment to regional 
security and combined command, control, and communications 
interoperability (C3I). Other program impacts include military-to-
military engagement, integrated staff planning, the execution of joint 
and combined operations, the development of coalition warfare, and the 
refinement of complementary warfare capabilities.
                  required capabilities and resources.
    The security environment in the Central Region is likely to remain 
highly volatile for the foreseeable future. We must ensure that we are 
ready and able to conduct steady state operations, deter our 
adversaries, reassure our regional partners, and respond to unforeseen 
contingencies from a wide range of actors and VEOs.
    In order to effectively protect and promote U.S. and partner nation 
interests in the region, USCENTCOM must maintain a strong forward 
presence and be adequately resourced with the necessary capabilities 
and force posture, including forces, equipment, and enablers. 
USCENTCOM's posture and presence remain the primary means for providing 
the National Command Authority with military options in the region. Our 
required capabilities include:
    Forces and Equipment.  Forward-deployed rotational joint forces 
that are trained, equipped, mission-capable, and ready to respond 
quickly and effectively, including fighter and airlift assets, 
surveillance platforms, BMD assets, naval vessels, ground forces, and 
cyber teams, are essential to the protection of our core interests, and 
supporting and reassuring our regional partners. A capable and well-
supported forward presence can help to prevent conflict through 
deterrence, manage crisis escalation through early intervention, and 
provides our national-level leadership with a broad set of response 
options. We continue to develop a sustainable, flexible, long-term 
posture that provides the necessary presence, access, and partnerships 
to support enduring missions and activities across the USCENTCOM AOR.
    We remain increasingly concerned that our demand for replenishment 
of critical precision munitions continues to put a strain on Service 
budgets. At the same time, industry's capacity to produce key precision 
munitions cannot keep pace with the demand from USCENTCOM, other 
geographic combatant commands, as well as our Coalition partners 
looking to purchase munitions through existing security assistance 
programs in support of USCENTCOM theater-wide operations. We work with 
the Service headquarters to prioritize precision munitions and continue 
to seek increases in the procurement and AOR allocation of our most 
sophisticated and precise weapon systems (e.g., TLAMs, JASSM, PAC-3, 
ATACMs), as well as authorization for construction of munitions storage 
facilities within the AOR.
    USCENTCOM requires continued regeneration, reset, and modernization 
of designated Service pre-positioned equipment capability sets. These 
capability sets and associated materiel represent critical enablers 
essential for effective force employment in support of ongoing 
operations and unforeseen contingencies. They allow our national-level 
leadership to respond to a diverse set of crisis scenarios, to include 
preventing disruptions to trade and security that could have disastrous 
impacts on the global economy. Pre-positioned equipment reconstitution 
and regeneration must remain a Service priority, recognizing that 
equipment shortfalls continue to impact indirect fire, sustainment, and 
troop support capabilities.
    Information Operations.  Information Operations (IO) remains a top 
priority for USCENTCOM and an important element of the broader `whole 
of government' effort to counter our adversaries and protect our core 
national interests. Our adversaries, including ISIL, use the 
information battlespace to great effect. We must actively counter this 
asymmetric threat, recognizing that IO will endure well beyond today's 
major combat and counter-insurgency operations. Of note, Iran and proxy 
actors actively threaten our interests and the interests of our 
regional partners and they are enabled by robust IO efforts. Our IO 
capabilities, both offensive and defensive, are designed to disrupt and 
counter these and other threats. They also may be used to promote the 
messages of moderates in order to counter the radical ideologies that 
fuel much of the conflict and instability that plague the Central 
Region. To date, investments in IO have produced a cost-effective, non-
lethal tool for disrupting VEO activity across the region. We will need 
to build upon the existing capability and improve our effectiveness and 
that of our partners operating in the information battlespace.
    Cyber Operations.  USCENTCOM communication networks are the most 
critical enabler for our deployed servicemembers and regional military 
partners. Our complex joint and coalition command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C5ISR) systems infrastructure is essential for enabling 
mission command, precision targeting, intelligence processing and 
dissemination, CT actions, IAMD, disaster relief missions, cyber, 
sustainment, and combat operations throughout the AOR. These missions 
require assured availability, integrity, and confidentiality to provide 
accurate data for precision weapons and navigation systems, as well as 
a robust communications backbone infrastructure that provides the 
required bandwidth for crucial aerial intelligence, surveillance, and 
reconnaissance (ISR) processing, exploitation, and dissemination and 
distributed mission command. We must also continue to develop and 
synchronize cyber capabilities with kinetic operations to achieve key 
security objectives. Congressional support is crucial to the continued 
improvement of cyber security and offensive capabilities necessary to 
provide mission assurance, deterrence and dominance in this critical 
and highly contested domain. A successful cyber defense requires 
vigilance and continuous investment in order to sustain an advantage 
over adversaries that are constantly improving their cyber threat 
capabilities.
    Integrated Air and Missile Defense.  A robust IAMD capability 
remains increasingly important to us and our regional partners as 
threat technology improves and systems become more flexible, mobile, 
survivable, reliable, and accurate. Today, the global demand for BMD 
capabilities far exceeds supply. In particular, there is a need for 
additional upper- and lower-tier interceptors, surface and space-based 
surveillance and warning, and ISR platforms to seek and destroy 
ballistic missiles and rockets and unmanned aerial assets. USCENTCOM 
mitigates some of this risk through increased IAMD integration, 
interoperability, and burden-sharing with our partners. However, a gap 
does still exist that must be addressed. Providing IAMD protection to 
deployed U.S. Forces and in support of critical infrastructure is 
crucial to mission success and provides a visible deterrence to 
regional aggression. Moreover, it signals U.S. commitment to regional 
partners, while providing flexibility to respond to regional 
contingencies. Our bases in the USCENTCOM AOR will increasingly be 
vulnerable to the threat posed by ballistic missiles if we continue 
along the current trajectory. Congress' support for the Department's 
investment in this area is essential.
    Intelligence, Surveillance, Reconnaissance Assets.  Intelligence, 
surveillance, and reconnaissance (ISR) capabilities remain challenged 
by supply-versus-demand limitations. The demand for ISR has increased 
substantially as a result of the Counter-ISIL Campaign, coupled with 
the enduring need to maintain a persistent eye on strategic risks and 
possible threats to critical U.S. national security interests. 
Meanwhile, collection in A2/AD environments continues to present a 
tough challenge. Our demand for multi-discipline, low-observable ISR 
with strike capability that can operate in adverse weather conditions 
and non-permissive environments is increasing. If we do not meet the 
requirements, we can expect that our information dominance, situational 
awareness, and security posture will diminish accordingly. Although 
overhead systems constitute a crucial component of the intelligence 
collection enterprise, they lack the ubiquity, persistence, and 
fidelity to fulfill our ISR gaps by themselves. Low observable 
platforms with improved sensors and endurance are critical to a number 
of USCENTCOM plans, while permissive ISR systems play a key role in 
COIN and CT missions. With respect to Iraq and Syria, there is need for 
a robust ISR capability to develop and maintain situational awareness 
of the security environment, particularly in denied and ungoverned 
spaces and in the absence of a larger U.S. ground presence. While we 
are looking to our coalition partners to help fill some of the ISR 
demand, shortages do remain that must be addressed.
                  required authorities and resources.
    The realities of the current fiscal environment continue to impact 
USCENTCOM HQs, our five component commands, established combined/joint 
task forces, and 18 country teams. Provided the right authorities and 
resources, our world-class Civ-Mil team can and will successfully 
accomplish any mission. With that in mind, we sincerely appreciate 
Congress' continued support for key authorities and appropriations 
needed to sustain current and future operations and to respond to 
unforeseen contingencies. The required authorities and resources listed 
below will enable USCENTCOM to shape positive outcomes for the future.
    Iraq Train & Equip Fund.  The Iraq Train and Equip Fund (ITEF) 
includes a multi-layered approach to assist the Iraqi military and 
other associated security forces by contributing to the Coalition 
effort to fill urgent equipment shortfalls and training deficiencies. 
As of mid-December 2015, we trained and/or equipped more than 19,000 
Iraqi Security Forces, including Counter-terrorism Service (CTS), Iraqi 
Special Operations Forces (ISOF), Peshmerga, and Sunnis through ITEF-
related activities. Most graduates of the ISOF Commando Course in Area 
IV and BPC-trained Peshmerga battalions have been involved in combat 
operations since completing Coalition-led training. These trained 
forces appear to be performing better than their contemporaries who 
have not undergone Coalition-led training. United States support in 
fiscal year 2017 is essential to the success of the military campaign 
in Iraq.
    Syria Train & Equip Fund.  The forces we train and equip continue 
to show resolve and effectiveness in the fight against ISIL inside of 
Syria. A stand-alone fund that provides the flexibility to adapt to the 
changing battlefield environment while permitting the execution of our 
strategy to train, equip, resupply, and enable forces fighting ISIL in 
Syria is critical to future success. Such a fund would enable 
streamlined funds flow, transparency, accountability, and 
responsiveness that positions us to reinforce success as it occurs on 
the battlefield.
    The Afghanistan Security Forces Fund (ASFF).  We continue to see 
tremendous achievements made possible by the ASFF as the ANDSF and the 
Afghanistan Security Institutions (ASI) steadily improve. While our 
ASFF budget request has decreased by 70 percent since 2011, the 
capabilities and activities enabled by this appropriation remain 
critical to continued success in Afghanistan. Furthermore, our support 
reflects U.S. confidence in the ANDSF's ability to develop and mature 
into a capable, credible, sustainable, and independent force. The 
fiscal year 2017 ASFF budget request for just under $3.5 billion 
continues to posture the ANDSF for long-term sustainability. The 
Afghans greatly appreciate United States support, they are responsive 
to our advice, and they understand that funding is neither 
unconditional nor indefinite.
    Foreign Military Financing and Foreign Military Sales.  Our need 
for continued Congressional funding of FMF programs that support 
USCENTCOM security cooperation objectives cannot be overstated. The 
Central Region accounts for nearly half of all global FMS. Our partners 
in the region want U.S. equipment because they recognize that it is the 
best in the world. It also represents a very effective means for 
establishing long-term relationships between the U.S. and our partner 
nations and ensures greater interoperability between our militaries. We 
appreciate Congressional support for interagency initiatives designed 
to streamline the FMS and FMF process. We also need our regional 
partners to do their part to ensure the timely execution of all FMS 
requests.
    Excess Defense Articles (EDA)/ Foreign Excess Personal Property 
(FEPP).  The EDA program represents an integral component of our BPC 
efforts and has proven beneficial in our engagements with our regional 
partners. We have reaped the benefits of this authority several times 
in the last year, enabling us to support requirements in Afghanistan, 
Iraq, Jordan, Lebanon, and other countries located within the USCENTCOM 
AOR or participating in operations with U.S. Forces. Several other EDA 
transfers to the UAE and Egypt are pending. In the same light, the FEPP 
authorization has allowed us to transfer non-military equipment 
acquired as part of our base closures and reductions to Iraqi and 
Afghan security forces, and government ministries in Afghanistan, 
Kuwait, and the Kyrgz Republic.
    Coalition Support.  The Coalition is central to the power of our 
operations and has never been stronger or more responsive than it has 
been over the last 18 months. The flexible authorities and funding that 
Congress continues to provide directly enables the size and diversity 
of the Coalition, which is key to its effectiveness. Together, the 
Coalition Support Fund, Coalition Readiness Support Program, and Lift 
and Sustain facilitate broad participation in combined military 
operations, thereby reducing the burden on U.S. Forces and enabling 
activities that would otherwise not be possible.
    Commander's Emergency Response Program (CERP).  Regardless of the 
size, shape, or mission of U.S. Forces, your continued support for CERP 
is essential as it provides an invaluable tool to commanders. CERP 
funds are routinely the only time-sensitive means to respond to 
unanticipated events and requirements, implement small-scale efforts 
that provide immediate and direct benefit to local populations to 
enhance protection of U.S. Forces, and enable U.S. Forces to make 
condolence payments for the loss of life or property damage.
    Military Construction (MILCON).  We continue to leverage existing 
infrastructure and host nation funding, as well as maritime posture and 
reach-back capabilities to meet steady state and surge requirements. In 
some cases, MILCON is still required to expand infrastructure 
capabilities to facilitate sustainment support for U.S. Forces and 
operations. Given our adversaries' continued development of A2/AD 
capabilities, it is imperative that we facilitate the dispersion and 
hardening of key infrastructure at our major operating hubs and spokes.
    Long-term C4 Sustainment Plan.  USCENTCOM, our Service Components, 
Combined Joint Task Forces (CJTF), and our deployed warfighters rely 
heavily on communications systems to provide critical Joint and 
Coalition command and control, communications, computers, intelligence, 
surveillance, and reconnaissance (C5ISR) and logistics services across 
the USCENTCOM AOR. Without a diverse and survivable communications 
infrastructure and bandwidth delivery, via both satellite 
communications and terrestrial fiber leases to the current U.S. Force 
posture locations, all current and future Mission Command Operations 
are at great risk. Continued resource support is essential to 
maintaining the current U.S. Force presence in the USCENTCOM AOR, and 
to enable rapid support for any future contingency operations.
                     the u.s. central command team.
    The outstanding men and women who make up the USCENTCOM team 
continue to do tremendous work in support of the command's broad 
mission encompassing a vast and highly volatile geographic area. They 
shoulder great responsibility and their day-to-day actions are of 
enormous consequence. We have an obligation to ensure that they are 
resourced appropriately and have the necessary tools and equipment, a 
responsive support structure, and safe, secure, and respectful 
environments to live and work in. We also take very seriously our 
obligation to our families; we could not do what we do without their 
support. They are important and valued members of our USCENTCOM team.
    The team also benefits from the unique capability provided by our 
Coalition Coordination Center, which consists of more than 200 foreign 
military officers from nearly 60 partner nations. USCENTCOM is the only 
geographic combatant command with this unique capability, and it 
continues to pay enormous dividends in terms of information sharing, 
collaboration, and outreach.
                              conclusion.
    Our overarching goal at USCENTCOM is to move the Central Region in 
the direction of increased stability and security. It is an ambitious 
task and success will require that all elements of the USG and the 
international community work together in pursuit of this shared 
objective. We are seeing the power of such collaboration in the ongoing 
fight against ISIL in Iraq and Syria. The enemy's capability has been 
greatly degraded over the past 18+ months and that reflects the efforts 
of the indigenous forces supported and enabled by the 66-nation 
Counter-ISIL
    Coalition. Much work remains, but we do see progress being made 
across the breadth and depth of the battlespace and throughout the 
USCENTCOM AOR. Going forward, we will take direct military action where 
necessary to counter malign actors and activities that pose a threat to 
our core national interests and the interests of our partner nations. 
At the same time, we will continue to support the governments and 
people of the region in their efforts to build needed capacity, 
enabling them to take a more active and pronounced role in providing 
for the security of their sovereign spaces. This will serve to increase 
burden-sharing among nations, strengthen partnerships, and expand 
cooperation. Ultimately, these various efforts will enable us to 
improve stability and security across the strategically-important 
Central Region.
    Today, more than 84,000 of the very best soldiers, sailors, airmen, 
marines, coastguardsmen and civilians assigned to or associated with 
U.S. Central Command are selflessly serving in difficult and dangerous 
places around the globe. They continue to do an exceptional job in 
support of the USCENTCOM mission and our Nation. Our people are our 
most important assets. We are enormously proud of them and their 
families. They are and will remain our foremost priority.
    USCENTCOM: Ready, Engaged, Vigilant!

    Senator McCain. Thank you.
    General Rodriguez?

 STATEMENT OF GENERAL DAVID M. RODRIGUEZ, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Rodriguez. Chairman, Ranking Member, distinguished 
members of the committee, thank you for the opportunity to 
update you on the efforts of the United States Africa Command. 
For the past three years, I have been honored to command the 
men and women of Africa Command.
    Africa is an enduring interest for the United States, and 
its importance continues to grow as African economies, 
population, and influence grow.
    Small but wise investments in African security institutions 
today offer disproportionate benefits to Africa, Europe, and 
the United States. African solutions to African problems are, 
in the long run, in the best interest of Africans, Americans, 
and, indeed, the world.
    Now, in the most troubled spots on the continent, Africans 
have an understandable fear and distrust of the governments and 
security forces, which are charged with promoting and guarding 
the welfare of the people. Predatory practices, patronage 
networks, corruption, and political and economic exclusion of 
portions of the population, as well as inconsistent adherence 
to the rule of law, combine to crush the hope of a better 
future.
    These conditions create an environment ripe for the 
expansion of violent extremism and represent a threat not only 
to Africa but to our European allies and the United States. 
Effectively addressing the threat before, during, or after a 
military crisis requires a comprehensive approach employing 
diplomacy, development, and defense to address the root causes 
of extremism and replace fear and uncertainty with trust and 
confidence in African institutions.
    This approach must seek improvements in governance 
consistent with adherence to the rule in a society that offers 
equal political and economic opportunity for all.
    Africa Command's contributions to this broad solution lie 
primarily in encouraging and enabling the professionalism of 
the African security institutions, which will secure national 
populations, cooperate in addressing regional security 
concerns, and increasingly play a role in sustaining global 
security.
    Our military strategy articulates a long-term, regionally 
focused approach to enabling our African partners. Our 
operational approach seeks to disrupt and neutralize 
transnational threats by building African partner defense 
capability and capacity.
    While we have achieved progress in several areas through 
close cooperation and coordination with our partners, allies, 
and interagency partners, threats and challenges remain.
    In East Africa, we are helping to set the conditions for 
the eventual transfer from the African Union Mission in 
Somalia, or AMISOM, to use the Somalia National Army and 
federal Government of Somalia.
    However, al Shabaab remains a continuing threat and is 
conducting almost daily lethal asymmetric attacks in Somalia 
against AMISOM troops.
    In North Africa, Libya's insecurity has negative 
consequences for its people, its neighbors, Europe's southern 
flank, and our peace and security objectives in Africa and the 
Middle East. An international coalition to support the Libyans 
to counter the Islamic State of Libya would support a 
functional Government of National Accord [GNA] and reduce the 
risks of the expansion of ISIL, further instability in North 
Africa, and the emergence of a direct threat to U.S. interests.
    Stability in Libya is a long-term proposition that will 
require an appropriate long-term strategy. Across West Africa, 
our partners and allies are countering terrorist organizations 
like Boko Haram through the Multinational Joint Task Force. 
With troops from Benin, Cameroon, Chad, Niger, and Nigeria, the 
Multinational Joint Task Force is a collaborative regional 
effort to address Boko Haram's conflicts and lethal attacks 
aimed at destabilizing governments and terrorizing civilians.
    In Central Africa, through the combined efforts of civilian 
agencies, nongovernmental organizations, and military forces, 
the Lord's Resistance Army [LRA] no longer threatens regional 
stability, and its capacity to harm civilian populations has 
diminished greatly. Today, we estimate less than 200 LRA 
fighters remain, and local communities are better prepared to 
protect themselves.
    Now, elections and transition of power remain a source for 
political instability in many African nations. Despite a 
decline in violent coup terms, challenges to the electoral 
process and the peaceful democratic transfer of power threaten 
both new and established governments.
    Currently, our requirements are increasing faster than our 
resources. Within the command, we seek innovative ways to 
mitigate capability gaps by refining our priorities and 
deliberately improving the alignment of our resources to our 
strategy. Success, however, requires teamwork extended well 
beyond the command itself. Close cooperation with our African 
partners, allies, the interagency, nongovernmental 
organizations, and international organizations will, over time, 
strengthen democratic institutions, spur economic growth, and 
advance African peace and security to a degree that U.S. 
military efforts alone cannot achieve.
    Together, we can help the people of Africa achieve their 
potential on the global stage.
    I want to thank you all for your continued support of our 
mission and to the soldiers, sailors, airmen, marines, Coast 
Guard, civilians, contractors, and their families, as we 
continue to advance our Nation's defense interests in Africa. 
Thank you very much.
    [The prepared statement of General Rodriguez follows:]

            Prepared statement by General David M. Rodriguez
          united states africa command 2016 posture statement
                              introduction
    Chairman, Ranking Member, distinguished members of the Committee, 
thank you for the opportunity to update you on the efforts of United 
States Africa Command. For the past three years, I have been honored to 
command the men and women of Africa Command. Since its inception in 
2007, the command continues to pursue the objectives of strengthening 
democratic institutions, spurring economic growth, trade, and 
investment, advancing peace and security, and promoting opportunity and 
development throughout Africa.
    Africa is an enduring interest for the United States, and its 
importance will continue to increase as African economies, population, 
and influence grow. Relatively small but wise investments in African 
security institutions today offer disproportionate benefits to Africa, 
Europe, and the United States in the future, creating mutual 
opportunities and reducing the risks of destabilization, 
radicalization, and persistent conflict. Our engagement now can assist 
our African partners in realizing their potential and gaining the 
capability to solve African problems. African solutions to African 
problems are, in the long run, in the best interest of Africans, 
Americans, and indeed the world.
    In an effort to produce the greatest impact with the available 
resources, this year we updated the command's Theater Strategy and 
Theater Campaign Plan. Our approach employs security force assistance 
and exercises as decisive efforts to build partner capacity. We use 
military operations to create the conditions for our partners to 
develop the capacity they need, and we use engagements across the 
continent as well as our posture, presence, and agreements to sustain 
our efforts in Africa. These efforts expose our African partners to our 
values and capabilities, model military professionalism and 
proficiency, and inspire them to pursue excellence in their own 
institutions.
    Our command approach is synchronized and focused, relying upon 
regional cooperation and close coordination with a host of partners. 
United States Africa Command, along with our diplomatic, defense, and 
development partners is helping to build African institutions capable 
of deterring the spread of extremism, protecting their populations, 
enabling economic prosperity, and expanding the rule of law and human 
rights.
                         strategic environment
    Africa is complex and dynamic. In 2010, the United Nations 
estimated Africa's population at 1 billion, predicting a growth to 1.6 
billion by 2030 and more than 2 billion by 2050. This population 
increase is coupled with urbanization and a youth bulge. Africa's 
increase in its youth demographic, combined with other historic 
challenges, has led in some cases to unemployment and wide-spread 
disenfranchisement from already over-taxed governments. With national 
systems for basic public services, security, and infrastructure under 
increasing stress, criminal and terrorist networks can exploit fissures 
between the marginalized masses and the ruling elites, taking advantage 
of ungoverned or under-governed areas.
    Many African populations have an understandable fear and distrust 
of predatory governments or security forces and limited access to 
democratic participation and employment. This creates an environment 
ripe for the expansion of violent extremism, and require a 
comprehensive approach employing diplomacy, defense, and development to 
address the root causes of extremism. Our effectiveness is strengthened 
by close coordination with interagency partners, including the 
Department of State and United States Agency for International 
Development (USAID), who possess a strong understanding of African 
political dynamics, cultural contexts, and long-standing strategic 
partnerships.
    Across Africa, the protection of United States personnel and 
facilities and the operational requirements of the command and the 
component commands have increased over the past year. In fiscal year 
2015, we conducted 75 joint operations, 12 major joint exercises, and 
400 security cooperation activities. In comparison, we conducted 68 
operations, 11 major joint exercises, and 363 security cooperation 
activities in fiscal year 2014. With requirements increasing faster 
than resources, we use innovative ways to mitigate capability gaps, 
including sharing forces with other combatant commands and 
complementing the capabilities of multinational and interagency 
partners.
                              east africa
    The Combined Joint Task Force Horn of Africa leads the command's 
efforts in East Africa. They work to complement and build the 
capability and capacity of our East African partners. The International 
Peace Support Training Center in Kenya conducts applied research, 
training and education for Africans in peace operations. The United 
Nations Signal School in Uganda conducts standardized training for 
signal units deploying in support of United Nations peacekeeping 
missions. The United Nations Counter-Terrorism Centre in Djibouti 
serves as a model for regional efforts on counter-illicit finance, 
improve border security, and development of counter-terrorism strategy.
    Security in Somalia has generally improved. Although, African Union 
Mission in Somalia (AMISOM) forces in southern and central Somalia 
seized significant territories from al Shabaab last year, weakening the 
group and reducing its ability to generate resources, al Shabaab 
continues to pose a threat to United States and allied interests. 
Recent AMISOM operations, however, have been limited due to 
overstretched AMISOM forces and endemic deficiencies within the Somali 
National Army. The Somali National Army remains dependent on foreign 
forces to conduct operations and is challenged by leadership, 
logistical support, and clan factionalism.
    Al Shabaab remains a continuing threat to U.S. persons and Western 
interests, and is conducting almost daily lethal asymmetric attacks in 
Somalia against AMISOM troops. Under-governed areas outside the reach 
of the Federal Government of Somalia will continue providing al Shabaab 
with territory in which it can evade security forces and continue 
targeting East African regional governments and security interests as 
well as European and American interests. Al Shabaab's efforts will be 
aimed at removing external influence from Somalia and compelling troop 
contributing countries to re-evaluate their involvement in AMISOM. In 
the future, al Shabaab may seek to adapt to financial and territorial 
losses by broadening its terrorist agenda throughout East Africa.
    Political tensions within the Federal Government of Somalia will 
probably increase leading up to federal elections which have been 
delayed and are now scheduled for August, 2016.Tensions may be 
exacerbated if the government falls further behind on the key 
transitional benchmarks of constitutional reform, federal state 
creation, and the establishment of technical commissions to oversee the 
electoral process, or if it tries to exert its authority outside of a 
federally-styled government.
    Wide-spread deterioration of security situations due to contested 
elections and constitutional referendums in East Africa will continue 
to challenge the region. As seen in Burundi, election protests can lead 
to politically motivated violence between the opposition, security 
forces, and civilian militias.
                              north africa
    In North Africa, our priority is to contain Libyan instability and 
to counter violent extremist organizations. The post-Arab Spring 
transitions have fundamentally altered the regional security landscape. 
Terrorist groups like the Islamic State-Libya (IS-Libya) have exploited 
this instability and have expanded their training and operations. 
Furthermore, our European allies are deeply concerned about the migrant 
crisis and view it as their preeminent security issue within the 
Mediterranean Sea and along Europe's southern flank.
    Libya's insecurity, combined with porous land and maritime borders, 
has negative consequences for its people, its neighbors, Europe's 
southern flank, and our peace and security objectives in Africa and the 
Middle East. Foreign fighters, arms, and illegal migrants are flowing 
through Libya, supplying fighters to the Syrian and Iraq conflicts, and 
threatening our North African partners and Southern European allies. 
The December 2015 agreement to form a Libyan Government of National 
Accord (GNA) is an important step toward stabilizing the country. Even 
with the support of the international community, the GNA will likely 
struggle for the foreseeable future to establish its authority and 
secure Libya's territory, borders, resources, and people. The continued 
absence of central government control will continue to perpetuate 
violence, instability, and allow the conditions for violent extremist 
organizations to flourish until the GNA and appropriate security forces 
are operational within Libya. In the interim, the political situation 
will complicate national and international efforts within Libya.
    IS-Libya represents a serious and growing threat to U.S. persons 
and interests throughout the region. Since mid-2014, IS-Libya has 
subsumed existing violent extremist organizations and continues to 
attract new fighters. Foreign fighters returning from Syria and Iraq 
reinforce IS-Libya's ranks with battle-experienced fighters. This 
situation allows for IS-Libya to expand its presence, co-opt existing 
organizations and militias, and incorporate more tribal and sub-
national groups.
    The absence of a functional government in Libya creates a favorable 
environment that threatens to export instability across Africa and 
threatens our European allies. Currently, we are engaged with our 
European partners in planning and intelligence sharing for the Libyan 
International Assistance Mission (LIAM), an international security 
effort to assist the newly established Government of National Accord. 
Improving regional security requires a coordinated multinational 
approach to support improvements in governance, security, and 
development.
    In Mali, security has become more tenuous as terrorist 
organizations carry out deadly attacks in the north against Malian, 
French, and United Nations forces and take advantage of a smaller 
military presence, the flow of arms from Libya, and the inability of 
the Mali Government to find a political solution to its domestic 
security situation. Increasingly, we are seeing terrorist elements 
launch attacks in central and southern Mali against civilian targets, 
which will add increased stress to security forces that lack the 
training and experience with counterterrorism to combat the threat 
effectively. While the situation remains challenging, the international 
community's coordination in addressing regional security challenges has 
improved. United States Africa Command supports the Department of State 
in preparing partners with non-lethal training and equipment for 
deployment to multilateral peacekeeping operations in Mali where eleven 
African countries are contributing to the United Nations 
Multidimensional Integrated Stability Mission in Mali mission. We 
continue to provide support to partners and allies operating in Mali 
and neighboring countries, including enabling assistance to French 
forces in the Sahel, a relationship viewed as extremely effective and 
mutually beneficial.
    United States Africa Command is assisting in broader regional 
security and stability in numerous ways. We continue to collaborate 
with the Sahel Multilateral Planning Group--United States, United 
Kingdom, France, Canada, and Italy--to synchronize allied activities in 
the Sahel Maghreb region to strengthen multilateral relationships in 
the fight against violent extremist organizations. In Tunisia, we are 
supporting counterterrorism training and increasing Tunisia's aerial 
support capability and focusing on improving Tunisia's 
counterterrorism, intelligence, and border security capabilities. We 
are also assisting Tunisia in installing an electronic surveillance 
system along key portions of the border with Libya to help stem the 
illegal flow of people, arms, and contraband. In Algeria, U.S. Army 
Africa is providing counter-Improvised Explosive Device (IED) and 
forensic training. This training provides Algerian troops expertise in 
analyzing post-blast sites to determine types of IEDs used and adjust 
plans and tactics to better counter threats.
                              west africa
    In West Africa, containing and degrading Boko Haram (Islamic State-
West Africa Province (ISWAP)) remains the top priority as Boko Haram 
conducts increasingly complex and lethal attacks aimed at terrorizing 
civilians and destabilizing governments. We are watching carefully for 
signs that the threat posed by Boko Haram to U.S. persons is growing as 
a result of the group's alignment with ISIL. In 2015, the African Union 
authorized a request from Benin and the Lake Chad Basin Commission 
nations (Cameroon, Chad, Niger, Nigeria) to form the Multinational 
Joint Task Force (MNJTF) to counter-Boko Haram. Countering adaptive 
threat networks, like Boko Haram, across a transnational battle-space, 
requires this type of regional approach. The African Union, France, the 
United Kingdom, the European Union, and the United States have all 
pledged financial support to the MNJTF partner nations to support their 
counter-Boko Haram efforts. With the assistance of the Department of 
State, United States peacekeeping operation funds are providing support 
to the MNJTF Headquarters partners, including a project to link the 
MNJTF headquarters to the African Union's and regional economic 
communities' command and control systems, while additional funds will 
be used to train and equip forces and to enable airlift support.
    Last year, Nigerians brought about a largely peaceful transition of 
executive power. Since the election, President Buhari and his 
administration have focused on anti-corruption programs, counter-Boko 
Haram efforts, and rebuilding Nigeria's socio-political and economic 
systems. However, after decades corruption at the highest levels of 
civil and military leadership and a history of human rights abuses by 
security forces, Nigeria will require a comprehensive effort and 
support from partners such as the United States to reform and fully 
capitalize on its role as a leader on the continent. Nigeria must 
continue to improve the security services' behavior toward the 
civilians they are obligated to protect. To assist Nigeria, we are 
expanding security cooperation engagements and providing counter-IED 
support; intelligence, surveillance, and reconnaissance assessment 
teams; and advisors to support Nigeria's military at both the tactical 
and operational levels. We are also working with the Department of 
State to respond to the Nigerian Air Force's request for equipment and 
aircraft. Information sharing agreements are in place between the 
United States and Nigeria as well. We also facilitated the provision of 
excess defense article Mine Resistant Armored Personnel carriers to 
Nigerian forces.
    Also, in support of the counter-Boko Haram effort, the United 
States provided assistance to the adjoining countries of Niger, Chad, 
and Cameroon. In October 2015, the United States began providing 
security assistance training in Agadez, Niger, with 21 United States 
soldiers and airmen providing training to 250 Nigerien troops in 
support of the counter-violent extremists organization fight. In Chad, 
we have trained approximately 2000 members of the Special Anti-
Terrorism Group, and in Cameroon we have provided small unit tactics 
training and assistance to six Battalions from the Rapid Intervention 
Brigade that are engaged in counter-Boko Haram efforts.
    The Gulf of Guinea is rich with resources and significant 
development potential for energy, shipping, transportation, food, and 
tourism; however, it is also an area of insecurity. Piracy, armed 
robbery, illegal fishing, and kidnaps-for-ransom are pervasive off of 
Africa's west coast, and these problems have global implications. Lack 
of a regional coast guard presence to patrol waters allows criminal 
groups to operate and prey on tankers and commercial shipping. Through 
U.S. Naval Forces Africa, we support regional maritime security 
activities and complement civilian initiatives that address the root 
causes of maritime crime by strengthening governance and promoting 
economic development. Ongoing cooperation efforts between regional 
organizations, such as the Economic Community of West African States 
and the Economic Community of Central African States, are yielding 
results in implementing maritime codes of conduct, like the Yaounde 
Code of Conduct, an information sharing and maritime security agreement 
to counter illicit trafficking and piracy. For instance, as pirates 
took the motor tanker Mariam west across the maritime boundaries of 
Nigeria, Benin, Togo and finally into Ghanaian waters, it was tracked 
and monitored through the increased capabilities of the Maritime 
Operation Centers we helped build. Ultimately, it was interdicted and 
boarded by Ghanaian naval forces resulting in the arrest and 
prosecution of the pirates.
    This year, Operation UNITED ASSISTANCE, the operation to combat 
Ebola in West Africa, concluded. The USAID-led effort, with the Defense 
Threat Reduction Agency, the Centers for Disease Control and Prevention 
and U.S. Army Africa supporting, focused on building partner capacity 
of Liberia and the region. Our efforts are guiding partners to lead 
their own responses to the next outbreak by updating regional and 
national disaster preparedness and management plans based on lessons 
learned from the Ebola crisis. Recognizing the need to achieve 
sustainable capacity to preempt and respond to future crises, we 
initiated the African Partner Outbreak Response Alliance. This African-
led, USAFRICOM-supported program develops military capabilities to 
support responses to an infectious disease outbreak. Complementary to 
this is the Disaster Preparedness Program, which provides funding to 
build national response plans which the Economic Community of West 
African States (ECOWAS) used as a template for regional response plans.
                             central africa
    In Central Africa, in addition to those states engaged in Gulf of 
Guinea cooperation, the command's efforts have focused on working with 
the African Union Regional Task Force to counter the Lord's Resistance 
Army. Uganda, the Democratic Republic of the Congo, the Central African 
Republic, and South Sudan have contributed forces to the African Union 
Regional Task Force, which has led military efforts to reduce the 
group's safe havens, capture key leaders, and promote defections.
    While Joseph Kony remains at large, the African Union Regional Task 
Force, with advice and assistance from U.S. forces, has had 
considerable success reducing the threat posed by the LRA. Through the 
combined efforts of military forces, civilian agencies, and non-
governmental organizations, the Lord's Resistance Army (LRA) no longer 
threatens regional stability, and its capacity to harm civilian 
populations has diminished. Today, we estimate less than 200 Lord's 
Resistance Army fighters remain, and communities are better prepared to 
protect themselves. While continuing to work to eliminate the threat 
posed by the LRA, United States Africa Command can also now begin to 
focus on countering illicit activities that support the LRA and other 
destabilization influencers in the region.
                            southern africa
    Southern Africa remains relatively stable. The region fields some 
of the most professional and capable military forces on the continent. 
South Africa continues to contribute to regional and continental 
security, including participation in United Nations peace operations in 
Darfur, Sudan and the Democratic Republic of the Congo. Despite its 
relative stability, the region faces economic and social challenges 
that include poverty, crime, social inequality, and corruption. Future 
leadership challenges in countries such as Zimbabwe may increase the 
risk of regional instability.
                            strategic risks
    Other nations continue to invest in African nations to further 
their own objectives. China is focused on obtaining natural resources 
and necessary infrastructure to support manufacturing while both China 
and Russia sell weapon systems and seek to establish trade and defense 
agreements in Africa. As China and Russia expand their influence in 
Africa, both countries are striving to gain ``soft power'' in Africa to 
strengthen their power in international organizations.
    Non-allied and non-state actors are demonstrating increasing 
agility and sophistication in the information environment. They exploit 
vulnerabilities in partner, allied, and U.S. Government networks and 
invest heavily in internet and social media expertise to spread 
ideology and reach perspective recruits.
    Elections and transitions of power remain both a source of and 
catalyst for political instability in many African nations. Challenges 
to the electoral process and to peaceful, democratic transfers of power 
threaten both new and established governments. Protests in response to 
irregular or unfair voting too easily devolve into violence or violent 
responses from security forces.
                             opportunities
    United States Africa Command and our component commands collaborate 
with the African Union, European allies, the European Union, the United 
Nations, and other organizations to further the common objective of a 
safe, stable, and prosperous Africa. We also work in concert with 
international and interagency partners to build defense capabilities, 
respond to crisis, and deter transnational threats. The ability of our 
African partners to sustain the capacity they gain through security 
force assistance is dependent upon our collective efforts with allies, 
international organizations, and the African partners themselves. 
African nations are working together to develop solutions to the 
threats and challenges confronting them, and our allies and partners 
will continue to support their efforts.
                            command approach
                    theater strategy (5 - 20 years)
    Our strategy articulates a long-term, regionally focused approach 
that seeks to establish, with partners, a strategic environment in 
which African nations are willing and capable of addressing security 
threats, not solely from a military perspective, but from the 
foundations of governance, security, and development. The 2015 National 
Security Strategy mandates that we train and equip local partners and 
provide operational support to confront terrorist groups. It includes 
developing the ability to direct, manage, sustain, and operate a ready 
and able organization over time. These sustainable defense institutions 
promote governmental stability, respect for the rule of law, democracy, 
and human rights, and help to sustain broad-based development, all of 
which address the root causes of violent extremism and mitigate the 
need for costly international intervention.
                  theater campaign plan (1 - 5 years)
    The United States Africa Command operational approach seeks to 
disrupt and neutralize transnational threats by building African 
partner defense capability and capacity, as directed in the 2015 
National Security Strategy, in order to promote regional security, 
stability, and prosperity, while always protecting U.S. personnel and 
facilities and United States' access on the continent.
    This approach includes five lines of effort:

    <bullet>  Neutralize al Shabaab and transition the African Union 
Mission in Somalia to the Federal Government of Somalia
    <bullet>  Degrade violent extremist organizations in the Sahel 
Maghreb and contain instability in Libya
    <bullet>  Contain and degrade Boko Haram
    <bullet>  Interdict illicit activity in the Gulf of Guinea and 
through central Africa with willing and capable African partners
    <bullet>  Build African peacekeeping, humanitarian assistance, and 
disaster response capacity.

    Sustainable security requires effective and enduring institutions, 
both civilian and military, that are guided by the rule of law and a 
merit-based promotion system. We provide direct support to 
strengthening defense institutions and indirect support for governance 
reform and economic development, primarily led by the Department of 
State and USAID. Diplomatic, defense and development efforts continue 
to reinforce each other to promote stability in both conflict-affected 
and steady-state environments to build resilient democratic societies.
    The Theater Campaign Plan, along with the efforts from our 
component commands, develops a balanced approach that strengthens 
institutions and conducts counterterrorism operations with African 
regional partners, international allies, such as France and the United 
Kingdom, to disrupt, degrade, and eventually defeat terrorists. Recent 
operations in East Africa removed Abdirahman Sandhere, a senior leader 
of al Qaeda-affiliated al Shabaab, responsible for terrorist activities 
in Somalia. His removal from the battlefield represents a significant 
blow to al Shabaab and demonstrates that the United States will 
continue to use all tools at our disposal--diplomacy, information, 
military, and economic--to dismantle al Shabaab and other terrorist 
groups who threaten our partners, our allies, and the United States. In 
North Africa, recent airstrike operations removed Abu Nabil, an Iraqi 
national who was a longtime al Qaeda operative and the senior IS-Libya 
leader. In West Africa, we provide enabling support to the African-led 
Multinational Joint Task Force in their operations against Boko Haram. 
In the Gulf of Guinea, our cooperation with Benin, Ghana, Nigeria, and 
Togo led to enforcement of the Yaounde Code of Conduct and increased 
their capacity to counter illicit trafficking and piracy. These efforts 
have achieved an unprecedented level of collaboration, and their 
operations are shaping the campaign plan, which provide time and space 
to increase partner capacity within defense and government 
institutions.
                     synchronization with partners
    The Africa Strategic Dialogue, an annual meeting of United States 
Africa Command and our interagency partners facilitated by the Africa 
Center for Strategic Studies, is intended to foster a shared strategic 
situational understanding and a common strategic approach. This 
collaborative forum fosters a comprehensive approach by including 
Assistant Secretary-level leaders in the Department of Defense, 
Department of State, and USAID and provides the guidance to improve the 
alignment of resources to the U.S. strategy and informs our annual 
budget planning cycles.
    We recognize that defense is only one component of the African 
security sector, and it is equally important to address the law 
enforcement and judicial systems. United States Africa Command and the 
Department of State are supporting partnerships with Ghana, Kenya, 
Mali, Niger, Nigeria, and Tunisia to strengthen governance across the 
security sector with the Security Governance Initiative (SGI). SGI is a 
collective approach to strengthen African partners' security 
institutions' capacity to protect civilians and confront challenges, 
with integrity and accountability. Key to the success of this 
initiative is the demonstrated willingness and ownership of our 
partners to tackle security sector governance issues.
    The Counter-Terrorism Partnership Fund (CTPF) is a mechanism to 
develop the counterterrorism capacity of African partners, as well as 
nations within the USCENTCOM area of responsibility. CTPF proposals, 
totaling $465 million in fiscal year 2015 and $420 million in fiscal 
year 2016, are designed to strengthen those nations' defense 
institutions. For fiscal year 2017, the President's budget requested $1 
billion for CTPF for AFRICOM and CENTCOM. AFRICOM anticipates using its 
fiscal year 2017 CTPF allocation for crucial airlift, ISR, command and 
control systems, sustainment training, and force structure development 
of African partners.
    Programs such as the Security Governance Initiative and the 
Counter-Terrorism Partnership Fund provide an opportunity to further 
our relationships with African partners while improving the security 
environment and fostering governmental progression toward inclusive 
democracy. Strong institutions that are fashioned and perform their 
duties in accordance with the rule of law protect the people and 
provide inclusive opportunities which will sustain our efforts and 
ultimately determine if building partner capacity succeeds.
    Our security cooperation activities are aligned with our Theater 
Campaign Plan objectives and account for what our partner nations can 
absorb, with the complementary objective of aligning resources to our 
strategy. For example, Tunisia, our newest major non-NATO ally, has 
developed a three-tiered approach to building military intelligence 
capacity, affirming that Tunisian and U.S. strategic goals for 
counterterrorism and the promotion of democracy are aligned. Through 
this approach we developed a plan that will provide capabilities such 
as the Scan Eagle unmanned air system, for integration into the Africa 
Data Sharing Network, and build a military intelligence training 
program at the generating force level which complements Tunisian 
executive direction reforms to create a fusion center between the 
Tunisian Ministry of Defense and Ministry of Interior. These efforts 
help to foster security, governance, and economic development and are a 
model for sustainable security force assistance.
    United States Africa Command is working with international partners 
to synchronize security efforts. The United Kingdom has recently 
increased its presence and commitment in Africa, and we are 
synchronizing efforts to increase efficiencies and provide greater 
collective effects. In North Africa, the Libyan International 
Assistance Mission (LIAM), an international security effort to assist 
the newly established Government of National Accord, is our main 
planning focus with European partners. In West Africa, through an 
international cooperation and coordination liaison cell, U.S. 
assistance is synchronized with international partners from France and 
the United Kingdom to build interoperable and sustainable partner 
defense institutions. With the support of France, the United Kingdom, 
and the United States, the African Union hosted the African Logistics 
Forum that brought together thirty-eight nations to discuss African 
logistical challenges and opportunities.
                            theater posture
    Having an appropriate posture on the continent facilitates building 
partnership capacity, executing joint operations, and protecting U.S. 
personnel and facilities. We maintain 15 enduring locations on the 
African continent which give the United States options in the event of 
crisis and enable partner capacity building. Additionally, the command 
designated nine new contingency locations as part of the Theater 
Posture Plan for 2016 focused on access to support partners, counter 
threats, and protect U.S. interests in East, North, and West Africa. 
These contingency locations strive to increase access in crucial areas 
aligned with the Theater Campaign Plan. Flexible and diverse posture 
facilitates operational needs and the protection of U.S. personnel and 
facilities.
                             residual risk
    We are helping to set the conditions for the eventual transition 
from the African Union Mission in Somalia (AMISOM) to the Somali 
National Army and the Federal Government of Somalia. If the Somali 
National Army fails to form the defense institutions required to 
generate and sustain new forces and equipment, then AMISOM troop 
contributing countries--Burundi, Djibouti, Ethiopia, Kenya, and 
Uganda--may reach donor fatigue levels, threatening current troop 
contributions levels. Recent United Kingdom commitments are 
encouraging, and we are complementing their efforts to neutralize the 
threat that al Shabaab poses to regional security. Strengthening the 
Somali National Army requires a coordinated international effort.
    We strongly support the formation of an international coalition to 
counter-IS-Libya and to support a functional Government of National 
Accord; otherwise, we risk the expansion of IS-Libya that further 
degrades stability in North Africa and threatens U.S. interests. 
Stability in Libya is a long-term proposition that will require 
strategic patience as the GNA forms and develops. Our approach allows 
time for the Libyan Government to develop by providing support to 
regional partners Chad, Niger, and Tunisia, as well as Egypt (in 
cooperation with United States Central Command); offers support to 
international partners such as the Italian-led Libyan International 
Assistance Mission; and directs counter-IS-Libya operations.
    We are mitigating risk to U.S. military and civilian personnel with 
regard to intelligence, surveillance, and reconnaissance (ISR) 
requirements and personnel recovery (PR) assets through cooperation 
with our allies and partners. Most operations in our Area of 
Responsibility occur as advise and assist missions. This requires a 
serious evaluation of vulnerabilities, which can be mitigated by ISR 
and PR. Integrating personnel recovery and surgical stabilization 
capabilities are a moral obligation and essential for the proper care 
of U.S. servicemembers who risk their lives to protect our nation.
    Flexible posture through cooperative security locations and 
contingency locations, complemented by the Special Purpose Marine Air 
Ground Task Force-Crisis Response (SPMAGTF-CR) at Moron Air Base, Spain 
and the East Africa Stand-by Force in Djibouti provide the appropriate 
level of responsiveness during crisis and are strategically positioned 
to enable U.S. and partner operations against terrorist threats. 
Completion of our Cooperative Security Locations, coupled with accurate 
indications and warnings, will ensure swift crisis response to all 
fifteen high threat/high risk embassy locations in Africa.
                       looking toward the future
    The President has stated that Africa--its growing economies, its 
emerging middle class, its rising geo-political influence--is more 
important than ever to the security and prosperity of the international 
community and to the United States. Modest investments, in the right 
places, go a long way in Africa. Maximizing our energies today with 
African partners, allies, the interagency, non-governmental 
organizations, and international organizations will strengthen 
democratic institutions, spur economic growth, boost trade, enhance 
investment, and advance peace and security. These efforts will assist 
in making African nations strong, stable, and reliable strategic 
partners in the future, a future in which Africa will play an 
increasingly prominent global role. While the continent offers a 
challenging and complex strategic environment, the command approach is 
synchronized and focused, and capitalizes on regional cooperation and 
close coordination with our African and international partners.
    As the Department of Defense makes difficult decisions about 
strategic risks and associated tradeoffs, United States Africa Command 
will continue to provide the foundation on which to build, shape, and 
pursue our shared interests across Africa. Thank you for your continued 
support to our mission and to the soldiers, sailors, airmen, marines, 
coast guardsmen, civilians, contractors, and their families as we 
continue to advance our Nation's defense interests in Africa.

    Senator McCain. Thank you.
    General Votel?

  STATEMENT OF GENERAL JOSEPH L. VOTEL, USA, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    General Votel. Good morning, Chairman McCain, Ranking 
Member Reed, and distinguished members of the committee. Thank 
you for the opportunity to appear this morning alongside my 
teammates, General Lloyd Austin and General Dave Rodriguez, to 
discuss the current posture of the United States Special 
Operations Command.
    On any given day, nearly 10,000 SOF men and women are 
deployed or forward-stationed to over 80 countries around the 
globe. They fill combatant command requirements that span the 
range of our congressionally delineated core activities, from 
behind-the-scenes information-gathering and partner-building to 
high-end dynamic strike operations. Every success they achieve 
reinforces what we already know: Our people are our greatest 
asset. They are adaptive, bold, and innovative. Through 
persistent presence in harm's way, they allow us to see 
opportunities early, and they routinely deliver strategic 
impacts with the smallest of footprints.
    Perhaps nothing makes this point more clearly than the 
stories of two operators you have likely heard about in the 
past days and weeks.
    Navy Seal Senior Chief Petty Officer Ed Byers was awarded 
the Congressional Medal of Honor last week for his courage and 
heroism above and beyond the call of duty in rescuing an 
American citizen held hostage in Afghanistan in 2012.
    More recently, Army Green Beret Sergeant First Class 
Matthew McClintock provided immediate medical care to a wounded 
American teammate before leaving an Afghan element under 
intense fire to secure a landing zone for medical evacuation 
aircraft. His courageous actions cost him his life but saved 
the lives of his teammates and ultimately turned the tide of 
the engagement.
    While the stories of these two American heroes are publicly 
known, it is the stories of thousands of SOF operators from all 
of our services, aircrews, acquisition specialists, 
intelligence analysts, communicators, logisticians, and many 
others that underwrite our enduring SOF value to the Nation--
quiet professionalism and absolute excellence in accomplishing 
our most challenging military missions.
    Allow me to emphasize my strongest point this morning: 
Thank you for your devotion to the well-being and resilience 
for the men and women of SOCOM and their families. Their 
emotional, social, psychological, and physical health is in 
good hands thanks to you, and we are very grateful for your 
enthusiastic support.
    While the command priorities remain unchanged from my 
testimony last year, USSOCOM continues to learn, evolve, and 
adapt to meet the current operational environment, an 
environment characterized by rapidly shifting power with 
competition and conflict between both state and nonstate 
actors, actors who are increasingly ambiguous, transregional, 
and multidimensional.
    As a result, this past year, we focused on gaining a deeper 
understanding of today's gray zone challenges, and we have 
restructured our operational rhythm to focus on the 
transregional nature of violent extremist organizations.
    Given this complex security environment, the demand for SOF 
skill sets remains understandably high. Therefore, your support 
for SOCOM is more important than ever.
    It is a truth that SOF cannot be mass-produced in times of 
need. Consistent investment in our people and capabilities is 
very important.
    As good as our men and women in SOCOM are, we remain 
extraordinarily dependent on service-provided capabilities and 
capacity to perform our mission. I ask for your strong support 
for them as well. We simply could not perform our mission 
without service-provided capabilities, infrastructure, and 
institutional programs.
    Alongside our colleagues in the services, we are grateful 
for the budget stability forged out of last year's agreement 
and remain hopeful for similar stability beyond 2017.
    In closing, I would like to once again thank the committee 
and Congress as a whole for your outstanding support in 
funding, authorities, and encouragement. Your oversight of our 
efforts to man, train, equip, and employ SOF remains critical 
as we confront an increasingly complex security environment.
    We look forward to continuing this great relationship, and 
I pledge to you that we will remain transparent, engaged, and 
responsive. I remain honored and humbled to command the best 
special operations force in the world. I am extremely proud of 
each and every one of our team members and their families as 
they continue to serve our great Nation. I look forward to your 
questions today.
    [The prepared statement of General Votel follows:]

             Prepared statement by General Joseph L. Votel
                            opening remarks
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to address you today as the 10th Commander of 
United States Special Operations Command (USSOCOM). This is my second 
address on the posture of U.S. Special Operations Forces (SOF). Since 
my statement last year, the challenges we face in the security 
environment have continued to evolve and create new conditions to which 
the military must adjust. USSOCOM is also evolving and tailoring our 
expertise to these challenges, though we remain consistent in our 
priorities, our commitment to excellence, and our dedication to serving 
the needs of our nation. During my remarks, I would like to discuss how 
we see the security environment changing, and how we believe SOF can 
best contribute to safeguarding the security of the American people, 
both now and in the future.
                 today's u.s. special operations force
    USSOCOM is unique among the Unified Combatant Commands in that it 
was legislated into existence, and has Service-like responsibilities to 
organize, train, and equip Special Operations Forces. Our mission, as I 
pointed out last year, is to synchronize the planning of special 
operations and provide SOF to support persistent, networked, and 
distributed Geographic Combatant Command (GCC) operations to protect 
and advance our nation's interests.
    USSOCOM has approximately 56,000 Active Duty, 7,400 Reserve, and 
6,600 civilian men and women serving in a wide variety of roles and 
functions. Our organizations include Army Special Forces, SEALs (Sea, 
Air, Land Teams), Air Commandos, Rangers, Army Special Operations 
Aviation, Marine Raiders, civil affairs personnel, and psychological 
operations personnel. Our military personnel include both Active Duty 
as well as Guard and Reserve SOF, which provide us with an essential 
operational capacity that allows us to surge in support of emerging 
requirements. We also have a variety of enablers that are critical to 
our success in diverse mission sets which include acquisition experts, 
logisticians, administrators, analysts, planners, communicators, and 
other specialists who are instrumental in fulfilling our mission.
    On any given day, nearly 10,000 SOF are deployed or forward-
stationed in more than 80 countries worldwide. They are filling GCC 
requirements that span the range of our Congressionally-delineated core 
activities. Our actions in support of the GCCs include such mission 
sets as: enhancing partner capabilities; coordinating counter-terrorism 
(CT) planning and operations; supporting the capabilities of our 
interagency partners; and developing critical relationships with key 
influencers. In all of these examples, which cover just a segment of 
our activities, SOF plays a key role by working with a range of 
partners on complex and demanding problem sets. Even in those 
situations where SOF are in the lead for small-footprint, high-risk 
missions, we are fully integrated with, and fully dependent upon, our 
conventional force, international, and interagency partners.
    Given the security environment we now face, the demand for the 
skill sets that our SOF operators possess is understandably very high. 
Although we will always answer these calls, expanding USSOCOM's role in 
multiple locations is not without risk. The skills, maturity, and 
agility that we develop in our operators requires significant time, 
effort, and investment. This is one of our SOF truths: SOF cannot be 
mass-produced. Therefore, the employment of SOF should be based upon 
where we can create the greatest strategic effect to advance our 
nation's interests. I believe we need a continuing dialogue on how this 
can be accomplished, as well as how we can best prepare to meet the 
challenges we see developing in the future.
                    enduring priorities and progress
    My priorities remain unchanged from those I discussed with you last 
year. Focusing on these priorities have helped us continue to develop 
appropriate capabilities and capacities to meet the needs of our 
nation, as well as the needs of our force. I would like to take a 
moment to review these priorities as well as mention some of our 
ongoing efforts in each.
    First, we are ensuring SOF readiness by developing the right 
people, skills, and capabilities to meet current requirements as well 
as those that will emerge in the future. Although we share 
responsibility with the Services for developing our special operations 
forces, USSOCOM has the responsibility for ensuring the current combat 
readiness of SOF. To maximize our effectiveness here, our readiness 
assessment process focuses on identifying GCC demands, and assessing 
our ability to support those requirements as well as our ability to 
surge in support of new demands. This approach is helping us identify 
and rectify any gaps we may have in supporting the GCCs. In another 
important dimension of readiness, we are implementing the Defense 
Secretary's decision to fully open all military positions, career 
fields, and specialties, including special operations specialties and 
units, to women. We did not request a waiver to this decision because 
our range of missions require a wide variety of skills and 
perspectives. As I conveyed to the USSOCOM Enterprise through a 
recorded video, we will not lower, raise or create multiple sets of 
standards for SOF; our priority is to identify and train the very best 
people for these demanding roles.
    Second, we must help our nation win in today's challenges and 
contribute to keeping the nation safe. Our most important effort under 
this priority has been to organize our processes for dealing with 
trans-regional threats--those challenges that are dispersed not only 
across the borders of nation-states, but also across our GCC 
boundaries. As a headquarters with global responsibilities, USSOCOM is 
well-positioned to help the GCCs prioritize and synchronize SOF 
operations to maximize our effectiveness. This trans-regional approach 
also allows us to better inform DOD decision-making processes on force 
management and determine where we can act to seize opportunities. Our 
role in Operation Gallant Phoenix, aimed at countering the flow of 
foreign fighters, is prime example of our integrated and innovative 
approach to the challenges we face. This effort has enabled a very 
limited number of people to have a significant impact on these 
networks.
    Third, we are continuing to build relationships with international 
and domestic partners through sustained security cooperation, expanded 
communication architectures, and liaison activities. USSOCOM has 
strengthened the relationships and connections that provide the 
foundation for this network to enable more regular communication and 
collaboration. Over the last two years, we have invested heavily in 
integrating our international partners into our headquarters. We now 
have representation from 17 nations working with us in Tampa, and we 
are placing our own liaisons into 15 partner nations across the globe. 
Our facility provides our international partners access to their own 
national classified communication systems while placing them in a 
single collaborative space, side-by-side with their U.S. counterparts.
    We are also continuing to find opportunities to work across the 
interagency on our most pressing national security challenges, and have 
hosted a number of collaborative sessions to improve our perspectives 
on these issues. For example, last year we hosted a counter-ISIL forum 
with representatives from the Departments of State, Justice, Homeland 
Security, Treasury, and Defense, as well as the FBI, CIA, Office of the 
Attorney General, Office of the Director of National Intelligence, 
USAID, and other departments and agencies. We have also held other such 
forums this past year with the Department of State on messaging, and 
with 18 of our international partners on coordinating hostage rescue 
operations. There is still more to be done, and I look forward to 
working with Congress in determining how we can best work across the 
interagency and serve the national security interests of the United 
States.
    Fourth, we are preparing for the future by investing in SOF that 
are able to win in an increasingly complex world. Ultimately, preparing 
for the future is about ensuring that we match the right people and 
capabilities with the very best ideas to address our most pressing 
challenges. Improving our ability to perform in the future requires us 
to find innovative ways to invest today in programs that enhance 
existing capabilities as well as create new advantages for our SOF 
operators. Programs such as the Tactical Assault Light Operator Suit 
(TALOS) are providing us with the ability to collaborate and rapidly 
prototype with industry, academia and other government organizations to 
match the latest technologies with the needs of our force. Another 
critical effort is our SOF Information Environment, which supports our 
need for better situational awareness, collaboration, decision-making, 
and synchronization under complex conditions. While these technologies 
are important, we believe humans are more important than hardware, and 
are expanding our investments in the human part of the equation. Our 
Future Special Operator concept describes appropriate attributes and 
competencies of the future force and is helping us identify and build 
the right mix of cultural and language expertise. We are also investing 
in education and training that will further enhance our forces' ability 
to adapt and innovate in rapidly changing conditions.
    Critical to all of our efforts is ensuring we preserve our force 
and families, providing for their short- and long-term well-being. 
People--military, civilian, and families--are our most important asset. 
To the maximum extent possible, we are working with the Services to 
fulfill the needs of our force in terms of care. Where there are gaps 
in their ability to meet the unique needs of our operators, which is 
driven by a high, sustained operational tempo, the relative maturity of 
our force, and the range of stressors our force and families are placed 
under, we are building programs to fill these gaps. In our efforts to 
address these needs, we are partnering with academia and governmental 
agencies, as well as non-governmental agencies. We have also begun to 
integrate discussion of these subjects into our professional military 
educational venues, so that the notion of seeking help and continuously 
building resilience becomes a habit, rather than an aspiration.
    I believe these are the right priorities--and I also believe we are 
seeing progress toward generating the right capabilities and capacities 
to deal with the emerging security environment.
                 the strategic environment and ussocom
    Last year, I provided an overview of how we see the strategic 
environment changing in ways that enhance the ability of connected and 
empowered populations to reshape security conditions--which are taking 
place against a backdrop of power shifts among both state and non-state 
actors. Today, I will explain how I see this environment influencing 
the challenges we face--specifically, those that we consider ``trans-
regional.'' Improving our understanding of the context of these 
challenges will improve our ability to identify appropriate solutions.
    This is clearly an era of rapidly shifting power, which has 
stimulated increased competition and conflicts between states, within 
states, and across their borders. As power shifts, we frequently see 
competition emerge as empowered actors attempt to expand their spheres 
of influence, while others attempt to preserve the status quo. 
Empowered actors naturally seek to seize new privilege commensurate 
with their elevated power status--this is not new. What is new is that 
increasingly, populations are becoming connected through modern 
communications technology and are demanding change on a range of 
governance issues. Grievances can now quickly mobilize a connected 
population and create opportunities for exploitation by outside state 
or non-state actors.
    Trans-regional challenges are situations in which an actor, such as 
a violent extremist organization (VEO), operates across the borders of 
states--and more problematic for us, across our GCC boundaries. When 
these organizations are able to leverage local grievances in multiple 
locations simultaneously, they create an ``archipelago'' of local 
insurgencies. These situations are a combination of internal 
instability and external exploitation. Importantly, these insurgents 
are motivated by local conditions, though are willing to associate with 
the trans-regional actors when it suits their purposes. What may appear 
as a vast, trans-regional threat is in many cases, a series of local 
issues that an external actor has taken advantage of by leveraging 
modern communications and culturally-attuned messaging. These 
associations are opportunistic and based on shared, but often 
transient, interests.
    When these political conditions exist, aggrieved populations are 
vulnerable to any narrative that is acceptable within the culture and 
directed at the perceived source of grievance. Organizations such as 
ISIL are using communication tools to recruit both regionally and 
globally--exploiting potential recruits' receptivity to a jihadist 
message. We must recognize that while the gaps between increased power 
and lagging privilege are opportunities for our adversaries to exploit, 
they are also opportunities for us to build stability in strategically 
important areas, and undermine the ability of these VEOs to build 
inroads. Over time, we can act to sever the linkages these groups 
depend upon for survival. What will remain is denying future 
opportunities to these groups to exploit local grievances for their own 
purposes.
                     ussocom's value to the nation
    Despite this complex security environment, USSOCOM is well-postured 
to support the GCCs in countering these trans-regional challenges by 
virtue of its global perspective. Our responsibility to synchronize 
planning against VEOs will help the GCCs identify opportunities to 
influence dynamics in one region by applying pressure in another. 
Further, we can provide a range of local options, which includes 
building critical influence with key actors, to magnify our strategic 
effects.
    The range of challenges we deal with in this environment, and the 
span of their reach, prevent a one-dimensional approach from achieving 
our desired ends. Partners, both international and domestic, are 
critical to providing us with the range of capabilities, resources, and 
access we require. USSOCOM's extensive investment in building a global 
network of partners has proven indispensable in developing 
comprehensive approaches against these threats. Although we work with a 
large network of partners, USSOCOM can also provide the capability to 
act discreetly in politically-sensitive situations, where a low-
visibility approach is more effective than a larger footprint.
    While the challenges we face will not be solved by military 
capabilities alone, there are simply cases in which force will be our 
only recourse. For these situations, USSOCOM has invested a great deal 
of effort in ensuring we are fully integrated with the Services. SOF 
plays an important enabling role for conventional forces in conflict. 
Simultaneously, we tirelessly work to improve those capabilities that 
we are uniquely structured to provide. Yet even in these cases, most 
SOF missions require non-SOF support; we remain fully dependent upon 
our Joint Force partners.
    By understanding the complex security environment, building 
meaningful relationships with our domestic and international partners, 
and ensuring we are integrated with the Joint Force, SOF can help 
influence strategic outcomes prior to crisis. Properly posturing SOF 
will help us identify emerging issues and rapidly adjust our approaches 
to best seize opportunities. All of these characteristics allow us to 
develop long-term and cost-effective options to prevent or mitigate 
conflict, and create decision-space for policymakers. We also can deter 
and disrupt the most immediate and important threats to US, partner, 
and allied interests.
    Therefore, SOF's value to the nation lies in: our global 
perspective that spans regional boundaries, coupled with our ability to 
act and influence locally with a range of options; our networked 
approach that integrates the capabilities of our domestic and 
international partners, paired with our ability to act discreetly 
against our most important threats; and our seamless integration with 
the Services to support and enhance their effectiveness, while we 
provide capabilities that SOF is uniquely structured to deliver. All of 
these are only possible due to our people--adaptive, agile, flexible, 
bold, and innovative--who allow us to seize opportunities early, and 
have strategic impact with a small footprint.
    With the range of capabilities that we can deliver, there are a 
variety of functions we are called upon to fill. These functions can be 
categorized into three broad bins: things we must do, things we are 
expected to do, and things we should do. Each of these bins are 
important for the security of the United States; our task is to 
determine the appropriate balance across each of them. To be clear, we 
are laser-focused on today's fight, but we remain vigilant in preparing 
SOF to best meet the challenges of the future.
                            what we must do
    SOF remains a multi-spectrum, multi-phased force--we provide a full 
array of capabilities across the range of conflict, and are prepared to 
support the GCCs when conflicts escalate. Yet, USSOCOM provides two no-
fail mission sets to safeguard our interests.
    First, we must provide the ability to rescue and recover U.S. 
citizens from hostage situations. This is one of the central missions 
USSOCOM was created to execute. Recovery of Americans in crisis 
situations denies the incentives to attempt to coerce U.S. policymakers 
with the lives of U.S. citizens in the future, while safeguarding the 
lives of those currently in danger to the best of our ability.
    Second, SOF plays a critical role in reducing incentives to obtain 
and employ weapons of mass destruction (WMD), as well as deny the 
effects of current and emerging WMD-capable threats. USSOCOM is forging 
enduring, purposeful relationships with intelligence and law 
enforcement agencies to fully capitalize on opportunities to achieve 
national counter-WMD goals. Ideally, we will be able to more formally 
codify these relationships to ensure proper and enduring 
synchronization of efforts. While forums currently exist to bring 
various government agencies together on these problems, they tend to be 
more focused in the near-term and in response to crises. The most 
effective options require a longer-term focus with enduring 
partnerships.
    These capabilities are unique to SOF and constitute what I perceive 
as our two enduring no-fail responsibilities. However, the utility of 
SOF in other mission sets has led to us taking a lead role in many 
other challenges we face, some of which share connections to these two 
missions.
                       what we are expected to do
    Over the past fifteen years, USSOCOM has invested heavily in 
developing counter-terrorism capabilities. The increasing influence of 
various VEOs has understandably resulted in a call for more capacity to 
counter them. Our operators undertake demanding, time-sensitive, high-
risk mission sets to prevent these groups from using terrorist tactics 
to achieve their ends at the expense of our interests, our partners' 
interests, and the lives of innocent civilians. While SOF is not 
primarily a CT force, we recognize that we provide the core CT 
capabilities for the Department of Defense (DOD).
    I believe the use of more kinetically-centric CT operations are 
best undertaken as a narrow set of actions in support of broader 
activities intended to separate VEOs from the populations they are 
attempting to influence. Certainly, this kinetic aspect of CT will play 
a role in safeguarding our security going forward, though not 
necessarily the central role.
    Although SOF excel in high-risk, politically sensitive situations, 
the employment of SOF against any problem set is not risk-free. If we 
restrict our approaches to direct action-centric responses, we can 
quickly consume our readiness and capacity, which can undermine our 
ability to seize early opportunities to prevent escalation in other 
crises. This is particularly so when we apply a great deal of our force 
structure and activities against tactical conditions that emerged from 
unchanging--or worsening--strategic trends. A focus on these tactical 
conditions comes with a hefty strategic opportunity cost. We believe 
the most effective approach to CT is to think of it more expansively, 
and find options to prevent VEOs from building inroads with the 
populations they depend upon for their own strategic success.
    Similar to the complex pathway actors seeking WMD must take, VEOs 
also have pathways they must travel to recruit and train, fund 
operations, build their networks, develop relationships with relevant 
populations, organize, and equip. By looking at this problem set more 
broadly, I believe we can begin to undermine these groups' ability to 
achieve success. This approach would prioritize shaping dynamics in the 
human domain--influencing the ``will to fight'' of potential recruits 
as well as the decision-making of VEOs.
                           what we should do
    Earlier, I discussed the necessity of seizing opportunities. Many 
of the trans-regional actors we encounter are taking an experimental 
approach to find opportunities they can build upon. We should realize 
that the tactical actions of our competitors are lagging indicators of 
where they expect to find--or have found--strategic success. SOF's role 
as ``global scouts'' fits well with our need to also locate and seize 
opportunities, while denying them to our adversaries. USSOCOM is, and 
must continue to be, a learning organization intensely focused on 
finding areas of high-leverage opportunities to safeguard and advance 
our nation's interests.
    I believe this aspect of our value is where we are currently under-
invested, and will experience the highest returns on our efforts if we 
rebalance our activities. This rebalance will consist of deepening our 
understanding of complex regional issues, developing important 
relationships, providing early warning of emerging problems, and 
ultimately cultivating the influence that we can use to undermine the 
efforts of violent organizations. All of this preserves decision-space 
and expands our windows of opportunity--therefore minimizing our risk.
    We are putting time and effort into developing a family of 
strategic documents intended to guide the development of our ability to 
do this. Maximizing the strategic effectiveness of deployed SOF 
requires a long time frame, efforts to understand underlying dynamics 
on the ground, and cultivation of key relationships to maximize our 
influence. The realities of today's strategic environment simply defy 
short-term, small-force, risk-free solutions that create the desired 
strategic results. Improving our strategic performance will take time, 
but earlier commitments can help control costs overall.
    Throughout the troubled regions of the world in which we operate, 
actors are increasingly using approaches and methods that avoid 
conventional military responses to territorial encroachments. 
Sophisticated fusions of information operations and targeted tactical 
actions are helping these actors find areas in which they can achieve 
more enduring strategic success. Russia, for example, is advancing its 
interests by employing a variety of approaches across their periphery 
that combine traditional military operations with sophisticated 
information campaigns aimed at a variety of audiences. The 
proliferation of, and increasing reliance on, unconventional tools in 
the security environment requires us to invest time and effort in 
ensuring we prepare ourselves with the proper capabilities, capacities, 
and authorities to safeguard our interests.
    Accordingly, we are working hard to determine how we can best 
leverage the capabilities of our international SOF partners to mutual 
benefit. Their access to and influence in key strategic locations are 
essential to maximizing the effectiveness of our own force, while we 
possess capabilities that they can benefit from. However, we must 
remember that these arrangements are two-way streets, and built upon 
mutually beneficial relationships. There are a range of areas we are 
exploring to improve here, such as in communications infrastructure and 
policies that support information sharing, as well as planning 
integration.
    Domestically, our interagency partners provide an array of 
essential capabilities to address many of the challenges we face--most 
of which defy a military-centric solution. We continue to look for ways 
in which we can enhance our ability to work with interagency partners. 
SOF capabilities alone are insufficient to achieve policy objectives, 
but we can create time and space for policymakers, while identifying 
opportunities to integrate the capabilities of the interagency to 
advance our interests. Although we have made significant progress in 
working with our domestic partners, I believe there is much more to do.
    In short, simply improving upon what we are doing today will not be 
sufficient to meet the challenges of tomorrow. Shifting from a reactive 
approach to a more proactive one will require some time and a sustained 
effort. I believe this approach will be the most effective in 
controlling the risks we face to our national security interests.
    Accordingly, we are working to organize around problem sets and 
better integrate the capabilities of our domestic and international 
partners. Further, we are working to match our operators' agility with 
our institutional agility--improving our support to those from whom we 
ask so much. As an organization that routinely deals with unique and 
shifting challenges, we prize our adaptability. This is a 
characteristic we are also leveraging in our programmatic processes to 
best enable our force.
                           enabling our force
    The United States and our allies face an unpredictable and dynamic 
security environment, while DOD simultaneously faces significant fiscal 
constraints. To effectively confront challenges we must make timely 
decisions on tradeoffs between capability, capacity, and in limited 
cases, readiness. These decisions require analysis and oversight.
    USSOCOM's overall readiness remains stable. However, we expect to 
see impacts on our readiness should significant constraints be put on 
Service budgets that result in cuts to programs and activities that we 
depend upon. SOF would begin to lose its technological superiority or 
be forced to jeopardize various essential recapitalization and 
modernization programs, leaving the force with reduced capability and/
or capacity in critical areas. Further, a significant increase in the 
demand for SOF would prevent us from adequately resetting and 
retraining for the large variety of missions we are expected to 
execute.
    Programmatically, our priorities have remained consistent. We focus 
on enhancing Service-provided platforms to meet the needs of our 
force--we are therefore highly dependent on investment decisions made 
by the Services, and greatly impacted by budget changes that affect 
them. Much of our funding is currently dedicated to procurement, 
modernization and/or modification of aviation and mobility platforms, 
weapons, ordnance, and communications equipment. Our budgetary 
realignments are aimed at better balancing capability, capacity, and 
readiness as we continue to face a great deal of fiscal uncertainty. 
Critical procurement programs supporting the development of our force 
include: a precision strike package, rotary wing upgrades, and the AC/
MC-130J in support of SOF aviation; improved wet and dry submersibles 
in support of our shipbuilding programs; and upgraded communications, 
weapons, protection, and visual augmentation in support of our SOF 
operators on the ground.
    Our own investments in technology are focused on those areas that 
require relatively small amounts of funding in order to mature them 
into useful tools that uniquely meet the needs of SOF. Often they are 
centered on the enhancements to the platforms that form the backbone of 
our lethality, mobility, survivability, and communicability. We 
currently have a list of 32 technologies that meet this criteria and 
are investing in them over the next two years.
    USSOCOM continues to build a culture that embraces and supports 
innovation in our research, development, and acquisition programs. Our 
acquisition team is developing and testing new operating models to help 
build a marketplace for SOF innovation. For example, we are piloting a 
venue we call SOFWERX; an unclassified, open collaboration facility 
designed to bring non-traditional partners from industry, academia, and 
the government together to work on our most challenging problems. 
SOFWERX is the central node in USSOCOM's efforts to push advanced 
manufacturing, rapid prototyping, and 3D printing technology to our 
operational units. This year we have provided orientation training on 
these technologies to operators in two of our Service components, and 
are already seeing the benefits of enabling their ability to think 
through a problem and rapidly iterate on potential solutions at all 
levels of our organization.
    We are also breaking down barriers to innovation through industry 
engagement--we are using more non-traditional contractual agreements 
that provide greater flexibility, including signing more than 120 
Cooperative Research and Development Agreements, and awarding five non-
Federal Acquisition Regulation-base contracts called Other Transaction 
Authorities or OTAs. The TALOS effort, which I mentioned earlier, is 
one of our key vehicles we are using to improve our innovation 
capabilities across a variety of disciplines by better collaboration 
with industry, which we will be applying in other efforts going 
forward. In the second full year of that effort, the TALOS team has 
grown from long, less frequent prototyping events to nearly continuous 
rapid prototyping in a number of key technologies.
    In another important area of innovation for us, we appreciate the 
support you have provided through the 2016 NDAA to allow our forces to 
develop creative and agile military information support operations 
concepts, technologies, and strategies. USSOCOM is currently carrying 
out a series of technology demonstrations to assess innovative tools 
designed to detect previously unseen patterns in complex social media 
data, integrate and visualize vast information, and allow warfighters 
to sense, understand, and respond to changes in the information 
environment in real time. The ability to conduct effective messaging, 
as well as counter-messaging, will only grow in importance, given the 
evolving nature of conflicts.
                       ussocom's interdependence
    As I have indicated, a great deal of USSOCOM's procurement is 
focused on Special Operations-Peculiar enhancements to Service-managed 
programs. Being ready to support the range of contingencies we prepare 
for depends upon maintaining a robust fleet of air, ground, and 
maritime platforms that we tailor to our unique needs through our MFP-
11 funding. Our buying power is highly dependent upon the Services' 
continued investment in these platforms. Major cuts or reprioritization 
in these programs will require us to reassess our readiness 
investments. Not only do we focus on SOF-specific enhancements to 
Service-managed programs, but we also focus a great deal of our 
training and equipping efforts on ensuring interoperability with 
conventional forces and partner nation forces. Major reprioritization 
on the part of the Services will create a significant ``sunk cost'' for 
us.
    Therefore, one of USSOCOM's greatest concerns is the potential 
impacts of fiscal reductions to the Services' readiness, which directly 
affect SOF. We have already seen reductions which negatively affect us 
in a variety of ways. Naval Special Warfare Command is seeing training 
challenges associated with lower fleet asset availability which impacts 
readiness and interoperability. Marine Forces Special Operations 
Command is experiencing reductions in access to some important school 
seats. U.S. Army Special Operations Command is experiencing a reduction 
in the Military Training Specific Allotment as well as staffing at 
heavily-used ranges. Air Force Special Operations Command is facing 
risk in the AC/MC-130J recapitalization program. If further reductions 
become necessary, we are certain to see more examples of adverse 
impacts on USSOCOM like these.
    We are also dependent upon the capabilities that reside within some 
of the defense agencies, such as the Joint Improvised Threat Defeat 
Agency (JIDA), the Defense Intelligence Agency (DIA), and the Defense 
Threat Reduction Agency (DTRA). DTRA is uniquely positioned to look at 
WMD threats from a global perspective and provide USSOCOM with planning 
support, expertise and tools to counter this threat from both state and 
non-state actors. DTRA provides research and development support to 
USSOCOM by providing warfighter-unique counter-proliferation 
technologies. These organizations help reduce our analytical load on 
complex problems, while providing us with valuable insight on the 
threats our operators face today and will continue to face in the 
future. Relatedly, we appreciate the fiscal year 2016 NDAA (Sec 1533) 
authorization for training foreign security forces to defeat improvised 
explosive devices (IEDs), which enables a wider effort against this 
shared threat. We request your continued support in sustaining 
budgetary allotments and authorities for these essential enablers.
    Another enduring budgetary concern for us is the future of the 
Overseas Contingency Operations (OCO) funding, which we remain heavily 
reliant upon. Maintaining contingency funds is essential for responding 
to today's threats while preserving the ability to prepare for the 
future. The current fiscal environment is forcing us to continue to 
leverage this funding to maintain capabilities that should be 
programmed into our baseline budget; much of our globally-distributed, 
enduring operations are currently funded with OCO. We also rely upon 
programs and activities provided by the Services that are funded 
through OCO--steep reductions will impact SOF operations. In other 
cases, funding enduring requirements through OCO is creating challenges 
for the Services to adequately match manpower specializations to 
requirements. For example, our operational tempo has created an 
increased need for Tactical Systems Operators (TSOs), which are 
airborne intelligence specialists provided by the Services. TSOs 
operate on aircraft that are not programs of record, but are vital to 
our ability to target enemies on the ground. This creates a situation 
where the Air Force, as well as the other Services, have an increased 
manpower bill they have not programmed for, while they provide us with 
essential intelligence support. For critical and unique enduring 
capabilities like TSOs, it is essential that we provide sustainable 
funding that allows the Services to provide sustainable sourcing--
migrating funding from OCO to Base preserves our ability to best 
prepare for the future.
                   preserving our force and families
    The demand for SOF across the GCCs as they deal with the 
complexities of the strategic environment will result in an unchanging, 
or potentially higher, operations tempo for our SOF operators. In order 
to respond to these strategic challenges, maintaining a high state of 
readiness among the entire USSOCOM team--servicemembers, families, and 
our civilian workforce--is paramount. To this end, I continue to place 
the Preservation of the Force and Family (POTFF) initiatives at the 
forefront of my priorities.
    I am deeply appreciative of the support Congress and the Department 
have given the Command in this area and for the collaboration and 
support we receive every day from the Services. With that assistance, 
we have built an infrastructure of holistic support services at each of 
our tactical units. These services include behavioral healthcare, 
family counseling and support services, physical training and 
rehabilitation, and a cadre of chaplains with skills to guide our 
community members anytime and anywhere. For each SOF member and/or 
family member requiring care, there is an entire team of professionals 
ready to guide and care for them during their too-short downtime before 
the next major training event or deployment.
    USSOCOM's POTFF is an enduring element of our efforts to design, 
build, and implement a holistic approach to address the pressure on our 
total force. This program identifies and implements innovative, 
valuable solutions across the USSOCOM Enterprise aimed at improving the 
short and long-term well-being of our SOF members and their families. 
POTFF addresses significant stressors on SOF families to include a lack 
of predictability, compressed and irregular training cycles, and 
limited post-deployment family reintegration time by leveraging both 
Service and SOF sponsored programs.
    Since implementing the POTFF initiative, USSOCOM has conducted 
annual surveys to monitor usage and satisfaction and several 
psychological / health related factors. The program has increased 
resilience, decreased reported symptoms of depression, increased 
utilization of behavioral health services, and expanded access to 
timely rehabilitative care. As a result, we are beginning to see the 
benefits of these initiatives. The members of our SOF community are 
proactively and increasingly seeking behavioral healthcare. We are also 
seeing steady improvement in quickly returning our injured personnel to 
a full-mission capable status. We deeply appreciate Congressional 
support for these efforts. Resources to support the personnel, 
facilities, equipment and research necessary to sustain this initiative 
is a priority for USSOCOM.
    Despite this progress, we continue to struggle with the challenge 
of suicides within our ranks and our community. Any loss of life has a 
profound impact on the Command. Accordingly, we are working with the 
American Association of Suicidology to review all of our suicides over 
the past four years to help us understand where we may better intervene 
to prevent these tragic events. We have also redoubled our efforts to 
ensure that our professional staff and leaders recognize the dynamics 
that lead to suicides and better understand how to intervene. We also 
continue to work with the Defense Suicide Prevention Office to develop 
a peer-to-peer mentoring program, so that our Service members and their 
Spouses have access to critical support networks during trying times. 
We are seeing indicators of progress in this area, and will continue to 
stress the value of behavioral health care across the continuum, from 
individual and unit performance enhancement to crisis intervention.
                         working with congress
    Thank you for this opportunity to discuss the posture, perspective, 
and health of our Special Operations Forces. I would also like to 
extend my thanks for your support on a range of issues that are 
critical to ensuring USSOCOM is able to provide the Secretary of 
Defense and the GCCs the capabilities that are in such high demand in 
our current security environment. Given that we expect demand for SOF 
to remain high, it is incumbent upon all of us to do our utmost to 
ensure those in the SOF community and their families are properly cared 
for.
    Congressional support is critical to ensure we can improve our 
ability to act early and seize opportunities in this complex 
environment. This improved ability to influence outcomes will come 
through a combination of tailored authorities and effective programs 
that enhance our capabilities, while ensuring that we adequately care 
for our people. The potential fallout of possible budget reductions in 
the future remains a significant concern for us--the indirect impacts 
on USSOCOM of cuts to the Services could potentially undermine our 
ability to field the best possible Special Operations Forces.
    We will continue to earn the high level of trust that our leaders 
have placed in us by maintaining an open dialogue on the challenges we 
face, providing our best military advice, and remaining responsible 
stewards of U.S. tax dollars.

    Senator McCain. Thank you, General.
    General Austin, General Nicholson, the new commander in 
Afghanistan, testified before this committee in no uncertain 
terms that the security situation in Afghanistan is 
deteriorating. Do you agree with that?
    General Austin. Sir, as you heard me say in my opening 
statement, I do think the environment in the country has 
changed because of a number of----
    Senator McCain. Actually, he said the situation was 
deteriorating, General. We really would like just 
straightforward answers. I only have a few minutes here.
    He said that the situation is deteriorating. Do you agree 
with that assessment?
    General Austin. In part, I agree. I think the Taliban has 
become more active and the Afghan National Security Forces 
[ANSF] have been challenged over the last year.
    Senator McCain. Thank you. Would that argue for not having 
further reductions in troop strength there in Afghanistan, 
would you think?
    General Austin. Sir, as I mentioned earlier, you start with 
a plan. The plan is based on facts that you know at that time 
and assumptions that you make in order to continue planning. 
When the situation changes so that those facts are no longer 
valid, or the assumptions that you made are no longer 
appropriate, then I think you have to go back and revisit your 
plan. I would agree that a review of the plan is in order.
    Senator McCain. Do you agree with General Breedlove that 
President Vladimir Putin is ``deliberately weaponizing 
migration in an attempt to overwhelm European structures and 
break European resolve.''
    General Austin. I think what we have seen with the use of 
barrel bombs and the massive number of refugees and displaced 
personnel I think is absolutely awful. Again, there is no 
logical reason that he would choose to employ this kind of 
weapon over and over again.
    Again, I think the fact that we have a cessation of 
hostilities on the ground right now has enabled us to get some 
humanitarian assistance to some of the disadvantaged people. 
That is a good thing. What he has done with this barrel-bombing 
is awful.
    Senator McCain. Well, actually, he is not barrel-bombing. 
Bashar Assad is. He is indiscriminately bombing targets without 
regard to precision weapons or precision targets. Is that true?
    General Austin. I misunderstood you. I thought you said 
Assad.
    Senator McCain. I said General Breedlove said that Putin is 
deliberately weaponizing migration in an attempt to overwhelm 
European structures and break European resolve. I am sorry if I 
did make that clear.
    General Austin. I misunderstood you, Chairman.
    Clearly, the approach that the Russians have taken is 
irresponsible. They are using dumb bombs. They have inflicted 
extraordinary numbers of civilian casualties, and, again, it is 
indiscriminate. A really poor approach to warfighting.
    Senator McCain. Well, again, General Breedlove said it is 
an attempt to overwhelm European structures and break European 
resolve, including breaking up the European Union [EU]. Do you 
support the sale of fighter aircraft to Qatar, Kuwait, and 
Bahrain?
    General Austin. I do, Chairman.
    Senator McCain. Do you think Putin's $8 billion in advanced 
arms sales to Iran increased risk to U.S. forces and operations 
in the region?
    General Austin. Certainly, that will enable our adversaries 
to have greater capabilities. I will say at the same time that 
Gulf Cooperation Council [GCC] countries have spent some $10 
billion on military hardware during the same time period.
    Senator McCain. General Rodriguez, there is a New York 
Times story that says the Pentagon plan to fight ISIS in Libya 
includes a barrage of airstrikes. ``Thirty to 40 targets in 
four areas of the country would aim to deal a crippling blow to 
the Islamic State's most dangerous affiliate outside of Iraq 
and Syria.'' That is a quote from story.
    Would you recommend a barrage of airstrikes, such as 
described in the New York Times?
    General Rodriguez. Sir, that answer would be better given 
in a classified setting. I will get that to you and your 
leadership, sir.
    Senator McCain. Do you believe vigorous action should be 
taken in response to the metastasizing of ISIL?
    General Rodriguez. I think the international community has 
to take action to halt the expansion, degrade it, and 
eventually defeat it. Yes, sir.
    Senator McCain. Do you think we are doing enough now to 
stop this spread, particularly expansion in Libya?
    General Rodriguez. The spread in Libya continues to be a 
challenge because of the lack of governance as well as the 
breakup of the military and the multiple militias on the 
ground. We continue to develop our situational understanding--
--
    Senator McCain. My question was, do you think we need to do 
more?
    General Rodriguez. I think the international community and 
Libyans all----
    Senator McCain. I am not asking about the international 
community. I am asking about the United States of America.
    General Rodriguez. Yes, I think we as part of that 
international community have to do more. Yes, sir.
    Senator McCain. Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    General Austin, one of the issues in Iraq is the potential 
consequences of failure of the Mosul dam. It is not often in 
headlines, but it has potentially serious consequences. Can you 
give us a status of the situation, and also the planning that 
has gone into the consequences of the failure of the dam?
    General Austin. Yes, sir. We have remained concerned about 
the status of the dam since the conflict started here. As you 
know, when Daesh (another name for ISIL) captured the dam, the 
employees initially left and the grouting ceased. We have 
encouraged the Iraqi Government, since the dam has been back in 
the hands of the Iraqis, to make sure that they are doing the 
right things to go about repairing the dam to ensure that it 
does not fail.
    They have most recently hired an Italian company to perform 
maintenance on the dam. It may be several weeks or months 
before that company is up and running, so there is a time 
period that we are concerned about that there will be limited 
to no maintenance being pulled on the dam.
    If the dam fails, it will be catastrophic. There will be 
thousands of people downstream that will either be injured or 
killed, certainly displaced. The damage could extend all the 
way down to close to Baghdad or into Baghdad.
    We have worked with Iraqis to ensure that they are doing 
the right things to warn people about this, and, in the event 
that it does fail, what actions they should take to get to 
safety.
    We certainly have placed measures in place to ensure that 
U.S. personnel are accounted for and able to be evacuated in 
case of the dam failure.
    Senator Reed. Thank you, General.
    General Rodriguez, when I was in Djibouti, we focused a 
great deal of the resurgence of al Shabaab, the ability to 
concentrate forces, and to pick off some of the African allies 
we have in place. I presume you are taking this very seriously 
and you are beginning to try to disrupt their ability to 
attack, and also to support the Ugandan, Kenyan, Djibouti, and 
Ethiopian forces, and I think the Burundi forces are on the 
ground. Is that fair?
    General Rodriguez. Yes, it is, Senator.
    Senator Reed. Is there any indication that our African 
colleagues, the Ugandans, Kenyans, Djiboutis, Ethiopians, and 
Burundis, are wavering, or are they committed to the mission?
    General Rodriguez. They are committed to the mission. They 
continue their activities that they have been doing for the 
last several years.
    Right now, because of the adjusting tactics that al Shabaab 
have taken, they need to start making adjustments, too, and 
that is what we are working with them on.
    Senator Reed. Very good.
    I had a question for both the General Votel and General 
Austin. Given the years we have been suggesting, encouraging 
the Pakistani military forces to take action in the Federally 
Administered Tribal Areas [FATA] along the border, they 
recently have. One of the consequences is they have driven a 
significant number of terrorist elements into Afghanistan, 
which actually seems to have increased the counterterrorism 
demands on forces there.
    Is that a fair assumption, in terms the situation on the 
ground?
    I will start with General Votel, and then General Austin.
    General Votel. Senator, I think it is. Certainly, their 
pushing into Afghanistan has not been without some level of 
coordination with our forces. While it has increased the 
turbulence, it has also provided us an opportunity to address 
that threat as well.
    Senator Reed. General Austin, your comments?
    General Austin. It has increased opportunities and demands 
on the Special Operations Forces, Senator.
    Senator Reed. A final question, General Austin. This is 
flipping back to Syria. There was, indeed, a train and equip 
program, and it was terminated because it was deemed not to be 
accomplishing objectives. The reality though, and you may 
dispute this, is that in order to hold ground there once we 
capture it, we need indigenous forces, not just Kurds but 
Arabs, Syrians.
    Are we revising in some way train and equip on a smaller 
scale and prepared to provide that kind of support?
    General Austin. We are, Senator. I have asked for 
permission to restart the effort using a different approach. As 
you mentioned, we were being effective, but we were slow in 
getting started and generating the numbers that we needed to 
generate.
    Part of that was because we were trying to take large 
numbers of people out of the fight and keep them out for 
training for long periods of time. We have adjusted our 
approach.
    As we look to restart our efforts and really focus on 
smaller numbers of people that we can train on specific skills, 
and as we reintroduce those people back into the fight, they 
will be able to enable the larger groups that they are a part 
of. The training would be shorter, but again, I think they 
would be able to greatly enable the forces once they are 
reintroduced.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Ayotte?
    Senator Ayotte. I want to thank all of you for your 
distinguished service and leadership to our country.
    General Austin, in your opening testimony, you talked about 
Iran and you said they are having a destabilizing effect on the 
region. In fact, there is no indication that they are following 
a different path than they have previously.
    We know in press reports just this week, in fact, Tuesday, 
that Iran, the Revolutionary Guard Corps test-fired several 
ballistic missiles from silos across the country, defying both 
recent U.S. sanctions, and, of course, this follows on after 
the JCPOA was signed, the ballistic missile test that they did 
in October and November of this year.
    Director of National Intelligence [DNI] James Clapper has 
testified before this committee that that would be their 
preferred method for delivering a nuclear weapon.
    Are you concerned about their continuing pursuit of testing 
ballistic missiles?
    General Austin. I am, Senator.
    Senator Ayotte. What are the implications of that?
    General Austin. Well, certainly, we hope that the JCPOA 
will prevent Iran from obtaining a nuclear weapon in near- to 
mid-term, and forever, hopefully. This is something we will 
continue to watch.
    Senator Ayotte. Clearly, the JCPOA is not continuing 
deterring them on the ballistic missile program. Would you 
agree with me on that?
    General Austin. I would agree with that, Senator. What I 
would say is that what we and the people in the region are 
concerned about is that they already have overmatch with 
numbers of ballistic missiles. The people in the region remain 
concerned about their cyber capability, their ability to mine 
the straits, and certainly the activity of their Quds Force, 
which we see malign activity not only throughout the region but 
around the globe as well.
    There are a number of things that lead me to personally 
believe that their behavior, that they have not changed any 
course yet. This is something we will continue to watch.
    Senator Ayotte. Well, I would argue that, clearly, the 
sanctions the administration did put in place, which I have 
said from the beginning are pathetic and weak, are having 
absolutely no impact, given that they are now continuing to 
test ballistic missiles. I would hope that we would up our game 
and impose real, tough sanctions on Iran, on their ballistic 
missile program.
    I wanted to follow up on an important question, both 
General Rodriguez and General Votel. This is something I have 
actually asked both of your predecessors about.
    My concern is if we capture Ayman al Zawahiri or Abu Bakr 
al Baghdadi tomorrow, where will we detain these individuals 
under long-term law of war detention, most importantly to 
interrogate them, so we can find out all that we need to know 
about Al Qaeda and ISIL?
    I asked your predecessor, going back to 2011, I asked 
General Carter Ham, your predecessor in AFRICOM, what would 
happen if we tomorrow captured a member of Al Qaeda in Africa? 
You know what he told me? He said, ``I am going to need some 
lawyerly help on answering that one.''
    I also asked the same of Admiral William McRaven, your 
predecessor, General Votel. He said to me that it would be very 
helpful if there was actually a facility that was designated 
for long-term law of war detention and interrogation.
    I guess my question to both of you is, tomorrow, if we 
capture these individuals, given the phenomenal work that the 
men and women who serve underneath you do every day, where are 
we going to interrogate them? Do you know that? Do you know 
what you would do with them, especially if we want to have a 
long-term interrogation of them?
    General Votel: Senator, in my experience, as we look at 
operations where we are actually going to change someone 
somebody, we have had a plan in place before we actually 
conducted the operation for how we were going to potentially 
detain them and what their legal disposition would be, whether 
that was back----
    Senator Ayotte. General, we just recently captured someone 
in ISIL. As I understand it, they are being held short term and 
then they are going to be turned back to the Kurds.
    What about long-term detention? You would agree that long-
term interrogation was quite helpful, for example, in gathering 
the information we needed to get Osama bin Laden. That is what 
worries me. What do we do in a long-term setting? Do we know?
    General Votel. I would agree that there is a requirement 
for long-term detention, Senator.
    Senator Ayotte. Do we know where that would be now?
    General Votel. I do not know. That is a policy decision 
that I think is being debated.
    Senator Ayotte. I think it is a policy decision that has 
basically never been made under this administration. It is one 
that has been left up in the air, which means it is left up in 
the air in a way that I think undermines our national security 
interests.
    I think that you all need to know what would happen 
tomorrow, given the great work of the men and women who serve 
underneath you. We hope they capture these individuals, we 
interrogate them, and we find out what they know, so that we 
can prevent attacks on this country and obviously continue to 
dismantle these terrorism networks.
    Thank you all.
    Senator McCain. Senator Shaheen?
    Senator Shaheen. Thank you.
    Thank you all for being here this morning and for your 
service to the country.
    General Austin, I want to follow up on some of the 
questions about Afghanistan because I saw reports over the 
weekend that President Ashraf Ghani claimed that ISIL had been 
defeated in the eastern part of the country following a 21-day 
operation by Afghan forces. Do we agree with President Ghani's 
analysis of what has happened there?
    General Austin. I think we have had some good initial 
effects, Senator, but I think there is more work to be done in 
that area.
    Senator Shaheen. Do we expect the Afghan national forces to 
follow up with ISIL in that area? Are we working with them 
directly on what is happening there? Can you elaborate a little 
bit on what is going on?
    General Austin. As you know, Senator, we are advising and 
assisting the Afghan special operation forces on a daily basis. 
Yes, we are helping them to identify these threats and also 
advising them on the best means to go after these threats.
    Senator Shaheen. If, in fact, they are performing well with 
respect to ISIS, what does that mean for the continued fighting 
against the Taliban? I saw recently reports about Helmand 
Province and what is happening there.
    Having had the opportunity to visit there back in 2010, 
2011, we visited Lashkar Gah, which is the provincial capital, 
and saw some really amazing work that had been done by 
International Security Assistance Force [ISAF] forces to engage 
the local population to get kids in school, to do very positive 
things. It is very distressing to see what is happening now in 
Helmand and the fact that provincial capital may fall to the 
Taliban. It is under threat from that.
    Can you talk about whether there are benefits from the 
effort against ISIL that carry over to the fight against the 
Taliban? I do not want to use the word ``propaganda,'' but is 
there messaging there that is helpful in terms of the Taliban's 
recurring activity in Afghanistan?
    General Austin. As was mentioned, earlier, Senator, the 
environment in Afghanistan this last year has been a very 
challenging environment to work in because of a number of 
transitions--transition of power for the first time in that 
young government's history. You had a new government standing 
up. We reduced our footprint. The death of Mullah Omar was 
announced. That caused the Taliban to begin to fracture a bit, 
but also gave rise to a new leader who set out to prove himself 
with increased activity.
    All of this worked together to prove to be very challenging 
for the Afghan security forces, and there were some setbacks. 
Those setbacks were due to a number of things--leadership, 
inappropriate techniques.
    General John Campbell and now General Nicholson are working 
with the Afghan security forces to address those setbacks. They 
put measures in place that should improve the performance 
there.
    The President, Mr. Ghani, has embraced these suggestions, 
and they are making corrections. We expect to see some improved 
performance. There is more advising and assisting that needs to 
be done going forward.
    One of the key things that has transpired here recently is 
that, because the Afghans in some cases were overextended, they 
have adjusted their footprint to give more flexibility. The 
smaller footprint allows them to project combat power at will 
in places that they need to project combat power to.
    Senator Shaheen. Thank you.
    General Votel, Senator Reed raised the issue of 
countermessaging in his opening statement. I know that in 2016, 
the National Defense Authorization Act [NDAA] provided 
resources for technologies to support our information 
operations and communication activities. Can you elaborate on 
what you are doing in this area to improve our countermeasuring 
efforts, which I think are really critical, both to what is 
going on with ISIL and to Putin in Russia?
    General Votel. Thank you, Senator. I agree with your 
assessment. I think it is absolutely critical, and it must be 
an integrated aspect of all of our operations, from start to 
finish. It cannot be something we think about afterwards.
    I am very grateful for the support we have gotten in the 
NDAA. Specifically, what we have done at USSOCOM is we have 
looked at publicly available information and how we develop the 
tools and the techniques and the procedures to use that 
information to help us understand the threats that we are 
dealing with. We are looking at how we can experiment in the 
area, the different things that we can do and bring to bear for 
our forces.
    Publicly available information and being able to work in 
that environment is an area in which we hope to improve our 
capabilities in the future.
    Senator Shaheen. Thank you. My time is up, but I would be 
interested in hearing what we are doing to work with other 
agencies within the Federal Government so that we are 
coordinating our messages across all of our activities. Thank 
you.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    General Austin, with regard to the challenges surrounding 
the retaking of Mosul and Raqqa by December of this year coming 
up, you currently have I think about 4,000 ground forces 
available, if I am correct.
    Is that enough? Do you have enough right now to assist in 
your plans to be able to retake Mosul and Raqqa?
    General Austin. The approach that we have used and will 
continue to use, Senator, as you know, is to use the indigenous 
forces to conduct the operations on the ground and enable those 
forces with our aerial fire and other enablers.
    As we look toward Raqqa and Mosul, clearly, there will be 
things that we will want to do to increase the capability of 
it, to be able to increase the pace of operations. That will 
require some additional capability. We have gone through and 
done some analysis to see what types of things we need to 
provide, and we have made those recommendations.
    Senator Rounds. Could you share those recommendations with 
this committee?
    General Austin. No, sir. I would not care to do so because 
I have just provided those to my leadership.
    Senator Rounds. You have made the recommendations and you 
are awaiting a response to your recommendations at this time?
    General Austin. Yes, sir. It will work its way up the 
chain.
    Senator Rounds. If you were allowed to have more ground 
troops, what would be the capabilities that you could 
accomplish, or what could you accomplish if you had more 
individuals on the ground there at this time?
    General Austin. We could develop better human intelligence. 
We could perhaps provide more advise and assist teams at 
various levels. We could increase our assistance in terms of 
providing help with some logistical issues. We could increase 
some elements of the special operations footprint.
    Senator Rounds. Assuming we would be successful in retaking 
both of those two towns, what then? It is broken. Clearly, you 
come back in, you need to reestablish civil order and so forth. 
When we take them back, do we have a plan in place? Do we have 
a plan that we want to execute to bring back in a sense of 
order to those communities? What does it look like right now? 
What part would we play?
    General Austin. The short answer is, yes, Senator, first of 
all, the Iraqis will take back Mosul, and we will work with the 
Syrian indigenous forces to take back Raqqa as well.
    As you have seen us do, as they have taken back towns in 
Iraq that include Ramadi, Baiji, Tikrit, Sinjar, and other 
places, that effort has been to reestablish security in those 
places and then immediately try to do what is necessary to 
repair damage and make sure that we are taking care of the 
people, the people are able to move back in and resume their 
lives.
    We build incrementally as we kind of move forward. There is 
a lot of work to be done, Senator. You know from just looking 
at Ramadi, there is a mountain of work to be accomplished to 
get that back to some reasonable state.
    In Mosul, then looking forward to Raqqa, the same types of 
things apply. Establish the security and when that is done, 
bring in the humanitarian assistance, do the reconstruction 
activities to get things back to normal.
    Senator Rounds. Do you believe that the current structure 
in Iraq with the government that is there now, do they have the 
capabilities and competencies to provide that to those 
communities in Iraq?
    General Austin. I think they do, sir. I think that it will 
require a lot of work, and it will require the government to 
work together much more and much better than what we have seen 
them do up to this point.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. [Presiding.] Senator Manchin, on behalf of 
the chairman.
    Senator Manchin. Thank you all for being here, and thank 
you for your service.
    I would ask the first question I think to General Votel. 
Given that we will be considering your nomination to succeed 
General Austin as CENTCOM commander, it would be insightful to 
get your opinion on the current situation in Iraq and Syria. I 
guess the question would simply be, who poses the greater 
threat to the region and to the United States, ISIL or Iran?
    General Votel. Well, I think right now, Senator, my answer 
would be ISIL does because they are inspiring and they are 
orchestrating external attacks that could impact our people. I 
think we have to take that extraordinarily seriously.
    That said, as we have kind of discussed here already, 
despite the JCPOA and the agreement has been made, we should 
understand that Iran is not ambiguous in their activities and 
their focus on the United States, and certainly on our allies 
in the region. I think they do pose a long-term threat as well.
    Senator Manchin. General Austin, do you agree?
    General Austin. Sir, I would say, clearly, the most 
dangerous near-term threat is ISIL or Daesh. We will deal with 
that threat as a part of an international coalition. I would 
say the greatest mid- to long-term threat to stability in the 
region is clearly Iran. We will need to work with our partners 
in the region to really counter the malign activity that we 
have seen Iran conduct over time.
    Senator Manchin. The additional revenue that Iran has 
coming now, because their oil is starting to flow and the 
revenue from that, do you see that exacerbating the problem?
    General Austin. It certainly adds a little fuel to the 
problem, sir. They were going to spend money on their military 
and buy weapons anyway. This gives them some capability to do 
more.
    Having said that, the GCC is working together, probably in 
ways that they have not done in the past, and they continue to 
buy a healthy dose of our equipment and our weapons as well. 
They are increasing their capability as well.
    Senator Manchin. Also, with the change of regime there, I 
guess the last election they just had showed an awful lot of 
the moderates got elected and some of the extremes got pushed 
out of office. It is too soon to tell, but do you see that as a 
promising factor?
    General Austin. I think it is too soon to tell, sir. I 
think what we saw leading up to the elections, we saw a lot of 
moderates get disqualified from the elections. The folks who 
are now classifying themselves as moderates, are they really 
moderates or just another flavor of hardliners? We will see as 
time passes here.
    Senator Manchin. General Rodriguez, regarding the U.S. 
strike in Somalia that occurred Saturday, I read that the 
fighters that were targeted had just completed training for a 
large-scale attack against American forces. The question would 
be, could you give me a sense of the number of camps like that 
that are still in Somalia that you have identified? How big a 
concern is it that there are other camps in this region that we 
do not even know about?
    General Rodriguez. Sir, the camps are transitory, so they 
pop up and move, and they are at different places throughout 
Somalia at different times. It is a concern because the last 
three times they did something similar to this, they had the 
ability to conduct a devastating attack on the AMISOM forces.
    Senator Manchin. General Votel, I would follow up with you. 
The National Guard State Partnership Program has been 
successful in building extremely strong relationships between 
the Guard and 70 other countries for over 20 years. In some 
cases, it has been going on longer.
    In your testimony, you indicate one of your major 
priorities is to continue to build relationships with 
international and domestic partners through sustained security 
cooperation, expand the communication architects, and liaison 
activities.
    It seems to be something National Guard has been successful 
with in the State Partnership Program. Do you see a role for 
the State Partnership Program in helping advance this priority?
    General Votel. Senator, I absolutely do. Of course, as you 
may be aware, West Virginia has played a very key role in 
sponsoring exercises for our Polish SOF partners that was very 
successful. We have already engaged on doing the next version 
of that.
    I think the State Partnership Program is absolutely 
essential to us. Of course, a number of embassies we have 
National Guard bilateral officers at the same place where we 
have some of our special operation liaison officers. I think 
that provides a great opportunity to increase our interaction 
and integration on activities.
    I think it is a wonderful program, and we are going to try 
to leverage it in every way we can.
    Senator Manchin. General, I appreciate that, because we 
think it has been very successful, also, and very cost-
effective for us, too. Thank you for that.
    My time is up.
    Senator Reed. On behalf of the chairman, Senator Ernst, 
please.
    Senator Ernst. Thank you very much.
    Gentlemen, thank you for being here today. I certainly 
appreciate your many, many years of service.
    I would like to start, General Austin and General Votel, 
just in your professional military opinion, you have served a 
while in our armed services. I was going to say over 40 years 
of service, but we will just say many, many years. Again, thank 
you for that. What are the implications of Russia's actions in 
Syria and the world's response or lack of response with Russia 
in Syria and their international behavior?
    I guess what I am trying to get at is, what lessons do you 
think Putin is taking out of Syria? What concerns should we 
have about what Putin is doing in Syria? We have heard 
discussion about weaponization of migrants. Can you give me a 
little input on that, please?
    General Austin. Thank you, Senator.
    Russia's entry into this problem set has made a very 
complicated problem even more complicated. You know, when you 
consider the actors that are part of this, the regime, the 
Russians, the Turks, the People's Protection Units [YPG], the 
Iranians, Lebanese Hezbollah, Daesh, all of these elements 
interacting with each other in a fairly confined battle space, 
the introduction of Russia has made this more complicated, 
especially because of the fact that, although they said they 
came to counter terrorism, to counter Daesh, what we have seen 
them do principally is bolster the Assad regime. That 
potentially extends the conflict.
    My personal opinion is that, as Russia entered this, they 
had no designs on being there for a long time. I do not think 
they can be there for a long time, because of the impact that 
it will have on their economy. Clearly, they tried to use this 
to demonstrate muscle and impress the region. I think they will 
have an opposite effect. When they came in and aligned 
themselves with the Syrian regime, they also aligned themselves 
with the Iranians and with Lebanese Hezbollah. That will 
eventually begin to alienate them from many of the Sunni Arab 
states in the region.
    Senator Ernst. Do you think that is his overall goal, the 
alienation of those groups, and alignment with himself? Has he 
achieved that?
    General Austin. I think what they wanted to do was gain 
greater--certainly, they wanted access to a port in the 
Mediterranean. They want influence in the region. They want to 
increase their influence in the region by doing some of the 
things that they have done. I think at the end of the day, it 
will probably have the opposite effect of what they wanted to 
do.
    Senator Ernst. Okay. Thank you, sir.
    General Votel?
    General Votel. Senator, I agree with everything that 
General Austin just said. I would add one additional point.
    I think the big lesson that we are learning out of this is 
this ability to operate in the gray area, this area between 
normal state competition that we normally expect and open 
warfare. I think, in my view, this is an area in which Russia 
is engaging. Syria is another example. Certainly, Eastern 
Europe is another example. The Ukraine is another example.
    Short of open warfare, but they are certainly challenging 
our interests, challenging our influence, and challenging the 
interests of many of our allies. For those of us in SOCOM, we 
are paying very close attention to this and trying to 
understand the gray zone and how that is going to impact our 
future operations, and how we contribute in a particular area.
    Senator Ernst. Okay, I appreciate that.
    My time is short, but very quickly, if you could, General 
Austin, talk about the Sunni fighting force in Iraq. Why is it 
taking so long to develop a force, which would keep the region 
stable?
    General Austin. One of the things I think that must be 
done, Senator, and I think you probably feel the same way, is 
that the Sunnis have to be a part of the solution going 
forward. We have worked with the leadership, with the Prime 
Minister, to enlist and hire and train and pay Sunni tribal 
elements that can help us.
    They have across-the-board enlisted about 15,000 or so of 
Sunni tribal elements. They have proven that they are very 
reliable troops.
    The reason it has taken a long time is because there are 
hardliners in the environment that do not want to see a large 
Sunni force armed and equipped because of the bad experience 
with Daesh.
    Nonetheless, the Sunnis have to be a part of the solution 
going forward. We see the Prime Minister doing some things to 
enlist their help. We just need some more activity here.
    Senator Ernst. Gentlemen, again, I appreciate it very much. 
Thank you for your service.
    Thank you, Mr. Chair.
    Senator McCain. [Presiding.] Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General Rodriguez, regarding Libya, you mentioned in your 
written testimony that the lack of stability and security in 
Libya threatens our peace and security objectives in the Middle 
East. Of course, whatever we do in the Middle East is fraught 
with all kinds of peril and unintended consequences.
    While the Libyan Government of National Accord established 
by agreement in December 2015, as you noted in your testimony, 
is an important step, it will take time to establish its 
authority.
    Can you talk more about what is supposed to happen under 
this agreement, and what is to be expected to happen in Libya? 
What kind of time frame are we talking about, to establish 
civility and security in Libya?
    General Rodriguez. Thank you, Senator.
    The agreement that the United Nations [U.N.] brokered to 
build of the Government of National Accord was supposed to 
bring together both the House of Representatives in the east 
and the General National Congress in the west, and build a 
central government that could then begin to govern Libya.
    This will be a long time coming as they work through this. 
We will continue to press on all the diplomatic fronts that the 
U.S. and international community can to get this thing moving. 
It has continued to move along slowly.
    As far as the second part of your question, to build 
stability in Libya is going to take a long time because of the 
lack of institutions that are there, the fractured society, and 
the multiple competing militias and spoilers from all sides of 
Libyan society.
    Senator Hirono. What would you say are maybe the one or two 
most important steps or conditions that must occur for this 
process to proceed in a way that will result in civility in 
Libya?
    General Rodriguez. I think the Government of National 
Accord has to come together and have enough legitimacy in the 
eyes of the Libyan people that it can function well enough to 
move forward and help to begin building stability.
    Senator Hirono. Is that happening?
    General Rodriguez. It has not happened yet.
    Senator Hirono. Beginning to happen?
    General Rodriguez. Yes.
    Senator Hirono. When you say it is going to be a long time, 
do you have any kind of a sense? Are we talking about 10 years, 
15 years?
    General Rodriguez. For long-term stability, yes, it is 
going to take 10 years or so to build that society up. Yes, 
ma'am.
    Senator Hirono. Thank you.
    General Votel, North Korea's nuclear threats are increasing 
and becoming more of a concern by the day. What efforts are 
SOCOM engaging in that we hope will dispel or lower this 
imminent threat? Do you think that a peaceful solution is 
possible at this point?
    General Votel. Thank you, Senator. I do not know if a 
peaceful solution is possible at this particular point.
    What we are doing, of course, is we are retaining our 
capability to deal with those types of weapons in the venues in 
which we are asked to deal with them, which are fairly 
peculiar. We do maintain that capability as one of our kind of 
no-fail missions.
    That said, the other thing that we have done over the last 
18 months is increase our presence and partnership with our 
South Korean partners. I am pretty proud to say right now, 
today, there are more SOF men and women on the peninsula than 
we have had any time in the past. We are continuing to maintain 
a robust presence there with all of our capability--air, 
maritime, and ground SOF forces.
    Senator Hirono. Even as we speak, are we engaging in some 
exercises with South Korea and our Marines?
    General Votel. We are. There are major exercises that occur 
at various times of the year. There is one going on right now. 
We are extraordinarily well-integrated into that, and through 
our Special Operations Command Korea, we are supporting General 
Curtis Scaparrotti in his objectives.
    Senator Hirono. Thank you.
    Again, to you, General Votel, regarding our rebalance to 
the Asia-Pacific, which is a key strategic goal, particularly 
as we see what is going on with North Korea and China, with 
what you can say in this unclassified setting, can you comment 
on the capabilities of SOCOM in the Asia-Pacific region? Do you 
have a Special Operations Forces structure to meet the growing 
demands of this region? Does this year's budget request provide 
the resources necessary to meet the demand?
    General Votel. Senator, to the last part of your question, 
we absolutely do have a structure. It is formed around Special 
Operations Command Pacific that is under the operational 
control of Admiral Harry Harris under my combatant command. We 
are sourcing them. They are a fairly robust headquarters. They 
have the ability to exercise command and control and 
coordination, integration with Admiral Harris' staff.
    With regards to the other things that we are doing, I guess 
I would like to say that SOCOM never left the Pacific. We have 
always been engaged out there. Most of our activities are 
bilateral. We certainly had some success in the Philippines in 
the past and in support of many of Admiral Harris' objectives 
out there.
    We are working very closely with a large variety of 
partners to reassure them, to develop their capabilities, and 
to show that we remain very committed to the area.
    Senator Hirono. Thank you very much. I thank all of our 
testifiers today. Mahalo.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Graham?
    Senator Graham. Thank you all for many years of great 
service.
    Syria, General Votel, are you responsible for training the 
Syrian Democratic Forces?
    General Votel. We are providing forces to General Austin 
who has that mission.
    Senator Graham. What percentage of the Syrian Democratic 
Forces are Kurds?
    General Votel. Probably about 80 percent.
    Senator Graham. Is it possible for the current construct 
for these forces to take Raqqa away from ISIL?
    General Votel. I do not know. I think that they are 
capable. As we have seen in some of the things that they have 
done, without----
    Senator Graham. Is there a plan to take Raqqa back from 
ISIL using these forces?
    General Votel. We have a strategy to get to Raqqa----
    Senator Graham. No. I said, is there a plan?
    General Votel. There is currently not a plan.
    Senator Graham. Okay. Is there a plan to hold Raqqa once we 
take it?
    General Votel. I would say, no. There is not a plan to hold 
Raqqa.
    Senator Graham. Okay.
    General Austin, is it fair to say that when Russia and Iran 
came in to assist Assad, that changed the balance of power on 
the ground militarily in his favor?
    General Austin. It is, Senator.
    If I could make a comment on the question that General 
Votel just answered?
    Senator Graham. Sure.
    General Austin. As you know, Senator, as we continue to 
work with the forces in theater, the indigenous forces. Our 
goal is to recruit more Arabs and Turkmen and others to----
    Senator Graham. Will the recruitment require them to fight 
ISIL alone and not go after Assad?
    General Austin. We will recruit, train, and equip forces to 
focus on Daesh, on ISIL.
    Senator Graham. Part of the conditions will be we are not 
going to support you when it comes to Assad.
    General Austin. That is correct, sir. We will only support 
those elements that are----
    Senator Graham. What happens when Assad bombs the people we 
train? What do we do?
    General Austin. We will defend the folks that we are 
supporting.
    Senator Graham. Have we defended them against the Russians 
and Assad, the people we have previously trained?
    General Austin. In terms of forces that I have trained, we 
have not had that issue.
    Senator Graham. Well, the forces that the Agency has 
trained have been bombed by the Russians and Assad. Is that 
correct?
    General Austin. Sir, I would not want to address that in 
this forum.
    Senator Graham. I think it is pretty common knowledge that 
the people we trained have been hit by the Russians and Assad.
    Is it fair to say that, going into any negotiations, Assad 
is in pretty good shape because Russia and Iran are behind him 
militarily and we are not behind the opposition militarily?
    General Austin. I certainly would say, Senator, that 
Russia's support and Iran's support of Assad has really 
emboldened him and empowered him to a degree.
    Senator Graham. You have been in Iraq a long time.
    Thank you for your years of service, to all of you. I 
certainly mean that.
    On June 24, 2010, I had an exchange with General Ray 
Odierno. You were there, too. We were changing over from 
General David Petraeus.
    Here is what I said: I think you indicated we are probably 
on the 10-yard line when it comes to Iraq.
    This is General Odierno: I did, sir. I think we are on the 
10-yard line. I think that the next 18 months will determine 
whether we get to the goal line or really give the Iraqis an 
opportunity to get to the goal line by 2011.
    Did you recommend a residual force?
    General Austin. I did, sir.
    Senator Graham. Okay. If we were on the 10-yard line in 
June 24, 2010, using football analogies, where are we at today 
in Iraq?
    General Austin. Clearly, we are in a completely different 
game with respect to where we were then, sir. Nobody knows this 
better than you because you have spent so much time over there.
    Senator Graham. It is a different game. I think that is a 
good way to say it.
    General Austin. Absolutely, sir.
    Senator Graham. What is the strongest ground component in 
Iraq? Is it the Iraqi security forces or the Shiite militia? 
Who has the most capability right now?
    General Austin. The Shiite militia have a lot of numbers, 
but in my opinion, they are not really good fighters. They do 
not have good tradecraft. They do not----
    Senator Graham. Is it fair to say they cannot be used to 
liberate Mosul?
    General Austin. I would say, if we go down that path, 
Senator Graham, we will make a significant mistake.
    Senator Graham. I could not agree with you more. I am glad 
you said that. We are really relying on the Iraqi security 
forces and Peshmerga. I think that is a long way away.
    Libya, General Rodriguez, thank you for your service.
    What percentage of Libya would you say is under the 
control, actual or de facto control, of extremist groups like 
ISIL?
    General Rodriguez. ISIL and Daesh control the area in and 
around Sirte. I could not give you the exact percentage. The 
other places are either contested or have transitory factors.
    Senator Graham. Would you consider Libya at this point a 
failed state?
    General Rodriguez. Yes, sir.
    Senator Graham. Thank you all very much for your service.
    Senator McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses. Also, I echo all the comments 
about the appreciation for your service and the many times you 
have been before this committee.
    General Rodriguez, I want to ask a couple questions, 
touching on each of your expertise about the training we do 
with foreign militaries.
    In Africa, I know the U.S. military is a preferred training 
partner, and many African nations seek our assistance. I kind 
of would like to have you talk about the success of those 
training efforts over the course of your three years in the 
position and what other nations do significant--not African 
nations--do significant training of African militaries?
    I think this is one of the most cost-effective investments 
that we make, and I would like to hear your thoughts on it.
    General Rodriguez. Yes, Senator. Thank you.
    We are by far the largest contributor to training African 
peacekeepers in Africa. We have a tremendous amount of 
successes.
    Just to give you one benchmark now, the U.N. missions in 
Africa are 47 percent provided by African soldiers. That is a 
significant increase over the last several years and almost a 
180 degree-turn from a decade ago.
    Then we have a great program that is really led by the 
State Department for training soldiers. All the soldiers that 
are trained to go to Somalia, as an example, all five nations 
have been trained by the State Department, supported by 
AFRICOM, as well as 11 nations in Mali.
    We do a tremendous job of training all the U.N. missions 
who are heading out there. They have done extremely well 
overall.
    There continue to be challenges in certain areas. They have 
had some problems with discipline in some of those units. 
Overall, it has been a huge success story.
    As an example, in Burundi, almost every one of their units 
has been trained and headed to AMISOM and then come back. It 
has increased the professionalism of the forces.
    The U.N. also does some training, as do the United Kingdom 
[UK] and the French. They are the biggest contributors.
    Senator Kaine. The training that we do is not only training 
around dealing with security challenges, but in some of these 
nations the military has sometimes been the force for civilian 
repression. There are rule of law and human rights issues.
    I assume that one of the sets of expertise we provide is 
how to do the security job, and at the same time do it in a way 
that respects rule of law and human rights?
    General Rodriguez. It is, sir. It is all about 
professionalizing the forces in every aspect, not just the 
tactical operations but also the rule of law, the law of armed 
conflict, and how to support the government in a democratic 
nation.
    Senator Kaine. General Votel, would you talk about the same 
thing with respect to special operations and special forces, 
the training work we do with other nations?
    Senator King and I traveled to the region, actually to 
Lebanon a few years ago, and we witnessed some training that 
Lebanese Armed Forces [LAF] was incredibly thankful for.
    Just talk a little about the training component of what you 
do.
    General Votel. Thank you, Senator. The example you cited in 
Lebanon is a good example of many of the ways in which we are 
working with some of our international partners, particularly 
through their SOF elements.
    I think one of the very best authorities that Congress has 
provided to us is the authority that allows us to work very 
closely with some of our partners here to develop capabilities, 
to assist in our counterterrorism efforts. I think that has 
been a very, very successful program.
    What we try to do is we try to leverage the long-term 
relationships, the long historical relationships that many of 
our countries and particularly their SOF forces have in the 
region.
    For example, the French SOF, of course, are great partners 
in North Africa. The British, of course, have inroads in a lot 
of different places. We try to leverage that as well.
    We are also looking to work with partners to develop 
capacity to export their skills. We look at a country like 
Poland, for example. That is a good example. We worked long 
term with that country, and they have actually been somebody 
who can deploy, support our activities, and, in fact, bring 
others with them.
    I think the investment that not only we are making in SOF 
but a lot of our partner nations that are making in SOF, I 
think we are leveraging them very well through our 
relationships and partnerships.
    Senator Kaine. This is budgets, appropriations, and NDAA 
season, so we are looking at line items, and we are looking at 
expenditures. My opinion is that one of the best things we do, 
if you look at the Pentagon budget, the amount we spend to 
train foreign militaries, either in their real estate or 
bringing leaders over here for programs at the National Defense 
University. It is just a fraction of a fraction of a DOD 
budget, but it might be one of the best investments we make in 
terms of both building capacity, but also building 
relationships that can be important. I just encourage you each 
in that.
    Again, thank you for your service.
    Thank you, Mr. Chair.
    Senator McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service, your many years of 
service to this country and our people.
    General Rodriguez, last year, you testified that Libya-
based threats to United States interests are growing and if 
left unchecked, I believe they have the highest potential among 
security challenges on the continent to increase risk to U.S. 
and European strategic interests in the next two years and 
beyond.
    What is your assessment of the current situation? Do you 
see these threats continuing to impact not just the United 
States but our allies?
    General Rodriguez. Yes, Senator. It has continued to grow 
in the last year, as I mentioned. Because of the ungoverned 
space in Libya, that is also what contributes to the migration 
challenges that our European partners are facing. I think I 
agree with all those statements I made last year.
    Senator Fischer. As we look at Libya and really how 
unstable this area of the world has become, and the impact, the 
negative impact, it is having not just on that area but, as you 
said, with migration in Europe as well, are we going to see a 
unity government form? Is there any hope that that is going to 
happen? Or are we going to continue to see the threats grow 
faster than the possibility of the formation of a unity 
government?
    General Rodriguez. I think unity government, as encouraged 
by everybody, has a chance of moving forward. It will be 
dependent upon how they handle the spoilers who are really not 
in it for the future of Libya. That will be the real 
determining factor.
    The concern right now for the building of the government 
and the ability for Libyans to contribute towards stabilization 
are the resources that have continued to go, their ability to 
generate the resources that continue to dwindle over time, so 
the instability has increased. That is the real risk, ma'am.
    Senator Fischer. In your best military advice, what are the 
additional steps that could possibly be taken in order to 
combat that threat that is in Libya against the formation of 
the unity government? What are the steps that you see that we 
could take?
    General Rodriguez. The first, of course, is to continue to 
press on all the diplomatic fronts to get some kind of 
government that can function enough, that is legitimate enough 
in the eyes of the people that it can function properly.
    Then on the military side, it is all about working with our 
partners, first of all, all around Libya, whether it is the 
European Union in the north that has a mission going on to help 
with the migrant situation, or North Atlantic Treaty 
Organization [NATO], both have missions in the Mediterranean 
Sea, as well as shoring up all the partners around us. An 
example is Tunisia, which we have done a good job at helping 
build their capacity to withstand the challenges there.
    Then somehow at some point in time the international 
community is going to have to figure out how to halt the 
expansion of Daesh and then degrade it so that this government 
has a chance to move forward.
    Senator Fischer. You do believe that the formation of this 
government, it is going to take outside help in order to 
stabilize this area?
    General Rodriguez. Yes, I do.
    Senator Fischer. Do you have any idea on who our partners 
would be in that? Besides the European Union, do we have 
partners outside of them?
    General Rodriguez. NATO, as I mentioned, also has a mission 
in the Mediterranean Sea, and the European Union, as you 
mentioned. The real critical partners who have continued to 
work in this effort are the U.K., France, Italy, as well as 
Spain and Germany.
    Senator Fischer. Do we have a plan moving forward on that?
    General Rodriguez. Yes, we do, ma'am.
    Senator Fischer. General Votel, are you concerned that the 
threat may outpace that political reconciliation in Libya?
    General Votel. I am. I think as General Rodriguez pointed 
out, that is a long-term proposition, so I do think we have to 
be concerned about that.
    Senator Fischer. General Austin, have you seen cooperation 
between Syrian Kurdish groups and Russia?
    General Austin. We have seen some cooperation between the 
YPG element that is in the northwestern part of the country 
with the Russians.
    Senator Fischer. Is it frequent cooperation?
    General Austin. I would characterize it as infrequent. 
Again, they are going to turn to the folks that they think can 
provide them capability when they need it most.
    Senator Fischer. Have the Kurdish groups attacked Syrian 
rebels that are supported by us?
    General Austin. There is evidence of that.
    Senator Fischer. Do you see that growing?
    General Austin. I do not see it growing. I think right now, 
during the cessation of hostilities, we do not see much 
activity at all.
    Senator Fischer. Thank you.
    Thank you, Mr. Chair.
    Senator McCain. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chair.
    Thank you all for your distinguished service to our Nation.
    General Votel, I noticed in your testimony reference to 
enhancing our relationships with special operators from other 
countries, the interoperability of our activities with theirs. 
Is that an area that you see as a priority? If so, what can we 
do to support it?
    General Votel. Thank you, Senator. It is an area that I see 
as a priority.
    In fact, over the last several years, we have incorporated 
into our headquarters liaison officers from about 17 or 18 
different foreign SOF forces, who are integrated with us right 
in our headquarters as kind of a demonstration of how important 
we think that it is.
    I think what you can do is continue to support our efforts 
in that regard. Frankly, I think the biggest challenges that we 
have working with our international partners really fall into 
information-sharing arrangements we have with them. I find that 
that is kind of a friction point that we continue to work 
through. I think anything we can do in those regards would be 
very, very positive.
    Senator Blumenthal. Is information-sharing also an issue 
when it comes to other United States agencies, such as the Drug 
Enforcement Agency [DEA], the Federal Bureau of Investigation 
[FBI]? I noticed the reference in your testimony to those 
agencies as well.
    General Votel. In general, Senator, I think that has 
improved a lot. I do not see those as significant obstacles. 
Most of those agencies you mentioned have representatives in my 
headquarters, and they help smooth any potential conflicts we 
have. I think our interchange of information-sharing with them 
is quite good.
    Senator Blumenthal. Over the years, we have heard 
testimony, both in secure settings and in public settings such 
as this one, about the opportunities and the failings to 
interdict illicit substances, heroin, opium, which not only 
undermines our activities in some countries abroad--Afghanistan 
being an example--but also threatens our national security at 
home.
    In fact, we are debating now on the floor of the Senate a 
measure called the Comprehensive Addiction and Recovery Act, 
which aims to prevent as well as treat addiction to illicit 
substances in our country.
    I wonder if you could comment on both the opportunities and 
the potential failings of our Nation in addressing those 
problems of interdicting and stopping the flow of heroin and 
other substances to this country, and the growing of it in 
other countries.
    General Votel. I think, as you know, we have had a long-
term plan in countries like Colombia that the U.S. Special 
Operations Force and others have supported for a while that has 
had some success to it. We do conduct a number of activities in 
our southern regions here to support some of our partners in 
those particular efforts. In most cases, we have begun to see 
some success when we do that.
    I think they look for our leadership. They look for our 
partnership. They look for our expertise in helping them with 
that. I think what we generally see with those countries that 
we partner with, we do see some success. We see better efforts.
    Certainly, the problem is extensive. I think our focus on 
interdiction routes is extraordinarily important.
    In my view, in my experience, the same routes over which 
drugs travel, humans travel, foreign terrorist fighters could 
travel. I think these are multipurpose threats to us that have 
to be addressed very, very seriously.
    Senator Blumenthal. In some sense, the flow of heroin is 
along the same routes terrorists travel, as other kinds of 
threats to our Nation may come to this country.
    General Votel. In my experience, Senator, I think that is 
true.
    Senator Blumenthal. Thank you very much. Thank you for your 
excellent testimony today.
    Thanks, Mr. Chairman.
    Senator McCain. Senator Lee?
    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks to all of you for being here and for all you do for 
the security of our country.
    General Rodriguez, a New York Times report from February 27 
recounted that at the time when intervention in Libya was being 
discussed, then-Secretary Bob Gates stated that Libyan leader 
Muammar Qaddafi ``was not a threat to us anywhere.'' Then-
director of the Defense Intelligence Agency General Michael 
Flynn commented that Qaddafi was ``a thug in a dangerous 
neighborhood, but he was keeping order.''
    General Rodriguez, how has the chaos in Libya, specifically 
the proliferation of weapons from Qadhafi's stockpile and the 
infiltration of ISIL and Al Qaeda affiliates, led to the 
further destabilization of North Africa and the Middle East, 
and threatened our security interests?
    General Rodriguez. Thank you, Senator.
    The first effect of that destabilization was probably in 
Mali when many of the fighters as well as arms, ammunition, 
explosives, headed that way, which created some of the 
challenges down there. It has destabilized North Africa all the 
way across to Mali.
    The other challenge are the militias who have grown up in 
and around there, and used many of the ammunition stocks for 
their power and influence not only internal to Libya, but 
external to its neighbors.
    Then the challenges have continued to grow, because of ISIL 
and its brand of terrorism, to threaten places like Tunisia. 
Then, of course, the destabilized and total chaos in the area 
there has contributed to the migrant problem.
    Senator Lee. Thank you.
    In a long report last week from the New York Times, it was 
made clear that then-Secretary of State Hillary Clinton and the 
White House were persuaded to support Western intervention in 
Libya in 2011 largely due to pressure from European and Arab 
allies, who seemed to indicate that they would lead the 
operations, allowing the United States to lead from behind, as 
it was put at the time.
    What is your assessment of the involvement of European and 
Arab nations in Libya now, after that intervention has now led 
to chaos and sort of Islamist insurrection?
    General Rodriguez. I think, as the Secretary said many 
times, I think we would all hope that many of the European 
nations would do more in this arena.
    Senator Lee. The United States has been supporting Saudi 
Arabia's military initiative in Yemen now for over a year--this 
one is for General Austin--sharing intelligence in providing 
logistical support. In this time, the Houthis have not been 
driven out and the humanitarian crisis that is there seems to 
have been exacerbated. It certainly has not been alleviated.
    Further, terrorist groups like Al Qaeda in the Arabian 
Peninsula [AQAP] and ISIL affiliates are able to have safe 
haven and gain strength, finances, and weaponry in the 
conflict.
    General Austin, what is your overall goal in supporting the 
Saudis in Yemen? Would you assess the Saudis' intervention in 
Yemen thus far as being successful?
    General Austin. First of all, I assess that the current 
state of play in Yemen is that they are at an operational 
stalemate, Senator. I think both sides have pushed hard against 
each other. Because neither one has an overwhelming advantage, 
neither one feels the need to come to the table to negotiate in 
earnest.
    Having said that, I think even though I would characterize 
it as an operational stalemate right now, I think it is 
trending toward a coalition, a Saudi-led coalition, because of 
some incremental gains that have been made here recently.
    Our goal is to support the coalition in their efforts to 
reestablish the legitimate government in Yemen, and we are 
hopeful that the coalition will be able to bring the Houthis to 
the table and negotiate a settlement that allows for this 
government to come back in and reestablish itself. If it does 
that, that will enable us to work with that government to do 
more to counter terrorist networks like AQAP.
    We will be able to do more, but that does not mean that we 
are doing nothing right now, Senator. As you know, with all the 
means that we have available, we are pressurizing AQAP on a 
daily basis.
    Senator Lee. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Reed. [Presiding.] On behalf of the chairman, 
Senator King.
    Senator King. Thank you.
    General Austin, could you give us a quick update on the 
status of the investigation into the allegations of corruption 
of the intelligence analysis function in CENTCOM?
    General Austin. Yes, sir. The investigation is ongoing. The 
DOD Inspector General [IG] continues his work. As I said from 
the very beginning, the leadership at CENTCOM will do 
everything within its power to support the efforts of the DOD 
IG.
    Senator King. Do we have a date? Do we have a projected 
date? It has been sometime since that investigation.
    General Austin. It has been, sir. I would defer to the IG 
to provide that date.
    Senator King. Did you stand up any kind of investigation of 
your own of these allegations, being the principal victim of 
them?
    General Austin. Sir, as you know, it would be inappropriate 
for me to do that while the DOD IG investigation is ongoing.
    Senator King. You do not have any idea when the IG will be 
completing their work?
    General Austin. I do not, sir. I hope it is soon. I would 
also tell you, as I said before, if the IG or the investigation 
finds out or determines that there have been inappropriate 
actions, I will take the appropriate measures to address 
whatever the infractions were.
    It is important to me that my intelligence analysts and all 
of my subordinates provide me unvarnished input on a routine 
basis.
    Senator King. I understand that. That is why I 
characterized you as the principal victim. If you are not 
getting good intelligence, it compromises your ability to 
perform your function.
    Let me change the subject for a moment. Afghanistan, the 
current schedule is 9,800 to 5,500 on January 1, 2017. The 
problem as I see is to get to 5,500, you cannot just turn a 
switch on December 31. There is going to be a drawdown of some 
kind starting probably in late summer.
    Are you concerned, given the heightened level of Taliban 
activity, that we would be making a mistake by embarking upon a 
drawdown of that nature, to get back to the football analogy, 
if we are on the 10-yard line or the 5-yard line? It concerns 
me that we, again, are backed into being calendar-driven rather 
than conditions-driven.
    General Austin. Yes, sir. The way I view this is, you have 
to have a plan. You build that plan on the facts, and you make 
assumptions at the time that you build that plan.
    Senator King. You have testified to a heightened level of 
Taliban activity and greater stress on the Afghan forces. Is it 
not time to reassess that plan now? If we wait until August or 
September, we are already in the midst of a drawdown.
    General Austin. Sir, that is exactly where I was going. As 
the facts change, and as the assumptions are no longer valid, 
then it is appropriate to go back and review that plan and make 
adjustments, as required.
    Senator King. Is that happening right now? Is there a 
reassessment underway?
    General Austin. The new commander is on the ground and he 
is assessing things now, at all levels. We will take a look at 
this and make the appropriate recommendations to the 
leadership.
    Senator King. I certainly hope that we do not find 
ourselves in a situation where we are drawing down at a time 
when, both in terms of personnel and authorities, we need more 
authority to maintain the really significant gains that have 
been achieved.
    General Rodriguez, are al Shabaab and Boko Haram growing? 
Are they adding members? I know they do not hold territory, but 
are they adding areas of influence?
    General Rodriguez. Boko Haram does own some significant 
territory in northern Nigeria, as does al Shabaab in limited 
areas of Somalia, Senator.
    Right now, in Somalia, there has been a tactical upswing in 
al Shabaab activities. I think that is a tactical change right 
now. We are doing everything we can to support the troop-
contributing countries, to ensure that that is just a temporary 
change.
    Senator King. Final question. General Austin, the cessation 
of hostilities, would you characterize that as a predecessor to 
peace talks or a locking in of the regime's position? A 
cessation of hostilities in an insurgency, it seems to me, 
always favors the regime.
    How would you characterize where we are now? Is this simply 
a pause? Or is this a predecessor to peace talks? Or is this, 
as I say, locking in the regime?
    General Austin. It is left to be seen what the outcome is 
going to be, Senator. Clearly, the goals of the cessation of 
hostilities would be to allow humanitarian assistance to get to 
the disadvantaged people. That is happening. That is a really 
good thing.
    The other thing that we want to happen is for this to lead 
to talks and, eventually, a better outcome. We are hopeful that 
will happen, but that is left to be seen.
    We can expect that there could be some incremental tactical 
gains made by the regime and supported by the Russians. I 
think, long term, the Russians do not own the clock. If we 
reach a point where this drags out for an extremely long period 
of time, then I think it is going to play to their 
disadvantage.
    Senator King. The cessation of hostilities is certainly 
better than the all-out war we were seeing before.
    General Austin. Absolutely, sir.
    Senator King. Thank you.
    Thank you, General.
    Senator Reed. On behalf of the chairman, Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for your testimony 
here today, and also for your long service to our country, 
particularly to the two who may no longer have the pleasure of 
appearing before our committee anymore.
    General Austin, I want to take stock of Russia's 
intervention in Syria. Last fall when Russia first intervened, 
President Obama and several senior administration officials 
used words like ``quagmire'' or ``strategic blunder.''
    How would you take stock of Russia's intervention to this 
point, given their stated objectives? Are they achieving their 
objectives at an acceptable cost to the Putin regime?
    General Austin. Again, I cannot speak exactly to what their 
specific objectives were, but I would tell you, Senator, that 
my assumption would be that they wanted to make a substantial 
difference as fast as they could and transition to something 
else very, very quickly. They have not been able to do that.
    I think what they are finding out is that this could go on 
for some time.
    Senator Cotton. You say, on page 12 of your testimony, ``It 
is apparent through Russia's actions that their primary 
objective in Syria is to bolster the Assad regime.'' Skipping 
down a few lines, you say, ``Assad would almost certainly not 
be in power today were it not for the robust support provided 
to the regime by Iran and Russia.''
    If that is one of their key objectives, is it fair to say 
that they are meeting that objective of stabilizing the Assad 
regime?
    General Austin. They have certainly bolstered and empowered 
the Assad regime, yes, sir.
    Senator Cotton. You say further on page 13, ``None of 
Russia's military actions have helped stabilize Syria or end 
the suffering of the Syrian people.'' Could you elaborate on 
that statement?
    General Austin. We still see thousands and thousands of 
civilians being disadvantaged. Barrel bombs continue. Their 
intervention has not made things better for the people of 
Syria.
    Senator Cotton. Can you give a rough estimate, I know it 
will not be exact, but a rough estimate of how much of Russia's 
airstrikes are targeting Islamic State positions and personnel 
versus non-Islamic State positions?
    General Austin. I would say a small percentage, sir. I 
think, as you know, what they have said is that they wanted to 
come in and counter terrorism or counter Daesh. What we have 
witnessed is, in almost all cases, they have gone after 
counter-regime forces.
    Senator Cotton. You further note on page 13 that Russia's 
cooperation with Iran appears to be expanding beyond near-term 
coordination or operations in Syria and is moving toward an 
emerging strategic partnership. Could you say more about that 
emerging strategic partnership?
    General Austin. It is left to be seen where this will wind 
up, but we have seen a sort of strengthening of that 
relationship as time has passed.
    Russia came in, aligned itself with the regime, obviously, 
and also Iran and Lebanese Hezbollah. What I worry about is if 
that relationship between Syria, Russia, and Iran develops 
further, then it will present a problem for the region.
    Senator Cotton. On page 21, you state something similar 
there. They, Iran, ``also continue to support some Shiite 
surrogate groups in Bahrain and Saudi Arabia, Houthis in Yemen, 
and Lebanese Hezbollah, with a combination of money, arms, and 
training. Iran's emerging relationship with Russia further 
complicates the security environment as they look to expand 
their cooperation in areas that include the sale of high-end 
weapons.'' Can you say a little bit more about those high-end 
weapons that worry you?
    General Austin. We have seen recently the sale of high-end 
air defense capability from Russia to Iran, and that is a 
problem for everyone in the region. Also, coastal defense 
cruise missiles, as that type of technology migrates from 
Russia to Iran, it will eventually wind up in the hands of 
Lebanese Hezbollah.
    Senator Cotton. I am glad you raised coastal defense cruise 
missiles, because I would like to ask both you and General 
Rodriguez a question. The Levant in the eastern Mediterranean, 
North Africa, all kind of sits at the seam of your Areas of 
Operation [AOs] as well as European Command.
    What are the implications for a long-term, permanent 
presence with the kind of robust modernized weapons that Russia 
has in Syria? What are the implications for our sea control of 
the Mediterranean, for access to the Suez Canal, for some of 
our allies in the region?
    General Austin. There are potential threats there, Senator. 
I think Russia has had a presence in this region, as you know, 
for some time. I think we would have to do everything we can as 
part of an international community to put pressure on Russia to 
make sure that these weapons, that they do not move around the 
region freely.
    Senator Cotton. General Rodriguez?
    General Rodriguez. I agree, sir. I know General Breedlove 
does, too. We talk about this and it is important for it not to 
get anywhere. Thank you.
    Senator Cotton. General Rodriguez, if I could shift topics 
very briefly, my final question.
    What can you tell us about the ongoing violence in Burundi, 
specifically the extent to which old, ethnic rivalries between 
the Hutu and the Tutsi people are driving that conflict, and 
the impact it could have on the Great Lakes region more 
broadly?
    General Rodriguez. Yes, Senator. Thank you.
    The violence thus far is mainly political violence and has 
not degenerated to the direct ethnic issues that you talk about 
that have occurred, as you know, in the past. We are watching 
that every single day to make sure that that does not grow. 
Most of it has been politically motivated, ethnically 
motivated.
    Senator Cotton. Thank you very much.
    Senator Reed. On behalf of the chairman, Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your public service. Thank you, 
General Austin, for your long, enduring public service.
    We have been proud to have you as a citizen of Tampa, and 
as with General Votel. He will continue to be a citizen of 
Tampa for a while.
    Let me ask you about Libya. Do we have the capability, 
General Rodriguez, to prosecute a war in Libya against ISIL 
while at the same time going after them in other parts of the 
world, including Iraq and Syria?
    General Rodriguez. Senator, I think the answer to that is 
yes. It is a question of how much risk the Nation has to take 
with the readiness of the forces and how much you are going to 
commit versus how much you are going to maintain the readiness, 
sir.
    Senator Nelson. As I understand it, you all have a 
recommendation to the White House. Obviously, you cannot share 
that. That is internal conversation. In your status of forces, 
you feel that you have the capability that if the President's 
decision is to go after ISIL and other extremist elements in 
Libya, that we have the ability to thwart those elements?
    General Rodriguez. Yes, sir. I do, Senator.
    Senator Nelson. Thank you.
    Would any of you want to comment on the efforts around here 
to cut back on your headquarters staff?
    General Rodriguez. We have worked that hard throughout the 
headquarters to figure out the best place to cut back. That 
continues to move forward. We will support the efforts we are 
required to take.
    General Austin. We clearly want to leverage all of the 
capabilities that exist in the entire system, Senator. We want 
to avoid duplication of effort, wherever possible. As you look 
at U.S. Central Command, as you know, sir, as I mentioned 
earlier, we are involved in four major military operations 
simultaneously, if you include Afghanistan, Iraq, Syria, Yemen, 
and then this current, ongoing battle against terrorists in the 
region.
    It takes a fair amount of effort to maintain all of that 
and also do things to promote stability and security throughout 
the region as well.
    The effort to cut back on staff applies to everyone. I 
fully appreciate I have to do my part. Again, we also need the 
capability to maintain the efforts that we are involved in.
    General Votel. Senator Nelson, I would agree with the 
comments that have already been made on that. Certainly, there 
are opportunities here for us to simplify and streamline and 
reduce duplication. We should always be looking at that.
    The concern that I would have at SOCOM is we did make some 
decisions in the past year to move people from our headquarters 
out to our theater Special Operations Command, so we have 
recognized this in the past. We certainly should continue to 
look at how we create more efficiencies and certainly more 
effectiveness in how we are doing our headquarters 
responsibilities.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator McCain. [Presiding.] Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to thank the three of you for your outstanding 
service to our country.
    General Austin, in particular I want to thank you for all 
you have done for the Army and America. I had the opportunity 
to serve with you a decade ago. It was one of the highlights of 
my military career, although I must say I am a little concerned 
about the lack of marines sitting behind you. That was a joke.
    In all seriousness, to the staff, too, I know how much they 
put into these kinds of testimonies. I want to thank all of 
you, the men and women sitting behind you.
    I wanted to follow up on Senator McCain's and Senator 
Cotton's comments on the Iranian weapons sales from Russia to 
Iran, particularly the S-300 missile defense system. There was 
a recent article that talked about that system, which would be 
capable of rendering the Iranian skies inaccessible for most 
U.S. and Israeli jets.
    One thing that has not come up in the testimony: Is that 
not just a blatant violation of the U.N. Security Council 
conventional weapons ban against sales to the Iranians that is 
still in existence and a violation of the current Iranian 
nuclear deal that the United States and other countries signed?
    General Austin. Senator, I do not know if it is a violation 
of the nuclear deal. I will have to research that a bit. 
Clearly, it is concerning to everyone. These are things that 
will increase the amount of effort required to do whatever work 
we need to do. We will certainly find the ways and means to get 
the job done if required to do that. This makes it a little bit 
more difficult, but not impossible, Senator.
    Senator Sullivan. The three of you have decades--decades--
of experience with regard to service in the U.S. Army. Earlier, 
we were talking about a lot of focus on our special operations 
troops. There seems to be less focus in my view on our 
conventional Army.
    As you know, the Quadrennial Defense Review [QDR] in 2014 
required the Army to get down to a number of 450,000 Active 
Duty soldiers. I think General Mark Milley and others in the 
Army are looking at that as bringing very high levels of risk, 
given the new security challenges that our Nation faces, not 
only in CENTCOM and AFRICOM Areas of Responsibility [AORs] but 
really all over the world.
    I would like your professional military opinion on that 
number, given the increased threats that you personally see in 
your different AORs, the transnational terrorists that you are 
focused on.
    General Votel, do you agree with the statements by General 
Milley and Mr. Eric Fanning that our Army is getting 
dangerously small, given the current threat environment and 
that the number of 450,000 troops in terms of Active Duty Army 
is too high a risk, given our current threats, in your 
professional military judgment?
    General Votel. In my judgment, I do agree with General 
Milley in the comments that he has made in regards to that.
    I would just add, as I mentioned in my comments here, that 
as the Special Operations Commander, we are extraordinarily 
dependent on the services and the Army, in particular, because 
of what they bring in institutional and infrastructure 
capability that we are absolutely and 100 percent dependent on.
    I am concerned, as these reductions take place, the impact 
that it has on us directly and indirectly.
    Senator Sullivan. General, that is a great point. I think 
there is a lot of focus in this committee that, well, we do not 
need a big conventional force, we do not need airborne troops 
anymore, because we have these great special operators. They 
are great special operators, but they certainly cannot do it 
all in today's threat environment. Is that not correct?
    General Votel. Senator, I could not agree with you more. I 
would not want to give anyone the impression that Special 
Operations Command had all the capabilities it needed to do the 
operations that we do. Literally, everything we do is supported 
by some conventional force, whether it is ISR from the Air 
Force, close-air support from them, basing from the Army, 
logistics support, at-sea capabilities by the Navy. We are 
extraordinarily dependent on all of the services to support our 
activities.
    Senator Sullivan. General Rodriguez, General Austin, can 
you comment, in your professional military judgment, on what 
you think of the number right now, in terms of what a 450,000 
Active Duty Army does to our Nation's security?
    General Rodriguez. I absolutely agree with the Chief of 
Staff of the Army that that is high-risk. That is how he 
characterized that because of both the current operations that 
are going on with counterterrorism, as well as the threats from 
the four major challenges out there between Korea, Iran, China, 
and Russia. Thank you.
    General Austin. As you know, Senator, in a former life, I 
was Vice Chief of Staff of the Army. I was concerned about the 
direction that we were headed then and certainly even more 
concerned now. I do agree with General Milley's comments.
    Senator Sullivan. That 450,000 is too small?
    General Austin. Yes, sir. We are getting dangerously small 
here.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    It is hard for me to believe, General Rodriguez, that it 
has been nine years since AFRICOM. Before that time, of course 
we all remember, it was part of three different coms, including 
PACOM.
    I also remember back during the Clinton administration, I 
was opposed to sending troops into Bosnia. The excuse that was 
being used at that time was because of ethnic cleansing, and I 
recall saying on the Senate floor that for every person who has 
been ethnically cleansed in Bosnia, there have been 100 in any 
of the West African countries. It was something that was 
needed.
    It was brought out by Senator--I cannot remember which one 
it was; Senator Cotton, I think it was--about Burundi, that 
there is a problem over there. There are a lot of problems in 
Africa. They do not rise to the top where they can see it, but 
the President there, Pierre Nkurunziza, is one that our State 
Department opposed.
    It is my understanding, because I know him personally, and 
I have been with him several times--I have been to Burundi. He 
was legitimately put into office, but it was not an election. 
The reason that our State Department was opposed to him running 
again was because the term limits would have set in if that 
first term had been considered a whole term. You follow me 
there so far.
    Then when the courts came along, the Supreme Court in 
Burundi, and agreed that he was entitled to run again, then I 
think I will always believe that one of the big political 
problems that you pointed to in answering Senator Cotton's 
question was the fact that our State Department was very active 
in that race. Our State Department objected to the fact that he 
was running again, in spite of the fact that their Supreme 
Court had made that decision.
    Did you have any thoughts on that at the time? Were you 
involved in that discussion?
    General Rodriguez. I was not involved in that discussion, 
Senator. My thoughts continue to be focused on the military.
    Senator Inhofe. I appreciate that. I wish the State 
Department sometimes would follow that advice, too.
    There are other problems that have been brought out here. 
We have been talking about Libya, about Boko Haram in northern 
Nigeria, al Shabaab in Somalia. Other than those, and the 
discussion on Libya, what other areas do you see taking place, 
really hot issues right now, in Africa, other than the three I 
just mentioned?
    General Rodriguez. Sir, obviously, Al Qaeda and what is 
happening across northern Mali, and then you already mentioned 
Burundi, but we have challenges like that in both South Sudan 
and the Central African Republic, sir.
    Senator Inhofe. Maybe in Zimbabwe, too, with some of the 
problems we have down there.
    South Sudan, that is an interesting situation there, 
because I remember for years, South Sudan was wanting to get 
independence from Sudan and they finally did it, and then they 
end up in a civil war. What is the status of that civil war 
right now?
    General Rodriguez. Sir, that civil war continues. Both the 
leaders are being obstructionist people to limit the ability of 
that government to get back together again.
    Senator Inhofe. They are supposedly right now in Ethiopia, 
I think it is, trying to have peace talks. Do you see anything 
really productive going on there?
    General Rodriguez. The fact that the regional partners are 
pressing them diplomatically to come to a solution is a very, 
very good sign. I think that, unfortunately, that has happened 
before and we have not seen any progress. We are hoping there 
will be a breakthrough this time.
    Senator Inhofe. One last area that I have been interested 
in for a long time. In 2005, I went up to Gulu, Uganda, and I 
had two Senators with me, Senators John Boozman and Mike Enzi.
    That was the first time that the LRA had really surfaced in 
the minds of people as to how serious that thing was. Joseph 
Kony, while he started there, he ended up going as far south as 
Congo and maybe even western Rwanda and then up to the Central 
African Republic.
    Just last week, one of his top people--you can probably 
pronounce it better than I can--was done away with. Over the 
years, we have found others of his top people, Joseph Kony's, 
but it seems like he continues to go on, even though the level 
of abduction and tragedies has subsided quite a bit. Do you 
agree with that?
    General Rodriguez. General, we continue to pursue him with 
all means possible with our African Union Regional Task Force, 
sir.
    Senator Inhofe. Okay. That is all I care about.
    General Rodriguez. Thanks.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator McCain. Senator Sullivan had a couple more.
    Senator Sullivan. Thank you, Mr. Chairman.
    I just wanted to follow up on the chairman's opening 
statement when he talked about the micromanagement of 
operations.
    As you gentlemen are more than well-aware, looking at the 
levels of warfare--strategic, operational, tactical--and how 
when you go down that level, there is obviously some civilian 
involvement, but the further down, the conventional wisdom is, 
the less there should be civilian involvement.
    In fact, one of the classic criticisms of the Vietnam War 
and the conduct of that war was how it was micromanaged. 
Pictures of President Johnson at the White House, in the Oval 
Office, picking targets in Vietnam is often seen as a symbol of 
the mismanagement of that war.
    Yet let me just give you a couple quotes from some articles 
in the paper that talk about what seems to be extreme levels of 
micromanagement. I know the these are not easy questions, but I 
would like to get your view on it.
    There was a Wall Street Journal headline article last year 
where it said the U.S. military campaign against Islamist 
militants in Syria is being designed to allow President Barack 
Obama to exert a high degree of personal control going so far 
as to require that the military obtain presidential sign-offs 
for strikes in Syrian territory.
    Similarly, former Secretary Bob Gates recently said, when 
he was talking about the operational micromanagement, he said, 
``It drove me nuts to have National Security Council [NSC] 
staffers calling senior commanders out in the field, second-
guessing these commanders. When I was a deputy national 
security adviser, if I would have tried to call a field 
commander going around the Secretary of Defense or the chairman 
of the Joint Chiefs, I would have had my head handed to me, 
probably personally by the President.''
    Does the White House approve targets in terms of our 
operations in Syria? If so, is it helpful to have 20-somethings 
with no military experience on the NSC staff guessing what our 
commanders or second-guessing what our commanders are doing in 
the field?
    Does that happen? In the Wall Street Journal, it says the 
President was going to approve military targets in Syria.
    Does that help our operational tempo? It seems like it is 
micromanaging not even in the operational level of warfare but 
down to the tactical, which I think most of us think is a huge 
mistake.
    Do you care to comment on that? I know it is not an easy 
question, but to the extent you can be frank about that and how 
you can see the micromanagement, it would be helpful for us, in 
terms of our oversight capabilities.
    General Austin. Actually, Senator, the question as to 
whether or not the White House approves our strikes, picks our 
targets in Syria, that is an easy answer. The answer is no, 
that does not happen.
    Senator Sullivan. They do not approve of strike packages or 
targets that were focused on in Syria, in terms of what we are 
bombing or anything like that?
    General Austin. No, Senator. That does not happen. We have 
a process where we generate the intelligence. It goes into our 
target analysis, our target-generation process. Then it is 
approved by military commanders.
    Senator Sullivan. Related to that, when the Iranians took 
our sailors prisoner for that time, was there any involvement?
    How did that happen, General Austin, in terms of our Rules 
of Engagement [ROEs]? We had our sailors out there with 50 
caliber machine guns that are pretty forceful weapons. Was 
there any involvement out there from higher political forces 
that talked about ROEs, that, hey, we cannot return fire? How 
did our sailors get captured by Iranian forces? Why did they 
not return fire when they had the Iranians come upon them?
    General Austin. To answer your question as to whether or 
not there was intervention from a higher level of the White 
House in this particular incident, the answer is absolutely 
not. Things unfolded fairly rapidly with these young sailors. 
The investigation on that has just been completed. It has been 
forwarded up through channels to be reviewed by the Chief of 
Naval Operations [CNO]. It will take a bit more time for it to 
be finalized.
    What you know has been reported, in that the sailors veered 
off course, had a mechanical issue that they stopped to 
address, and when they did it, they were detained by Iranians.
    In terms of specifics on what happened between the Iranians 
and sailors, that will come out as a result of the 
investigation.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. It is interesting in these hearings, 
General, how it matters how the question is asked. I think 
facts are stubborn things.
    For example, for 16 months, we did not bomb the fuel trucks 
that ISIL was using, generating millions and millions of 
dollars in oil revenues. Now it is a fact that it was a 
recommendation that we hit those oil trucks. It was not turned 
down; it was never approved. This is what is so infuriating to 
so many of us. For 16 months, these fuel trucks went 
unmolested. God knows how many millions of dollars of fuel 
revenue was generated.
    Sixteen months later, we finally drop some leaflets and 
told the drivers to get out of the trucks.
    This hearing is adjourned.
    [Whereupon, at 11:47 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                                africom
    1. Senator Inhofe. How do you assess the effectiveness of AFRICOM 
and the importance of AFRICOM to the United States and her interests?
    General Rodriguez. USAFRICOM's effectiveness and importance are 
measured by its ability to fulfill its mission: United States Africa 
Command, in concert with interagency and international partners, builds 
defense capabilities, responds to crisis, and deters and defeats 
transnational threats in order to advance U.S. national interests and 
promote regional security, stability, and prosperity. Fulfilling this 
mission also meets the requirements directed by the Secretary of 
Defense in the 2015 Guidance for Employment of the Force (GEF) which 
outlines objectives to achieve in the next five years: 1) disrupt al 
Qaeda Associated Affiliates and other terrorist organizations; 2) 
protect U.S. Personnel and Facilities and secure access to protect U.S. 
interests; and 3) build the capacity of African Partners to counter 
illicit trafficking, provide defense and security, support peace 
operations, and provide humanitarian assistance I disaster response.
    USAFRICOM assesses mission effectiveness against our objectives 
each year in the Comprehensive Joint Assessment (CJA). Our Theater 
Campaign Plan (TCP) has five lines of effort that implement our plan to 
accomplish our GEF objectives. We assess each of our lines of effort 
and the corresponding intermediate military objectives quarterly, 
summarizing these assessments annually in the CJA.
    Africa is an enduring interest for the United States, and its 
importance continues to increase as African economies, population, and 
influence grow. Small but wise investments in African security 
institutions today offer disproportionate benefits to Africa, Europe 
and the United States. African solutions to African problems are, in 
the long run, in the best interest of Africans, Americans and, indeed, 
the world.
    In the most troubled spots on the continent, Africans have an 
understandable fear and distrust of the governments and security forces 
which are charged with promoting and guarding the welfare of the 
people. Predatory practices, patronage networks, corruption, political 
and economic exclusion of portions of the population, and inconsistent 
adherence to the rule of law combine to crush the hope of a future. 
These conditions create an environment ripe for the expansion of 
violent extremism and represent a threat not only to Africa, but to our 
European allies and the United States.
    Effectively addressing the threat -before, during, or after a 
military crisis--requires a comprehensive approach employing diplomacy, 
development, and defense to address the root causes of extremism and 
replace fear and uncertainty with trust and confidence in African 
institutions. This approach must seek improvements in governance, 
consistent adherence to the rule of law, and a society which offers 
equal political and economic opportunity to all people. Africa 
Command's contribution to this broad solution lies primarily in 
encouraging and enabling the professionalism of the African security 
institutions which will secure national populations, cooperate in 
addressing regional security concerns, and increasingly play a role in 
sustaining global stability.
    Our military strategy articulates a long-term, regionally focused 
approach to enabling our African partners. Our operational approach 
seeks to disrupt and neutralize transnational threats by building 
African partner defense capability and capacity. While we have achieved 
progress in several areas through close coordination with our partners, 
allies, and interagency partners, threats and challenges remain.
    In East Africa, we are helping to set the conditions for the 
eventual transition from the African Union Mission in Somalia (AMISOM) 
to the Somali National Army and the Federal Government of Somalia. 
However, al Shabaab remains a continuing threat and is conducting 
almost daily lethal asymmetric attacks in Somalia against AMISOM 
troops.
    In North Africa, Libya's insecurity has negative consequences for 
its people, its neighbors, Europe's southern flank, and our peace and 
security objectives in Africa and the Middle East. An international 
coalition to counter the Islamic State-Libya (IS-Libya) would support a 
functional Government of National Accord and reduce the risks of the 
expansion of IS Libya, further instability in North Africa, and the 
emergence of a direct threat to U.S. interests.
    Stability in Libya is a long-term proposition that will require an 
appropriate long-term strategy.
    Across West Africa, our partners and allies are countering 
terrorist organizations like Boko Haram through the Multinational Joint 
Task Force (MNJTF). With troops from Benin, Cameroon, Chad, Niger, and 
Nigeria, the MNJTF is a collaborative, regional effort to address Boko 
Haram's complex and lethal attacks aimed at terrorizing civilians and 
destabilizing governments.
    In Central Africa, through the combined efforts of civilian 
agencies, non-governmental organizations and military forces, the 
Lord's Resistance Army (LRA) no longer threatens regional stability, 
and its capacity to harm civilian populations has diminished greatly. 
Today, we estimate less than 200 LRA fighters remain and local 
communities are better prepared to protect themselves.
    USAFRICOM, through our ability to build relationships with African 
partners, is able to protect United States interests and prevent local 
threats from growing into trans-regional threats, but this requires 
both continuous assessment and measured long-term resourcing. The 
return on wise investments, however, is substantial. With this, 
USAFRICOM can keep strategic risk to the United States from Africa as 
moderate to low and prevent risk from rising to significant levels that 
threaten African, allied, and U.S. interests.

    2. Senator Inhofe. In 2006, General Chuck Wald published an article 
called ``The Phase Zero Campaign''--why is Phase Zero important and how 
does it apply to AFRICOM?
    General Rodriguez. The goal of Phase Zero activities is to achieve 
campaign objectives defined for each combatant command in the Guidance 
for Employment of the Force (GEF). Additionally, Phase Zero activities 
prevent crisis and mitigate the need for the execution of contingency 
plans. For USAFRICOM, Phase Zero activities promote stability and peace 
by building capacity in partner nations that enables them to be 
cooperative, trained, and prepared to help prevent or limit conflicts. 
Phase Zero activities include shaping operations against violent 
extremists organizations (VEOs) that allow space and time for capacity 
building efforts to be effective.
    Phase Zero activities place emphasis on interagency support and 
coordination. In many instances, Phase Zero involves execution of a 
broad national strategy where the Department of Defense and its 
programs play a supporting role in the larger U.S. Government effort. 
Over the long-term, Phase Zero results in an investment of fewer 
resources in a pre-crisis situation while avoiding an exponentially 
larger expenditure later. The central mechanisms for achieving success 
in Phase Zero operations lie in Security Force Assistance, exercises, 
engagements, operations, and posture. All are needed to achieve the 
combined effects that mitigate potential crisis.
    At USAFRICOM, Phase Zero is central to the Theater Campaign Plan 
(TCP). The USAFRICOM TCP defines three types of Phase Zero efforts 
required to mitigate conflict and achieve TCP objectives and end 
states: Decisive Efforts, Shaping Efforts, and Sustaining Efforts. For 
USAFRICOM, Decisive Efforts are focused on building African partner 
capacity and strengthening partnerships. Success in the Command's 
Decisive Efforts ultimately improve the willingness and capacity of our 
African partners. Shaping Efforts provide the necessary time and space 
for USAFRICOM to be successful in its Decisive Efforts over time. 
Shaping Efforts provide near-term disruption, degradation, and 
neutralization of VEOs in Africa in order to protect U.S. interests and 
create the conditions that allow for the development of African partner 
capabilities and capacity. Sustaining Efforts primarily consist of 
Setting the Force and Setting the Theater for the campaign. Sustaining 
Efforts are executed through our efforts to acquire posture, presence, 
agreements, and engagements.

    3. Senator Inhofe. Do you see operations in Africa increasing or 
decreasing over the next decade? Does AFRICOM have any resource 
shortfalls? If yes, what are they?
    General Rodriguez. The 2014 Quadrennial Defense Review (QDR) 
assesses that non-state actors will continue to exploit global 
connections to spread violent ideologies. Based on this and current 
trends, we expect the number of U.S. operations in Africa to increase 
over the next decade. Additionally, we expect to participate in or 
assist our European partners in their operations in north, west, and 
east Africa.
    We expect African social and democratic challenges will continue to 
generate crises requiring peacekeeping missions where the United States 
will be asked to provide enabling military assistance. We also expect 
Security Force Assistance activities to increase as USAFRICOM steadily 
builds the capacity of African partners.
    Given current missions, USAFRICOM does not have resource 
shortfalls. As operations in Africa increase, USAFRICOM will continue 
to assess the adequacy of resourcing efforts. The President's fiscal 
year 2017 budget addressed many of the African Theater priority 
programs and requirements. USAFRICOM worked closely with the Office of 
the Secretary of Defense and the Services to ensure the final 
President's budget addressed the complex African security environment, 
most notably, violent extremist organizations' ability to exploit and 
exacerbate instability and undermine African states' development. These 
critical investments included personnel recovery; intelligence, 
surveillance, and reconnaissance; strategic posture; African 
institution building; intelligence operations; and enabling support.

    4. Senator Inhofe. How do you foresee the African Union Regional 
Task Force and their American Advise and Assist teams eliminating the 
remainder of the Lord's Resistance Army in the coming year(s)?
    General Rodriguez. The mission against the Lord's Resistance Army 
is at a point now where intelligence and information sharing are the 
main drivers of success. USAFRICOM has an effective program to spread 
messages encouraging defection. From these defections, USAFRICOM is 
gaining intelligence on the Lord's Resistance Army. Continuing these 
defection messages and facilitating information sharing between the 
affected communities will yield the most promise in weakening what 
remains of the Lord's Resistance Army.
                                 socom
    5. Senator Inhofe. How is SOCOM leading DOD's transregional 
approach to synchronize actions against terrorist organizations?
    General Rodriguez. USSOCOM is the designated Coordinating Authority 
responsible for facilitating Trans-Regional Synchronization Forums and 
producing quarterly assessments that will inform Chairman of the Joint 
Chiefs of Staff (CJCS) and Secretary of Defense (SECDEF) prioritization 
and global resource allocation for countering trans-regional threats. 
This is a collaborative effort including DOD, Interagency, Intelligence 
Community, and coalition partners. USSOCOM has established a Trans-
Regional Synchronization Cell within its Operations Directorate that is 
responsible for aggregating data, developing assessments, and producing 
feasible, acceptable, and suitable strategic recommendations for CJCS 
and SECDEF consideration. The DOD Campaign Plan to Counter Trans-
Regional Terrorist Organizations (CP-CTTO) is in draft form and is 
expected to be signed by the SECDEF in the near future.

    6. Senator Inhofe. Is the Theater Special Operations Command that 
supports Africa fully manned as the others are? Are the rise in 
operations across CENTCOM and AFRICOM sustainable from a SOCOM 
perspective?
    General Votel. Yes, Special Operations Command Africa (SOCAF) is 
manned at a similar rate to other Theater Special Operations Commands 
(TSOCs). Headquarters USSOCOM realigned a significant number of 
authorizations to the TSOCs, including SOCAF, beginning in fiscal year 
2016. For the fiscal year 2016 growth, the vast majority of anticipated 
inbound personnel will begin arriving in the summer of 2016.
    Yes, current deployment rates remain sustainable while maintaining 
USSOCOM's readiness levels and its ability to surge forces in response 
to emergent contingencies and major plan execution. Likewise, USSOCOM 
can continue to meet priority emergent requirements through SECDEF 
approved reallocation of forces from lower priority missions.

    7. Senator Inhofe. What is the primary fiscal year 2017 cost driver 
for SOCOM?
    General Votel. Maintaining operational readiness continues to be 
the primary 2017 cost driver, followed closely by requirements 
associated with counter-terrorism (CT) and other operations including 
Operation Inherent Resolve and Operation Freedom's Sentinel. Readiness 
requirements to organize, train, and equip Special Operations Forces 
are contained throughout the entire fiscal year 2017 request in all 
appropriations, both baseline and Overseas Contingency Operations 
(OCO). CT and other operations are largely addressed in the OCO 
requests, but baseline funded capabilities also support current 
operations.

    8. Senator Inhofe. Has support from each of the services to SOCOM 
been reduced because of budgetary constraints or conventional OPTEMPO 
requirements? If yes, what have been the impacts?
    General Votel. With respect to budgetary constraints and the impact 
of service support to SOF, the Services have not yet fully identified 
where they would absorb future budget reductions; therefore, impacts on 
support to SOF cannot be itemized or assessed. Historical Service 
reductions continue to impact USSOCOM's components as follows:
    a. Army: Reductions to Military Training Specific Allotment (MTSA) 
curtailed mandatory education, which impacts morale, professional 
development, and career advancement of Army Special Operations Forces 
(SOF) personnel.
    b. Navy: Reductions impacted Facility Sustainment, Restoration, and 
Modernization (FSRM) support; fleet asset availability; and rotary wing 
training support associated with the fiscal year 2016 decommissioning 
of HSC-84/85.
    c. Air Force: Air Force-funded AC/MC-130 recapitalization 
restricted Air Force Special Operations Command's planned 
recapitalization to 79 of 94 aircraft as part of a fiscally constrained 
30-year Resource Allocation Plan. Budget prioritization within the Air 
Force has also resulted in service reduction in ISR capacity upon which 
SOCOM depends and heavily leverages for operational support.
    d. Marine Corps: Reductions included Marine Corps funded school 
seats, access to USMC ranges, availability of principal end items, and 
budget support for certain contracts.
    Given the historical impacts and lack of the Services' ability to 
absorb reductions, it is likely that their ability to optimally support 
SOF will be diminished, further straining an already challenged support 
structure and eventually affecting SOF operations and training in an 
adverse manner. Services' OPTEMPO has not been a major cause of support 
issues, although given the extensive Service-provided capabilities SOF 
relies on, it is possible OPTEMPO has been the reason a particular 
capability has not been available. It is not a major trend USSOCOM is 
tracking, and we deeply appreciate the Services' efforts to support SOF 
when needed.

    9. Senator Inhofe. Given current and planned funding, can SOCOM 
meet all combatant commanders SOF requirements?
    General Votel. USSOCOM cannot meet all combatant commanders' SOF 
requirements, but through application of the Department's strategic 
priorities, we are able to allocate SOF to the priority requirements in 
each theater. Current and planned funding remains sufficient to support 
the sustained deployment of SOF capabilities. However, any decrease in 
either base or Overseas Contingency Operations (OCO) funding could have 
a negative impact on our ability to sustain current readiness and 
deployment levels.
                                centcom
    10. Senator Inhofe. In your professional opinion, what are the 
implications of Russia's actions in Syria and the world's response, or 
lack of response, on Russia's international behavior?
    General Austin. Russia's deployment of combat aircraft and advisors 
to Syria last September probably prevented the collapse of the Asad 
regime and has enabled pro-regime forces to make modest battlefield 
gains against opposition groups. Russia's bombing campaign was 
initially focused against opposition forces in northwest Syria, further 
exacerbating the refugee crisis. Following the Cessation of Hostilities 
in late February, Russia has prioritized its counter-ISIL campaign, 
especially in the vicinity of Palmyra. Russia's recent actions against 
ISIL and Russia's March 14th partial force withdrawal announcement, 
which coincided with the restart of the Geneva III talks, was meant to 
demonstrate Russia's commitment to a diplomatic solution and garner 
goodwill from the international community, Syrian opposition, and the 
US-led coalition, with the ultimate goal of securing Russian interests 
with the future government of Syria. While the Russians are still 
supporting Asad, the withdrawal announcement was likely intended to 
place pressure on the Asad regime to participate more fully in the 
intra-Syrian talks. Russia has announced they will maintain their 
presence in Syria with naval forces, advanced fighters and air defense 
equipment. This equipment will hinder the ability of NATO and coalition 
forces to maneuver in the Levant and eastern Mediterranean Sea. Many 
countries, particularly those most affected by the migration crisis, 
are likely to view the Russian draw down in Syria as a positive step 
toward ending the conflict and will look positively on Russia as a main 
player in the peace negotiations. However, European countries are still 
striving to treat Russia's actions in Syria separately from its 
activities in Ukraine and are unlikely to support easing sanctions 
without movement to begin implementing the Minsk agreement.

    11. Senator Inhofe. What is the impact on CENTCOM's AOR of Russia's 
actions as well as proliferation of Russian weapons into your AOR?
    General Austin. Russia wants to be the chief competitor to the U.S. 
in the Middle East, and seeks to diminish and supplant U.S. influence 
via diplomatic, information, military, and economic means. Russia 
exploited perceived U.S. contraction in the region to gain influence, 
aggressively seeking energy and security agreements with Coalition 
allies and adversaries under the pretext of promoting regional security 
and stability. Russia shares with Iran the strategic goal of limiting 
U.S. regional influence and is fortifying its military and economic 
ties to the CENTCOM AOR. In September 2015, Moscow initiated military 
operations in Syria to protect its geopolitical and commercial 
interests--its greatest commitment of force outside its near borders in 
decades. Russia spearheaded the Russia-Syria-Iraq-Iran Coalition, 
ostensibly formed for the purpose of defeating ISIL. In reality, such a 
security agreement provides Russia with an open door into the Middle 
East economic and security environment, and likely increases the 
prospect of advanced weapons proliferation.

    12. Senator Inhofe. What are you doing to accelerate the timeline 
to retake Mosul and Raqqa?
    General Austin. [Deleted.]

    13. Senator Inhofe. With the typical spring offensive upon us, how 
prepared are the Afghan National Security Forces to stop the flow of 
fighters moving back and forth from Pakistan?
    General Austin. The Afghanistan-Pakistan border region is 
approximately 1400 miles long with topography ranging from barren 
desert to rugged mountain ranges, making it virtually impossible to 
control all cross-border movement. At the official crossing points, the 
Afghan Border Police are postured to monitor both vehicular and foot 
traffic, and with routine inspections, they are able to deter the 
movement of some ``bad-actors'' into the country. Patrols, border 
posts, and static checkpoints in the rural areas have a similar 
disruptive effect; however, it would be unrealistic to expect the 
Afghan forces to either prevent or substantially limit the movement of 
insurgent fighters across the porous border. Even at the height of the 
International Security Assistance Force mission, the coalition 
struggled with this issue.

    14. Senator Inhofe. Is there a shortage of smart munitions? If yes, 
what is the operational impact and when will the shortage be 
eliminated?
    General Austin. [Deleted.]
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                    kuwait equipment accountability
    15. Senator McCaskill. The Department of Defense Office of 
Inspector General recently put out a report addressing the 401st Army 
Field Support Brigade and Army Field Support Battalion-Kuwait 
deficiencies in processing wholesale equipment. The audit found the 
standard operating procedures for processing Army Pre-Positioned Stock 
and retrograde equipment were not updated which risked misreporting of 
equipment numbers and the potential for stolen equipment. Additionally, 
a lack of physical security controls for equipment in one location at 
Camp Arifjan resulted in the theft of two generators, valued at 
$52,000. The standard operating procedures were due to be updated by 
March 1st. Has this been completed?
    General Austin. Yes, the standard operating procedures were updated 
and sent to the DODIG lead inspector on 29 February 2016.

    16. Senator McCaskill. What actions have been taken to improve 
security controls at Camp Arifjan?
    General Austin. A security fencing project was initiated; the 
Statement of Work has been finalized and went out for solicitation on 
19 March 2016. Following the closure of the solicitation on 4 April 
2016, a vendor will be identified and construction will begin.

    17. Senator McCaskill. What actions are being taken to prevent 
these deficiencies from happening at other staging locations in the 
Area of Responsibility?
    General Austin. Other staging areas are secured with guards, 
fencing or both, and standard operating procedures have been reviewed 
and updated as required.
                                 ______
                                 
              Questions Submitted by Senator Joe Donnelly
                  u.s. combat air operations in syria
    18. Senator McCaskill. How do Syrian and Russian air defense 
systems currently impact our air operations in Syria?
    General Austin. [Deleted.]

    19. Senator McCaskill. How would operations be affected if the 
threat posture of those air defense systems were to increase?
    General Austin. [Deleted.]

    20. Senator McCaskill. With regard to air operations in Operational 
Inherent Resolve (OIR) and Operation Resolute Support (ORS), are there 
currently any operational demands that are not being met due to the 
limited availability of a particular aircraft?
    General Austin. [Deleted.]

    21. Senator McCaskill. If the U.S. Air Force had only B-1s, B-52s, 
F-16s, F-15Es, and MQ-1/9s to support the operations you are currently 
conducting in OIR, and did not have A-10s in theater, would your 
mission be less effective because of the lack of A-10 support?
    General Austin. If the overall number of CAS aircraft remained the 
same, the lack of A-10s in OIR would not make the Coalition less 
effective in our mission because CAS has fundamentally changed due to 
employment of GPS-guided weapons from medium altitude, making all of 
our fixed wing CAS aircraft equally effective in CAS. In fact, there 
were no A-10s supporting OIR for the first 3.5 months of the campaign, 
and our CAS missions were already very effective before the A-10s 
arrived. As of October 2017, we will require 10-12 fighter/attack 
aircraft to meet OIR requirements.

    22. Senator McCaskill. There are no A-10s performing close air 
support (CAS) in Afghanistan, where the preponderance of CENTCOM ground 
forces are engaging the enemy. How well have the Joint Forces been able 
to meet the CAS demand there?
    General Austin. [Deleted.]
                  preservation of force and the family
    23. Senator McCaskill. What are your greatest challenges in 
supporting the mental resilience of our special operations forces and 
their families?
    General Austin. Our most pressing challenge is suicides among our 
forces and their family members. Although we have seen a steady decline 
in suicides since implementing the Preservation of the Force and Family 
(POTFF), we will maintain our focus on this problem. While difficult to 
quantify, we believe that our efforts under the POTFF program are 
making a difference. One indicator of this is that the number of 
Service Members expressing suicidal ideations has dramatically 
increased. We view this as a positive indication that our leadership's 
support for seeking help, and the resources we have in place to provide 
that help, are benefiting our forces and their families.
    Countering the stigma associated with seeking behavioral health 
care will continue to be a challenge for the USSOCOM. While the 
increase in Service Members expressing suicidal ideations is a 
potential indicator that we are reducing stigma, there is still much to 
be done if we are to move our emphasis to prevention. Some of the 
efforts we have undertaken to reduce stigma include adding behavioral 
health content into our professional military education courses and 
initiating peer mentoring programs. We have also embedded 
multidisciplinary teams of behavioral healthcare providers, human 
performance specialists, and chaplains who work together to address the 
needs of our Service Members and their families. Through these efforts, 
we are working with leadership to encourage the use of behavioral 
health resources before there is a problem and establishing a culture 
in which maintaining psychological health is normal and expected.
    We have developed strong working relationships with the Department 
of Defense and the Services in the areas of behavioral healthcare, 
family programs, and suicide prevention. We have enjoyed phenomenal 
support across the board and are profoundly grateful for the support of 
the DOD and Congress. We will be paying particularly close attention to 
the support we receive from the DOD and Services as budgets are trimmed 
across the DOD and forces are reduced. USSOCOM continues to have a high 
operations tempo and will endeavor to maintain the infrastructure of 
support services that we have built under the POTFF program.
    Another challenge the Command has in terms of supporting the mental 
resilience of our forces and families is in taking care of our families 
and civilian work force. We appreciate the support Congress has given 
us in this regard with the authority to conduct pilot family programs, 
and while that authority allows us to address some of the needs of our 
families, we are unable to use Major Force Program-11 funds to hire 
personnel to coordinate and run family programs. The wellbeing of our 
civilian teammates is also a concern for the command. Many of our 
civilian employees are themselves veterans, and struggle with the same 
challenges that our Active Duty personnel do, yet we are unable to 
provide these employees with the counseling support and behavioral 
healthcare that our Service Members enjoy. USSOCOM has engaged with DOD 
to look for opportunities to provide non-medical counseling to our 
government employees that are DOD beneficiaries, and we will continue 
to explore opportunities to better support these team members.

    24. Senator McCaskill. What are your top priorities in the 
psychological component of the Preservation of the Force and Family 
program?
    General Votel. USSOCOM's top priority for the Preservation of the 
Force (POTFF) Psychological Performance Program (PPP) is to reduce 
suicides. To support this priority, there are several tasks that the 
Command has undertaken. The Command has implemented comprehensive 
reporting and tracking processes, so that we may examine the factors 
and trends associated with suicides. We have also undertaken a 
comprehensive review of all of our suicides over the past four years, 
which will be used to inform our future suicide prevention efforts.
    A key component of our suicide prevention efforts is our embedded 
behavioral health providers situated at our tactical units. This is a 
cornerstone of the PPP and maintaining this capability is a priority 
for the command. The proximity of these providers to the military 
members helps to demystify behavioral healthcare and provides 
unparalleled access to care, which would not be possible otherwise.
    Another priority for our PPP is to collaborate within the DOD, 
academia, and industry to identify and implement novel approaches to 
treating some of the most difficult issues faced by our Service 
Members, such as post-traumatic stress, traumatic brain injuries, and 
chronic pain. For example, this year we will be conducting a study in 
collaboration with the Uniform Service University to test the use of 
transcranial magnetic stimulation to treat post-concussive syndrome. We 
have also engaged in a multi-year study to examine the holistic effects 
of the POTFF program with Colorado State University. One of the primary 
goals of these research efforts is to ensure that we are developing and 
using the best evidence-based practices available to support our 
Service Members and their families.
    It is also a priority to ensure that we are addressing the needs of 
both our families and the community. POTFF cannot be considered 
holistic if we do not consider the social and environmental factors 
influencing the resiliency of our Service Members. The DOD and Services 
have been exceptionally supportive of USSOCOM in providing resources 
and programs to our forces and families. The DOD support, coupled with 
the authority Congress granted USSOCOM to conduct family programs, 
permits us to be responsive to the needs of our families in an 
exceedingly unpredictable, rapidly changing environment. Maintaining 
that level of support is also a priority for the command.

    25. Senator McCaskill. What are your top lessons learned on 
supporting the mental health of our special operations forces and their 
families and will you impart that knowledge to your potential 
successor, LTG Thomas?
    General Votel. Among the many lessons we have learned in supporting 
the mental health of our forces is that collaborative relationships 
with the Defense Health Agency (DHA), the Service medical departments, 
and others within the Department of Defense are essential to providing 
top notch behavioral healthcare. USSOCOM enjoys a strong, collaborative 
relationship with DHA and the Services, which has been hugely 
beneficial to the Command.
    The command has also learned that recruiting and retaining 
qualified behavioral healthcare providers can be difficult. Potential 
providers are carefully evaluated for their qualifications, experience 
using evidence-based treatments, and how they fit with the culture of 
the unit. A competitive market place, coupled with the high 
expectations of USSOCOM, has created some challenges to filling 
contracted and civil service positions for behavioral healthcare 
providers. Therefore, retaining those providers is important.
    We have also learned that dispelling stigma requires a shift in the 
cultural mores of the SOF community and an emphasis from leaders at all 
levels. To enable this, we have begun to introduce our leaders to POTFF 
capabilities as a part of their professional military education. 
Currently, we provide content on suicide prevention, sleep hygiene, 
crisis management, and other topics to our senior non-commissioned 
officers and pre-command course attendees. We are on track to expand 
this content to every level of our Service Member's education over the 
next two years.
    I will impart all these lessons to my successor to ensure 
continuity. LTG Thomas, now confirmed as the next USSOCOM Commander, is 
very familiar with challenges inherent in preserving our force and 
families, and the USSOCOM POTFF team is prepared to provide the 
information he will need to be as proactive as possible.
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
                authorities to prevent violent extremism
    26. Senator Kaine. I am keenly interested in our Commander's 
ability to encourage inter-governmental response to meet our security 
challenges, especially countering the rise of violence extremism and 
radicalization through community-level prevention programs. I was told 
that AFRICOM recently requested approval to transfer funding to USAID 
for community-led violence prevention programs in Agadez, Niger but 
were denied by the DOD Joint Staff legal experts due to a lack of 
authority for such transfer.
    Congress is always attempting to look for ways to help the DOD 
better incorporate inter-agency approaches to issues, would you support 
a new transfer authority that allows combatant commanders via the 
Department of Defense, to transfer funds to the Department of State or 
U.S. Agency for International Development for CVE efforts, like 
community level extremism prevention programs?
    General Rodriguez. USAFRICOM strongly supports the establishment of 
a mechanism that provides for transferring resources between agencies 
to support activities against threats to security and stability managed 
by the combatant commanders. Development programs that complement 
Security Force Assistance are essential to promote long-term stability 
in fragile or conflict affected states, to effectively and sufficiently 
counter violent extremism and radicalization.
    For example, USAFRICOM, SOCAFRICA, and the U.S. Agency for 
International Development (USAID) identified several sources of 
instability in the Agadez region of Niger: youth unemployment, youth 
disaffection, lack of confidence in the government, elections related 
violence, and population displacement due to military construction 
projects. We collectively identified existing USAID programs which 
could be rapidly expanded to reinforce stability in Agadez, however, 
USAFRICOM lacked the authority to transfer the funds.
    Another example is the transfer of DOD funds to the Department of 
Homeland Security and other agencies to assist with building capacity 
in willing African partners to improve point of entry security efforts 
(e.g., airports, seaports, border entry etc.) to interdict foreign 
fighter flow linked to terrorist threats. Additionally, instability 
across the Sahel coupled with illicit mining and trafficking calls for 
flexible multi-sectoral approaches which can be mobilized quickly.
    USG goals, which include diplomacy, development, and defense 
objectives, are best met when comprehensive solutions are implemented 
to stabilize regions and build resilient communities. Therefore, if 
efforts are to be successful, the DOD must have the flexibility to 
transfer funds between agencies and collaborate on holistic responses 
to counter current and emerging threats.

                                 [all]
</pre></body></html>
